<html>
<title> - S. 189, 21ST CENTURY NANOTECHNOLOGY RESEARCH AND DEVELOPMENT ACT</title>
<body><pre>[Senate Hearing 108-789]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 108-789

    S. 189, 21ST CENTURY NANOTECHNOLOGY RESEARCH AND DEVELOPMENT ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

97-599

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey

      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 1, 2003......................................     1
Statement of Senator Allen.......................................     1
Statement of Senator Sununu......................................    30
Statement of Senator Wyden.......................................     2
    Prepared statement...........................................     4

                               Witnesses

Baird, Dr. Davis, Professor and Chair, Department of Philosophy, 
  University of South Carolina...................................    35
    Prepared statement...........................................    36
Jiao, Jun, Ph.D., Co-Director, Center for Nanoscience and 
  Nanotechnology, Portland State University......................    48
    Prepared statement...........................................    50
Murday, Dr. James, Chief Scientist, Acting, Office of Naval 
  Research.......................................................     5
    Prepared statement...........................................     7
Murphy, Kent A., Ph.D., Founder and CEO, Luna Innovations........    54
    Prepared statement...........................................    56
Roberto, James, Ph.D., Associate Laboratory Director for Physical 
  Sciences, Oak Ridge National Laboratory........................    10
    Prepared statement...........................................    11
Teague, E. Clayton, Ph.D., Director, National Nanotechnology 
  Coordination Office............................................    13
    Prepared statement...........................................    15
Von Ehr II, James R., CEO, Zyvex Corporation.....................    58
    Prepared statement...........................................    59

                                Appendix

Cantwell, Hon. Maria, U.S. Senator from Washington, prepared 
  statement......................................................    71
Lautenberg, Hon. Frank, U.S. Senator from New Jersey, prepared 
  statement......................................................    72
Lieberman, Hon. Joseph I., U.S. Senator from Connecticut, 
  prepared statement.............................................    73
Response to written questions submitted by Hon. Frank Lautenberg 
  to:
    James R. Von Ehr II..........................................    74
    Dr. E. Clayton Teague........................................    76
Written questions submitted by Hon. John McCain to:
    Dr. Davis Baird..............................................    78
    Dr. Jun Jiao.................................................    78
    Dr. James Murday.............................................    77
    Dr. Kent A. Murphy...........................................    79
    Dr. James Roberto............................................    77
    Dr. E. Clayton Teague........................................    78
    James R. Von Ehr II..........................................    79

 
    S. 189, 21ST CENTURY NANOTECHNOLOGY RESEARCH AND DEVELOPMENT ACT

                              ----------                              


                         THURSDAY, MAY 1, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. George Allen 
presiding.

            OPENING STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Good afternoon to you all. Today, the 
Commerce Committee will examine S. 189, 21st Century 
Nanotechnology Research and Development Act.
    Senator Wyden, my good friend and counterpart and key 
leader and friend on this issue of nanotechnology, will be here 
shortly, and he'll have some opening remarks as well.
    We're going to look today in this hearing, in both panels, 
at the progress of the National Nanotechnology Initiative and 
the issues surrounding the transfer of basic nanotechnology 
research out of government and university labs into the private 
sector for commercial applications.
    And I do want to especially thank my colleague and friend, 
Senator Wyden on this issue. Last September, Senator Wyden and 
I held the first congressional hearing ever on the topic of 
nanotechnology. And at that time, many of our colleagues 
thought nanotechnology was too small of an issue to be 
concerned about to focus on. However, as elected leaders, I'm 
convinced that we need to focus and recognize that this 
industry is really at the verge of a tremendous revolution.
    There are companies in the private sector, like Hewlett 
Packard, General Motors, IBM, General Electric, Siemens, Intel, 
and Dell, all involved in nanotechnology research and 
development. Furthermore, I think that we all ought to 
recognize that we are not alone in this country being 
interested in nanotechnology. Indeed, when one will look at the 
global picture, we are falling a bit behind, insofar as our 
research and development in nanotechnology, and we're facing 
some stiff foreign competition in nanotech research from Japan, 
the European Union, Russia, Korea, and China. Now, this Nation, 
the United States, has been at the forefront of almost every 
important transformative technology since the industrial 
revolution, and we must continue to lead the world in the 
nanotechnology revolution, in my estimation.
    Now, our role, as elected leaders, should be to create or 
to foster the conditions precedent for our researchers and 
innovators to compete and contribute and succeed, both 
domestically and internationally. I am not here to say that we 
ought to guarantee anyone's success, but the Government's role 
is to make sure the field is fertile, our tax policies, our 
research policies, our regulatory policies, allow the creative 
minds in the private sector, in our colleges and universities, 
as well as in some of our Federal Government Agencies, to reach 
their full potential. And that's really why Senator Wyden and I 
introduced S. 189, to provide, in an organized and 
collaborative way, an approach to nanotechnology research and 
commercial economic development.
    Our strategic goal is logical and very clear. We want to 
leverage the government, academic, and corporate research 
capabilities and assets this country has currently available, 
and to allow our whole country, and those involved in it, to 
compete and succeed worldwide.
    Now, the groundbreaking nanotech projects today will mean 
substantial regional and national job growth in the future. Our 
legislation authorizes $678 million for grants to support 
basic, fundamental research and development and establish 
research centers of excellence that will bring together experts 
from the various disciplines, agencies, and private sector, as 
well as universities. This legislation also leverages and 
recognizes the work taking place at the state-led initiatives, 
like the ones in Virginia, Oregon, Texas, California, 
Pennsylvania, and New York.
    I'm especially pleased by the Bush Administration--good 
timing--especially pleased by the Bush Administration's focus 
and support for nanotech. The President requested $849 million 
for nanotechnology, which is a 10 percent increase over last 
year's request. If Congress approves this requested increase, 
the funding for the National Nanotechnology Initiative will 
have doubled since fiscal year 2001.
    Now, this afternoon we'll be hearing from an eminently 
qualified panel, two panels, to discuss this measure, Senate 
Bill S. 189, as well as technology transfer and the progress of 
nanotech research and development in the United States.
    I want to welcome all of our witnesses for being with us. 
Thank you for your willingness to be here, some from clear 
across the country and halfway across the country, and some 
from right around here in this region, but thank you for your 
willingness to testify before this Committee on this very 
important subject for our future.
    I will introduce each one of you in the panels as we 
proceed, but before I do that, I would like to ask my 
colleague, who's been a real partner and teammate in this 
effort in nanotechnology, Senator Wyden, if he has any opening 
remarks he may wish to make.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Well, thank you, Mr. Chairman. It's great to 
team up with you. And suffice it to say, we are going to be 
busy on the technology front over the next few months with 
Internet taxes and our legislation to ensure that the Net does 
not get barraged with a whole new array of taxes. And, of 
course, today we're focusing on a special priority you and I 
have had for a number of years. So I'm really pleased that the 
Oregon/Virginia Tech Alliance is alive and prospering, and I 
thank you for it.
    I would ask unanimous consent, Mr. Chairman, that my 
statement could be made a part of the record, and maybe I could 
just highlight a couple of my concerns.
    Suffice it to say a lot of Americans still think that 
nanotechnology is the stuff of science fiction or that it is 
certainly a fairly exotic discipline with widespread 
application far off in the future.
    I was home just last week in Oregon and met with a whole 
host of Oregon companies and academic leaders and scientists 
that certainly made it clear that practical applications of 
nanotechnology are available today. Nanoscale and microscale 
technologies, from computer printers to computer inks, have, in 
fact, already been created by companies in my home state. 
Companies in Oregon are fusing together the sciences of 
nanotechnology and microtechnology, which works on a slightly 
larger scale, and creating a variety of new innovations.
    The collaborative effort between Oregon's universities and 
technology companies, called Micro2Nano, intends to go ever 
further using nanotechnology to create biosensors, reactors, 
energy sources, medical devices, and the next generation of 
semiconductors.
    What our legislation, of course, does, as Chairman Allen 
has touched on, is provide the critically-needed funding not 
just for Oregon and Virginia that have been leaders in the 
field, but for programs across the country.
    I also think that the last major explosion of technology 
and information technology, offers a clear and positive 
precedent for the use of discipline-specific expert advisory 
panels, as opposed to the use of more general, less 
knowledgeable counselors. I bring this up only by way of saying 
that I know that we're going to have some debate with respect 
to the advisory council and who could handle this. Chairman 
Allen has been very reasonable in this, and probably out in the 
real world, nobody gets completely consumed by these kinds of 
questions. The National Research Council, in this book, an 
excellent book, ``Small Wonders, Endless Frontiers,'' stresses 
how important it is that there be an independent advisory 
council on nanotechnology, because if we're going to have a 
significant financial investment, it ought to be matched by a 
significant intellectual investment, and that ensures that we 
have the best possible people on this job. And Chairman Allen 
and I have had some more discussions on this with some 
obviously feeling that the President's Council of Advisors on 
Science and Technology should be the overseeing body in 
nanotechnology efforts. And I think virtually all the 
independent academic experts feel that the language we've got 
in our bill is appropriate.
    But, as I say, Chairman Allen and I have worked out all of 
these issues and certainly have come up with the resolutions to 
matters far more contentious than this. And I look forward to 
working with you, Mr. Chairman, on this and would close simply 
by welcoming one of our witnesses, Dr. Jun Jiao, of Portland 
State University. She is a leader in the field of research and 
development in a variety of nanotechnology disciplines, and I'm 
just thrilled that one of the great minds in the field is here 
today and wanted to welcome her. And I look forward to working 
with you, Mr. Chairman, to move this legislation quickly to the 
Senate floor.
    [The prepared statement of Senator Wyden follows:]

                 Prepared Statement of Hon. Ron Wyden, 
                        U.S. Senator from Oregon
    I want to thank my colleague from Virginia for convening today's 
hearing. I am pleased to count him as a supporter and cosponsor of the 
21st Century Nanotechnology Act. In fact, when I formerly Chaired the 
Subcommittee on Science, Technology and Space and the Senator from 
Virginia was the Ranking Member, we convened the Senate's first-ever 
hearing on the subject of nanotechnology. I am as pleased as he is to 
see the full Committee's attention turn to this subject again.
    The field of nanotechnology offers a unique pathway to the medical 
practices, materials and major innovations of the future. Now is the 
time not only to fund nanotech, but to marshal this country's efforts 
into a cohesive drive to lead the world in this field. To do that, this 
committee will need to ensure both adequate funding and expert advisory 
resources to the nation's nanotechnology programs.
    A lot of folks believe that nanotechnology is still the stuff of 
science fiction--or that its widespread application is still far off in 
the future. But on a recent trip home I was encouraged by Oregon 
companies' practical applications of nanotechnology today. Nanoscale 
and microscale technologies from computer printers to computer inks 
have already been created by Oregon companies. Today, companies in my 
state are fusing the sciences of nanotechnology and microtechnology, 
which works on a slightly larger scale, to create new innovations. A 
collaborative effort between Oregon's universities and technology 
companies called Micro2Nano intends to go farther--using nanotechnology 
to create biosensors, reactors, energy sources, medical devices, and 
next generation semiconductors.
    The key to all these advances will be adequate funding for research 
and development. The Wyden-Allen Legislation, the 21st Century 
Nanotechnology Research and Development Act, will provide that funding 
to nanotech not just in Oregon and Virginia, but across the country. In 
addition to providing research and educational grants, our bill 
establishes the nanotechnology infrastructure America currently lacks. 
That includes a national program to keep abreast of our global and 
economic competitiveness, and to consider ethical concerns. Research 
centers created in the bill would bring together experts from various 
disciplines to work together for better results.
    I want to be very clear this afternoon, however, that I do not 
believe funding and programs will do the job automatically. Equally 
essential to America's nanotechnology future is the advice and guidance 
of a qualified, expert panel of scientists who know this field inside 
and out. For that reason, I am not satisfied with proposals to make the 
President's Council of Advisors on Science and Technology the 
overseeing body for American nanotechnology efforts.
    The last major explosion of technology--information technology--
offers a clear and positive precedent for the creation of a discipline-
specific, expert advisory panel as opposed to the use of more general, 
less knowledgeable counselors. The Information Technology Research and 
Development (ITRD) initiative has described their expert advisory 
committee as quote, ``crucial'' to its effort to align federal research 
of science and technology as well as to develop advocates for the 
program. The expert guidance provided allowed America to move to the 
forefront of the information technology wave. I want no less for this 
country when it comes to nanotech.
    My legislation calls for an independent advisory panel on 
nanotechnology, and I intend to stick to that provision. A significant 
financial investment in nanotechnology must be matched by a significant 
intellectual investment. Only then can this country reap the full range 
of rewards offered by this burgeoning field.
    As today's hearing begins I would like particularly to welcome one 
of our witnesses, Dr. Jun Jiao of Portland State University. Dr. Jiao 
is a leader in the field of nanotechnology research and development. 
She will be one of the great minds to lead this country into the future 
with nanotechnology, and I look forward to today's discussion with her.

    Senator Allen. Thank you, Senator Wyden, for your great 
leadership and your comments about this hearing and the promise 
of nanotechnology.
    Now we're going to listen to the real experts. We're trying 
to facilitate and help you all move forward so you're improving 
our material sciences and biological sciences and life sciences 
and so forth.
    I'm going to first introduce the first panel and then hear 
from you in the order in which--I've made some brief 
predicatory remarks about each of you.
    First is Dr. James Murday. Dr. Murday is the Acting Chief 
of Science of the Office of Naval Research. Until recently, he 
served as Director of the National Nanotechnology Coordination 
Office, perfect to have you here. From May to August 1997, he 
also served as acting Director of Research for the Department 
of Defense Research and Engineering.
    Dr. James Roberto is the Associate Laboratory Director for 
Physical Sciences at Oak Ridge National Laboratory. He is 
responsible for ORNL's research portfolio in material science, 
condensed matter, physics, chemistry, and nuclear physics. He 
is a former president of the Materials Research Society and 
chair of the Division of Materials Physics of the American 
Physical Society. Now, is that right? American Physical 
Society? All right.
    And also we have, last but not least, Dr. Clayton Teague. 
Dr. Teague is the current Director of the National 
Nanotechnology Coordination Office. The NNCO provides day-to-
day technical and administrative support to the National 
Nanotechnology Initiative.
    Gentlemen, thank you all for being with us. We'd now would 
like to hear your insight and your views, and we'd like to 
start with you, Dr. Murday. Please proceed.

STATEMENT OF DR. JAMES MURDAY, CHIEF SCIENTIST, ACTING, OFFICE 
                       OF NAVAL RESEARCH

    Dr. Murday. Thank you.
    Chairman Allen, Senator Wyden, I'm pleased and honored for 
the opportunity to share some of my enthusiasm on the National 
Nanotechnology Initiative. As a scientist at the Office of 
Naval Research, in the Naval Research Laboratory, I've been 
engaged in fostering nanoscience since the early 1980s. And in 
the last two years, I culminated in the privilege of serving as 
the part-time director of the National Nanotechnology 
Coordination Office, or NNCO.
    Senator Allen. Move the microphone a little bit closer.
    Dr. Murday. Yes, sir. Thank you.
    And hopefully that experience over these 20 years has 
provided some insights that can help accelerate the rate of the 
science discovery and its transition into innovative 
technologies.
    Concurrent with my involvement in nanoscience, DOD interest 
dates back into the early 1980s. And by 1997, that interest was 
sufficiently mature that the DOD created a nanoscience 
strategic research topic in its basic research program. Thus, 
the DOD was a natural participant in the 1997 to 2000 year 
process of creating the national initiative, and that's one of 
the reasons, my engagement there, that I was asked to serve as 
the Director of the NNCO.
    DOD's interest in nanotechnology stems from its huge 
potential impact on national security and, by inference form 
that, homeland security, homeland defense. And its early entry 
into nanoscience means that we're in a position to enable some 
transitions, even in this time frame, without looking for 20 
years into the future. And I'll highlight one of those for you 
in a moment.
    For simplicity's sake, I tend to organize nanotechnologies 
as they pertain to national security and homeland defense into 
about three generic topic areas. One is nanoelectronics, 
photonics, magnetics--that's basically information-technology 
devices--sensors to acquire information, logic to process it, 
memory to store it, communicate and transmit that information, 
and ultimately to display it. And, from my observations in the 
electronics industry, I believe that by the end of this decade, 
essentially every electronic device that you, myself, and 
Defense acquisition, is going to want to buy is going to be 
enabled by having a nanostructure. Nanostructure inside will be 
pasted, or should be pasted, on all those devices. Having the 
capabilities that will add to those devices is going to be very 
important for information warfare, metric-centric warfare, for 
the uninhabited combat vehicles, the added intelligence 
necessary to take the man out of those immediate vehicles, 
automation to reduce manning--in fact, we're training through 
virtual reality, which I think will, in turn, spill down into 
our schools.
    The second generic topic area is what we call nanomaterials 
by design. And the DOD weapons and platforms frequently require 
much higher performance than one sees in their counterparts in 
the civilian sector. And the ability to maneuver things at the 
nanometer size scale is going to provide much greater 
capability to give higher performance.
    Now, I've got here an example of this. This is a 
nanostructured coating, the black coating you see. And these 
parts have been introduced into the fleet now; they're actually 
out in operation. They're in reduction gears on surface-ship 
air-conditioning units, they're in hull ball valves on 
submarines, and in several other applications. And the improved 
performance that we expect, and we're evaluating now in the 
field, are expected to yield considerable savings. The 
nanostructured coatings have a wear resistance that's five 
times greater than their microstructured counterparts, and they 
have 10 times the fatigue life. So this is a significant 
improvement.
    Because of these enhancements, this particular coating won 
an R&D 100 award in the year 2000. That's an award given to one 
of the top 100 technologies introduced into the marketplace in 
that year.
    The third generic area is in nano-biotechnology. And, by 
far, the greatest impact of that is going to be in medicine and 
health, but it relates also to the warfighter. We would be able 
to monitor physiological status. If you have a man out on 
point, you want to make sure that he's alert and not going to 
sleep on you. If you have somebody who's wounded, you'd like to 
have a system that could detect the status and perhaps start to 
take some recuperative action. But maybe more importantly, and 
it leads into the homeland security, as well, as in the area of 
chemical/biological warfare defense, weapons of mass 
destruction.
    If you think about this, if you work in the nanoscience, 
you can pick up and manipulate and measure individual atoms. 
These are very small. The chemical agents and the pathogens 
that we worry about in chemical/biological warfare are large in 
comparison. So it's relatively reasonable to expect that we can 
take those tools we're using in nanoscience and morph them into 
highly sensitive detection techniques. And, in fact, we're 
beginning to see that will happen. Further, since these can be 
miniaturized, you can have arrays of them, and that addresses 
the selectivity part of the problem.
    Dramatic advances in the sensor, you also can expect to see 
advances in protection, decontamination and therapeutics. 
Recognizing some of these opportunities, some of the DOD 
scientists organized a workshop, about a year ago, about 
nanotechnology innovation for chemical, biological, 
radiological, and explosive detection protection. That workshop 
came up with a set of recommendations, which has gone to the 
national initiative and will be part of the planning process as 
we go through a revitalization of that in NNI over the next 
year.
    Let me finish with a couple of observations from my tenure 
at the NNCO. The first is that having sweated the uncertainties 
in the transition from the Clinton to the Bush Administration 
and wondering whether we were going to survive as an 
initiative, I very much appreciate the incorporation of the 
initiative into law.
    The second point is, the Nanoscale Science Engineering 
Technology Committee is populated by a dedicated group of 
agency department nanotechnology champions, with Dr. Mike 
Rocco, of NSF as leader. Those champions are essential to the 
continued success of the NNI, and they now face a real task of 
taking a program that is just now leaving its infancy and 
moving into adolescence and making sure that we do that 
appropriately and we do it in a way that will help accelerate 
the transition into commercial products. And I can assure you 
that the interest and support that you are showing for the 
initiative is very important to this group of people and will 
help them accomplish that task.
    Thank you for your attention.
    [The prepared statement of Dr. Murday follows:]

   Prepared Statement of Dr. James Murday, Chief Scientist, Acting, 
                        Office of Naval Research
    Mr. Chairman, distinguished Members of the Committee, thank you for 
this opportunity to discuss Nanotechnology Research. You and the other 
Members of the Senate Committee on Commerce, Science, and 
Transportation have been leaders in calling attention, both nationally 
and in the Department of Defense, to the importance of funding basic 
research and to bringing new technology quickly from the scientist's 
bench to our Sailors and Marines.
Department of Defense Interest in Nanoscience
    The Department of Defense (DOD) has been investing in fundamental 
nanoscience research for over 20 years. For instance, one of the early 
programs dating into the 1980s was Ultra-Submicron Electronics Research 
(USER). In 1997, the DOD identified several Science & Technology (S&T) 
topics with the potential for significant impact on military 
technology; nanoscience was selected as one of those special research 
area (SRA) topics (see below for illustrative impact examples). A DOD 
Nanoscience SRA coordinating committee was established; its current 
membership is: Dr. Gernot Pomrenke, Air Force; Dr. John Pazik, Navy; 
and Dr. William Mullins, Army. Further, each Service has a coordinating 
group to guide its nanoscience program.
Nanoscale Opportunities with Potential Major DOD Impact:
    Nanoelectronics/Photonics/Magnetics

 <bullet>   Network Centric Warfare

 <bullet>   Information Warfare

 <bullet>   Uninhabited Combat Vehicles

 <bullet>   Automation/Robotics for Reduced Manning

 <bullet>   Effective Training through Virtual Reality

 <bullet>   Digital Signal Processing and Low Probability of Intercept

    Nanomaterials ``by Design''

 <bullet>   High Performance, Affordable Materials

 <bullet>   Multifunction Adaptive (Smart) Materials

 <bullet>   Nanoengineered Functional Materials (Metamaterials)

 <bullet>   Reduced Maintenance (halt nanoscale failure initiation)

    BioNanotechnology--Warfighter Protection

 <bullet>   Chemical/Biological Agent detection/destruction

 <bullet>   Human Performance/Health Monitor/Prophylaxis

    Since the DOD nanoscience programs are some 20 years old, one might 
expect to see transition successes. One example from each Service is 
illustrated here. Under Army funding Dr. Chad Mirkin, Northwestern 
University, has invented a way to utilize nanoclusters of gold for the 
sensitive, selective detection of DNA. This technology has been 
demonstrated to work for anthrax, has been commercialized by a start-up 
firm Nanosphere, and is under clinical evaluation. The Air Force is 
funding Triton Technologies Inc. under an Small Business Innovation 
Research (SBIR) program to insert nanostructured clay particles in 
polymers. One benefit of this composite is reduced gas permeability. 
This new material was marketed by Converse in athletic shoe heels with 
greater elasticity (He gas bubbles trapped by the low permeability 
polymer composite); the reduced permeability is also of interest for 
packages containing food, beverages and pharmaceuticals. The Navy is 
interested because nanoclay particles increase the fire resistance of 
organic composite materials for ship applications. Under Navy funding 
Inframat has developed a thermally sprayed coating of alumina/titania 
nanopowders. The properties of this coating are far superior to the 
micropowder equivalent; this product was one of the R&D Magazine 
selections as an R&D 100 award for the year 2000. The coating is 
presently under field evaluation on Naval ships.
    Each Service has its own laboratory nanoscience programs. The Army 
efforts in nano-electronics, nano-optics, organic light emitting diodes 
and displays, sensors, and Nano-Electromechanical Systems (NEMS) are 
centered at Army Research Laboratory (ARL) Adelphi; the work on organic 
nano-materials is largely at ARL Aberdeen. The Army's Natick Soldier 
Center (NSC) also invests in innovative nanotechnology initiatives, 
including projects in nano-photonics, nano-composites, nano-fiber 
membranes and photovoltaics. The Air Force nano-materials program is 
largely centered at Wright Patterson AFB in Dayton. It has work on 
nano-composites, inorganic nano-clusters, nano-phase metals and 
ceramics, nanotribology, nanobiomimetics and nanoelectronics. The Navy 
program is centered at the Naval Research Laboratory (NRL) in 
Washington DC. NRL has created a Nanoscience Institute with the goal of 
fostering interdisciplinary research that cuts across the NRL 
organizational structures. A new NRL Nanoscience Building will come on-
line in the fall of 2003; it has been specially designed to minimize 
those noise sources that would limit the precision of nanostructure 
measurement / manipulation. To fully exploit this new building 
capability, NRL will welcome collaborations with external researchers.
    In 2002, the Army established a University Affiliated Research 
Center (UARC), the Institute for Soldier Nanotechnologies (ISN), at the 
Massachusetts Institute of Technology (MIT), awarding a 5-year $50M 
contract for the development of nanoscale technologies for soldier 
performance and protection. ISN works in partnership with industry to 
produce revolutionary technologies to enhance soldier survivability in 
the battlespace. The industrial partners working with the ISN provide 
needed core competencies, expertise in transitioning technologies from 
the laboratory to the real world, and cost sharing.
DOD contributions to National Nanotechnology Initiative (NNI) Planning/
        Reporting
    The DOD has been an active participant in the initial Interagency 
Working Group on Nanostructures and its successor body, the Nanoscale 
Science, Engineering and Technology (NSET) committee. I, while a staff 
member at the Naval Research Laboratory, served as the first director 
of the National Nanotechnology Coordination Office. In addition, 
several workshops have been executed by DOD scientists/engineers in 
support of revisions to the NNI implementation plan.
    Nanoscience shows great promise for arrays of inexpensive, 
integrated, miniaturized sensors for chemical / biological / 
radiological / explosive (CBRE) agents, for nanostructures enabling 
protection against agents and for nanostructures that neutralize 
agents. The recent terrorist events motivated accelerated insertion of 
innovative technologies to improve the national security posture 
relative to CBRE. Since DOD has considerable experience in this topic, 
DOD scientists led the effort to redefine a NNI Grand Challenge to 
address this important topic. They also organized an AVS (formerly the 
American Vacuum Society) hosted workshop on Nanotechnology for CBRE 
Protection and Detection. The report for that workshop is available at: 
http://www.wtec.org/nanoreports/cbre/
    In the National Defense Authorization Act of 2003, Section 246, 
addressed the Defense Nanotechnology Research and Development Program. 
It states that the Secretary of Defense shall carry out a defense 
nanotechnology research and development program. The purposes of the 
program are stated as:
    (1) To ensure United States global superiority in nanotechnology 
necessary for meeting national security requirements.
    (2) To coordinate all nanoscale research and development within the 
Department of Defense, and to provide for inter-agency cooperation and 
collaboration on nanoscale research and development between the 
Department of Defense and other departments and agencies of the United 
States that are involved in nanoscale research and development.
    (3) To develop and manage a portfolio of fundamental and applied 
nanoscience and engineering research initiatives that is stable, 
consistent, and balanced across scientific disciplines.
    (4) To accelerate the transition and deployment of technologies and 
concepts derived from nanoscale research and development into the Armed 
Forces, and to establish policies, procedures, and standards for 
measuring the success of such efforts.
    (5) To collect, synthesize, and disseminate critical information on 
nanoscale research and development.
    The report directs the DOD Director of Defense Research and 
Engineering to submit to the congressional defense committees an annual 
report on the program. The report shall contain the following matters:
    (1) A review of----
      (A) the long-term challenges and specific technical goals of the 
program; and
      (B) the progress made toward meeting those challenges and 
achieving those goals.
    (2) An assessment of current and proposed funding levels, including 
the adequacy of such funding levels to support program activities.
    (3) A review of the coordination of activities within the 
Department of Defense, with other departments and agencies, and with 
the National Nanotechnology Initiative.
    (4) An assessment of the extent to which effective technology 
transition paths have been established as a result of activities under 
the program.
    (5) Recommendations for additional program activities to meet 
emerging national security requirements.
    The DOD will prepare these reviews, assessments, and 
recommendations in conjunction with the related efforts for the NNI as 
a whole.
    In closing, the Department of Defense investment in basic research 
over the last 20 years is paying off in transformational capabilities 
to the DOD. I have mentioned only a few examples within the DOD 
nanoscience Science & Technology program. I believe the Department of 
Defense successes in nanotechnology are significant, and I appreciate 
the opportunity to come before you today to tell you about them.

    Thank you.

    Senator Allen. Thank you very much, Dr. Murday, for your 
insight, and I also like your enthusiasm. Some people may look 
at this and think, ``Well, what is that? It's a piece of 
pipe,'' or whatever. But the specifics of it and the 
specifications and its longevity do mean a great deal, and it 
is--the way that we're going to have to compete and succeed in 
the future, is with these sort of, while seeming mundane, very, 
very significant improvements. And thank you very much.
    Now we'd like to hear from Dr. Roberto. Dr. Roberto?

         STATEMENT OF JAMES ROBERTO, Ph.D., ASSOCIATE 
 LABORATORY DIRECTOR FOR PHYSICAL SCIENCES, OAK RIDGE NATIONAL 
                           LABORATORY

    Dr. Roberto. Chairman Allen, Senator Wyden, I'm the 
Associate Laboratory Director for Physical Sciences at the Oak 
Ridge National Laboratory, which is a Department of Energy 
multi-program laboratory managed by UT/Battelle, a partnership 
of the University of Tennessee and the Battelle Memorial 
Institute. It is an honor to appear before the Committee in 
support of the 21st Century Nanotechnology R&D Act.
    In my role at Oak Ridge, I oversee the physical sciences, 
which includes nanoscale science and technology. This includes 
the development of ORNL's Center for Nanophased Materials 
Sciences, one of DOE's five planned nanoscale science research 
centers. These centers are state-of-the-art user facilities 
that we have located at Argonne, Berkeley, Brookhaven, Los 
Alamos, and Sandia, and Oak Ridge National Laboratories. Each 
center will focus on nanoscale research and development that 
leverages the unique capabilities of the host laboratory, 
including major synchrotron, neutron, and microfabrication 
facilities. The DOE nanotechnology centers will help fulfill a 
presidential priority of providing American researchers with 
the foremost capability in this breakthrough technology. Not 
only DOE researchers, but also other agencies, U.S. industry 
and universities will benefit from these centers.
    The excitement surrounding nanoscale science and technology 
is real. Recently, we held a DOE Nanoscale Science Research 
Centers workshop in Washington. We attracted more than 400 
scientists and engineers from 94 universities, 40 industries, 
and 15 federal laboratories. More than 2,000 researchers have 
attended regional and national workshops for these centers. In 
fact, it's difficult to find a month without a national or 
international meeting in this field.
    Nanoscale science and technology crosscuts the traditional 
disciplines of material science, chemistry, physics, biology, 
computational science, and engineering. It occupies the 
frontiers of these fields and includes some of the most 
challenging research problems. The solution to these problems 
offer a line of sight to technical advances of enormous 
potential in materials, information technology, health care, 
and national security. Many see nanotechnology as the basis of 
the next industrial revolution.
    For the Department of Energy, the opportunities that are 
afforded by nanoscale science and technology are unprecedented. 
Research on the synthesis and properties of nanoscale systems 
consisting of tens to thousands of atoms underpins progress in 
a multitude of high-impact fields, including catalysis science, 
photovoltaic, sensor technology, high-performance alloys, and 
advanced materials for fuel cells and hydrogen storage. 
Applications include low-cost, high-efficiency solar cells, 
materials that are 10 to 100 times stronger than steel at one-
sixth the weight, energy-efficient smart coatings for windows, 
high-efficiency solid-state lighting, and new catalysts for 
energy conversion and chemical processing. These applications 
offer enormous energy, national security, environmental, and 
economic benefits.
    John Marburger, the Director of OSTP, describes the 
nanotechnology revolution as one in which the notion that 
everything is made of atoms has a real operational 
significance. This has been made possible by extraordinary 
tools, such as synchrotron light sources, neutron sources, 
electron microscopes, scanning probe microscopes, and high-
performance computers. These tools have enabled the atomic 
scale characterization, manipulation, and simulation of complex 
assemblies of atoms and molecules. This bottoms-up view of the 
physical world embraces breathtaking complexity and seemingly 
endless possibilities.
    We are now at a crossroads in the physical sciences. The 
boundaries between the scientific disciplines are disappearing 
at the nanoscale. The study of simple isolated systems is 
giving way to complex assemblies. We are moving from atomic-
scale characterization to atomic-scale control, from 
miniaturization to self assembly. This paradigm shift for the 
physical sciences rivals other revolutions in science, such as 
the revolution in biology following the discovery of the 
molecular structure of DNA.
    It is this opportunity and the technological impact that 
will result that underpins the 21st Century Nanotechnology 
Research and Development Act. This act is an important element 
of the strategy to strengthen the physical sciences in the 
United States. Other components include the Nanotechnology 
Research and Development Act, the Energy Research Development, 
Demonstration, and Commercial Application Act, and Energy 
Science Research Investment Act.
    The traceability of advances in the physical sciences to 
economic growth, new medical technology, energy independence, 
and enhanced national security is very strong. As you know, the 
President's Council of Advisors on Science and Technology has 
given high priority to strengthening the physical sciences, 
including nanoscale science and technology.
    I appreciate the committee's leadership in this area. I 
firmly believe that the future of our Nation depends on 
continued leadership at the scientific and technological 
frontier, a frontier that includes nanoscale science and 
technology.
    Thank you.
    [The prepared statement of Dr. Roberto follows:]

   Prepared Statement of James Roberto, Ph.D., Associate Laboratory 
     Director for Physical Sciences, Oak Ridge National Laboratory
    Mr. Chairman and Members of the Committee:

    My name is James Roberto, and I am the Associate Laboratory 
Director for Physical Sciences at Oak Ridge National Laboratory (ORNL). 
ORNL is a Department of Energy multiprogram laboratory managed by UT-
Battelle, LLC, a partnership of the University of Tennessee and 
Battelle Memorial Institute. It is an honor to appear before the 
Committee in support of the 21st Century Nanotechnology Research and 
Development Act.
    In my role at ORNL I oversee the physical sciences, including 
nanoscale science and technology. This includes the development of 
ORNL's Center for Nanophase Materials Sciences (CNMS), one of DOE's 
five planned Nanoscale Science Research Centers. The Nanoscale Science 
Research Centers are state-of-the-art user facilities for nanoscale 
science and technology that will be located at Argonne, Berkeley, 
Brookhaven, Los Alamos and Sandia, and Oak Ridge National Laboratories. 
Each Center will focus on nanoscale research and development that 
leverages the unique capabilities of the host laboratory including 
major synchrotron, neutron, and microfabrication facilities. The DOE 
nanotechnology centers will help fulfill a Presidential priority of 
providing American researchers with the foremost capability in this 
breakthrough technology. Not only will DOE researchers benefit from 
these centers, but also other agencies, U.S. industry and our 
universities will benefit from these new capabilities.
    The excitement surrounding nanoscale science and technology is 
real. The recent DOE Nanoscale Science Research Centers Workshop and 
National Users Meeting in Washington, DC, attracted more than 400 
scientists and engineers from 94 universities, 40 industries, and 15 
federal laboratories. More than 2000 researchers have attended regional 
and national workshops for the DOE Nanoscale Science Research Centers. 
It is difficult to find a month without a national or international 
meeting in this field.
    Nanoscale science and technology crosscuts the traditional 
disciplines of materials science, chemistry, physics, biology, 
computational science, and engineering. It occupies the frontiers of 
these fields and includes some of the most challenging research 
problems. The solutions to these problems offer a line-of-sight to 
technical advances of enormous potential in materials, information 
technology, healthcare, and national security. Many see nanotechnology 
as the basis of the next industrial revolution.
    For the Department of Energy, the opportunities provided by 
nanoscale science and technology are unprecedented. Research on the 
synthesis and properties of nanoscale systems consisting of tens to 
thousands of atoms underpins progress in a multitude of high-impact 
fields including catalysis science, photovoltaics and thermoelectrics, 
sensor technology, high-performance alloys, advanced materials for fuel 
cells and hydrogen storage, and membrane technology. Applications 
include low-cost high-efficiency solar cells, materials 10-100 times 
the strength of steel at 1/6th the weight, energy-efficient ``smart'' 
coatings for windows, high-efficiency solid state lighting devices, and 
new catalysts for energy conversion and chemical processing. These 
applications offer enormous energy, national security, environmental, 
and economic benefits.
    John Marburger, Director of the Office of Science and Technology 
Policy, describes the nanotechnology revolution as one in which ``the 
notion that everything is made of atoms has a real operational 
significance.'' This has been made possible by extraordinary tools such 
as synchrotron light sources, neutron sources, electron microscopes, 
scanning probe microscopes, and high-performance computers. These tools 
have enabled the atomic-scale characterization, manipulation, and 
simulation of complex assemblies of atoms and molecules. This is a 
``bottoms up'' view of the physical world--Mother Nature's view--that 
embraces breathtaking complexity and seemingly endless possibilities.
    We are at a crossroads in the physical sciences. The boundaries 
between scientific disciplines are disappearing at the nanoscale. The 
study of simple, isolated systems is giving way to complex assemblies. 
We are moving from atomic-scale characterization to atomic-scale 
control, from miniaturization to self-assembly. Change is opportunity, 
and this paradigm shift for the physical sciences rivals other 
revolutions in science, such as the revolution in biology following the 
discovery of the molecular structure of DNA.
    It is this opportunity, and the technological impact that will 
result, that underpin the 21st Century Nanotechnology Research and 
Development Act. This Act is an important element of the strategy to 
strengthen the physical sciences in the United States. Other components 
include The Nanotechnology Research and Development Act of 2003 (H.R. 
766), the Energy Research, Development, Demonstration, and Commercial 
Application Act of 2003 (H.R. 238) and the Energy and Science Research 
Investment Act of 2003 (S. 917 and H.R. 34). The traceability of 
advances in the physical sciences to economic growth, new medical 
technology, energy independence, and enhanced national security is 
strong. As you know, the President's Council of Advisors on Science and 
Technology (PCAST) has given high priority to strengthening the 
physical sciences, including nanoscale science and technology. I 
appreciate the Committee's leadership in this area, and I firmly 
believe that the future of our Nation depends on continued leadership 
at the scientific and technological frontier, a frontier that includes 
nanoscale science and technology.

    Senator Allen. Thank you, Dr. Roberto, and we'll have 
questions for you later, because I'm all intrigued by some of 
those great advancements you're talking about there at Oak 
Ridge.
    Now we'd like to hear from Dr. Clayton Teague, director of 
the National Nanotechnology Coordination Office.
    Dr. Teague?

   STATEMENT OF E. CLAYTON TEAGUE, Ph.D., DIRECTOR, NATIONAL 
               NANOTECHNOLOGY COORDINATION OFFICE

    Dr. Teague. Yes, thank you.
    Mr. Chairman, Senator Wyden, and Senator Sununu, I am 
pleased and honored to have this opportunity to appear before 
you today to address the plans for the National Nanotechnology 
Coordination Office and the Nanoscale Science Engineering and 
Technology, or the NSET Subcommittee, of the National Science 
and Technology Council.
    I believe strongly in the potential and the importance of 
nanotechnology for the security, the economic prosperity, and 
the welfare of our Nation. I also share this Committee's belief 
that federal support for nanotechnology R&D is essential for 
the nation to realize the full benefits of this emerging field.
    I've submitted my written testimony for your consideration, 
so here I would just emphasize three important points from that 
record.
    The first one, nanotechnology is practically limitless in 
its potential for creating new materials, new devices, and 
systems. The initial commercialization and economic impact that 
we're just beginning to see is only a hint of what I think is 
to come. Let me illustrate.
    There are 6,720 ways to permute the six different letters 
among the eight characters or places in the name of the 
Chairman's State, Virginia. There are 6,720 ways to permute the 
six different letters among the eight characters or places in 
the name of the Chairman's State, Virginia. So if you took the 
six different characters and you looked at all the possible 
ways that you could relocate them, you would find there are 
6,720 different ways that you could do that.
    So now if you imagine the huge number of possible 
permutations of the 91 atoms that make up the periodic table 
among the millions of places in a small nanostructure, what we 
can build, if you think about all of those possibilities, will 
really be limited more by our creativity and our imagination 
than by the laws of physics. However, the great promise that 
we've just talked about, in terms of that rich area, must be 
tempered with the realization that our nanotechnology 
capabilities are in a very embryonic and infant stage, as Dr. 
Murday had talked about.
    As someone who was involved in it for many years, it's sort 
of surprising to realize that it's taken us 20 years to 
progress from the ability to see atoms, and then to manipulate 
them, and finally, a few years ago, to build a simple three-
atom structure. Twenty years. So to build a nanostructure large 
enough to observe in an optical microscope, about one 
micrometer, would require assembling millions of atoms. I hope 
that talking about that in that sense would give you a sense of 
the amazing potential that nanotechology has and also a sense 
of the tasks remaining for us to realize that potential.
    My second point, nanotechnology research has potential 
applications in all the multiple-agency mission areas, and the 
NNI and the NCET were created to ensure coordination to ensure 
federal funding and to engender the rapid development of 
nanotechnology in the United States.
    Technology transfer and commercialization have been the key 
elements of the NNI plan from its inception. The NCET and 
members agencies have responded by designing industry outreach 
activities into their NNI-related programs. Some specific 
examples are given in my written testimony, and I believe if 
you examine those that you will see that their impact is 
evidenced by the exponential growth over the past several years 
in the number of technical papers and articles that have been 
written on nanotechnology, the number of U.S. patents that have 
been filed, nanotechnology companies formed, and products 
brought to the market.
    Nanotechnology-based products that have become available, 
just even over the last year, range from water filters for 
removing harmful microorganisms to protective and glare-
reducing coatings for eyeglasses and cars to stain-free 
clothing and mattresses. For the future, nanotechnology 
promises a lot of the things you've already heard about today, 
but breakthroughs in biomedicine, sensor technologies, and 
energy production and storage.
    My third and final point, the NNI has grown in scope and 
scale over the last four years, and it's now in a stage for 
refocusing and strengthening, including a review by the 
President's Council of Advisors on Science and Technology, the 
PCAST.
    PCAST will serve as the independent-standing nanoscience 
and nanotechnology advisory board called for in the recent NRC 
report that Senator Wyden mentioned. The PCAST is well-suited 
to conduct this review since its members have extensive 
expertise in technological developments, the operation of 
federal R&D programs and technology transfer. The PCAST panel 
also has the seniority and the visibility that will assure that 
its findings have impact. PCAST and co-chair Floyd Kvamme have 
already begun their review and planning processes.
    PCAST's work plan focuses on first refining the grand-
challenge topics to guide the NNI program; and, second, 
assisting in the development of an NNI strategic plan that was 
also called for in the NRC report. These two tasks are 
complementary to the activities of the NCET toward formulating 
a new NNI strategic plan.
    In summary, nanotechnology is still at a very early stage 
of development, and there are tremendous opportunities and 
challenges before us. The NNI has, for almost five years now, 
served as an effective means for coordinating federally funded 
activities in nanotechnology. As this initiative matures and 
grows, the NNCO is scaling up to meet the additional 
responsibilities that this entails.
    We greatly appreciate the endorsement of the NNI's 
achievements and potential that was implicit in the language of 
the proposed 21st Century Nanotechnology Research and 
Development Act.
    Mr. Chairman and Senator Wyden and Senator Sununu, we thank 
you, again, for your support in bringing this bill forth. The 
NNCO staff and I look forward to working with the other members 
of the NCET, PCAST, and the legislative branch to move the NNI, 
hopefully, into the next stage of the maturing era of the 
nanotechnology program.
    Thank you.
    [The prepared statement of Dr. Teague follows:]

  Prepared Statement of E. Clayton Teague, Ph.D., Director, National 
                   Nanotechnology Coordination Office
    Chairman Allen, Senator Wyden, Members of the Committee, I am 
pleased and honored to have this opportunity to appear before you today 
in behalf of the National Nanotechnology Coordination Office (NNCO) and 
the Nanoscale Science, Engineering, and Technology (NSET) Subcommittee 
of the National Science and Technology Council (NSTC). I, and all 
agency representatives on the NSET Subcommittee, believe strongly in 
the tremendous potential and importance of nanotechnology for the 
security, economic prosperity, and general welfare of our nation. We 
also share this Committee's belief that federal support for 
nanotechnology R&D is essential for efficient development of the 
scientific understanding, advanced facilities, education, and standards 
necessary for timely translation of R&D in nanotechnology into true 
economic development.
    As the National Nanotechnology Initiative (NNI) has defined it, 
nanotechnology is the ability to work--to see, measure, and 
manipulate--at the atomic, molecular, and supramolecular levels, in the 
length scale of approximately 1-100 nm range, with the goal of 
understanding and creating useful materials, devices, and systems that 
exploit the fundamentally new properties, phenomena, and functions 
resulting from their small structure. So, nanotechnology is not just 
the study of small things. Nanoscale research and development is the 
study of materials, devices, and systems that exhibit physical and 
chemical properties quite different from those found in larger scale 
systems. Take the semiconductor cadmium sulfide as an example. In its 
large-scale form, it is typically used as a material for constructing 
detectors of light. But, when it is formed as small crystals of less 
than 10 nm--termed quantum dots--the material as a nanostructure has 
the property of fluorescing with a color dependent on the size of the 
crystal. In a demonstration accompanying this testimony, I would like 
to show the Committee this nanoscale size-dependent phenomenon. When 
illuminated with near-ultraviolet light, five vials of liquid 
containing cadmium sulfide quantum dots ranging in size from 3 
nanometers to 7 nanometers will be shown to fluoresce with colors 
ranging from blue to red, the blue light being produced by the 3 
nanometer quantum dots and the red light being produced by the 7 
nanometer quantum dots. Such size-dependent quantum dots and nanorods 
promise to have a wide range of applications in improved solar cells, 
biological imaging of cells, and faster DNA testing.
    This NSET focused definition of nanotechnology, along with the NNI 
vision and program elements, were carefully prescribed in the basic 
research directions document for the NNI, drafted in 1999. The 
definition, vision, and program elements have served the program as 
guiding principles for the NNI since that time. More than thirty other 
countries have also modeled their nanotechnology programs on the NNI.
    As a scientist who has worked for over twenty-five years in some of 
the fields now included in nanotechnology, I'd now like to offer my 
perspective on how this technology is developing. Then, I'll describe 
plans for the NNCO and the interactions underway between the NNCO, the 
NSET Subcommittee, and the President's Council of Advisors on Science 
and Technology (PCAST).
    I had the privilege early in my career of observing the phenomenon 
of quantum mechanical tunneling between two small gold spheres spaced 
about one nanometer--ten atomic diameters--apart. In classical physics 
no current flow would occur between metals not touching. But in quantum 
mechanics, the electrons ``tunnel'' through this potential energy 
barrier produced by the physical gap. With a small voltage applied 
between the spheres, changing the spacing between them by only one 
atomic diameter would cause the current flow to change by a factor of 
ten, an extraordinarily large change. This characteristic of quantum 
mechanical tunneling between two closely spaced metals--known and 
predicted by theory--proved to be the basis for the totally unexpected 
discovery later by Gerd Binnig and Heinrich Rhorer that by carefully 
moving a sharpened metal tip about one nanometer above a surface one 
could resolve and draw images of the individual atoms constituting the 
surface. For the first time in scientific history, we could virtually 
reach down and touch the very rudiments of all matter--the atoms! 
Nothing in my career has generated as much sustained excitement and 
stirred as much imagination and creativity as did this discovery. That 
was twenty years ago, and I still marvel at the beautiful and refined 
images of atoms obtained with this instrument, the scanning tunneling 
microscope.
    About ten years later, Don Eigler and colleagues demonstrated that 
using a scanning tunneling microscope they could not only reach down 
and touch the atoms but, in addition, could controllably move 
individual atoms around on a surface and build atomic structures they 
designed--atomically precise letters of the alphabet and quantum 
corrals for electrons. There have been many other developments since 
then leading to the current rapid development of nanotechnology, but 
these two demonstrations are clearly the events that energized the 
scientific community to begin thinking seriously about the real 
possibility of atom-by-atom structuring of matter.
    Parallel to these developments in the direct mechanical 
manipulation of atoms with the scanning tunneling microscope, similar 
exciting things were taking place in other fields now included in 
nanotechnology. The discovery of fullerene molecules--buckyballs and 
nanotubes--sprang from the study of small clusters of carbon; ultra 
miniaturization of microelectronics produced the burgeoning field of 
thin film superlattices and quantum dots; DNA and other biomolecules 
emerged from biotechnology as unique building blocks; the study of very 
large or supramolecules produced surprisingly efficient catalysts. This 
is only a small number of the fields overlapping with the field now 
termed nanotechnology; each has its own exciting story of discovery and 
rapid development over the last ten years or so.
    With all these approaches and processes, just imagine the 
astounding number of structures one can build with the 91 atoms of the 
periodic table. The rich possibilities may be appreciated by 
considering the large number of atoms in typical nanoscale sized 
structures. Nanoscale structures with dimensions of 1 nanometer can 
contain up to about 100 atoms; those with dimensions of 2 nanometers, 
up to about 1000 atoms; and those with dimensions of 100 nanometers, up 
to about 100 million atoms. The number of possible structures within 
this nanoscale size range isn't infinite but it is huge. The structures 
that we can build will be limited more by our creativity and 
imagination than by the ultimate bounding of possibilities posed by the 
laws of physics.
    So where are we in our abilities to realize all these wonderfully 
rich possibilities, and why is there a need for so much research and 
development? First, even with the rapid progress made in scanning probe 
techniques for assembling atoms, the first assembly of atoms involving 
true molecular bonding was only achieved in 2000 and that was 
assembling a three-atom structure. Currently, we have an inadequate 
degree of control at the nanoscale and our tools and processes for 
assembling atoms are very slow. We still do not have the understanding, 
the tools, and processes for the full control of assembling reasonably 
large numbers of atoms into desired structures. As an example, we 
cannot form single wall nanotubes with a known twist or chirality. This 
is critical because depending on the twist of the nanotubes; they may 
be metals or semiconductors. Speed in forming a macroscopic quantity of 
these nanostructures, say enough for a drug tablet, is critical because 
it requires assembling about a million, billion, billion, atoms! 
Innovative combinations of top-down tools such as lithography with 
methods of directed self-assembly of atoms and molecules have provided 
means to overcome some of the speed limitations yet with some resultant 
loss in ultimate control of the atomic and molecular form of the 
resulting structures.
    This gives you a sense of the task remaining before us and the 
amazing potential for making new materials, devices and systems as we 
continue to engage the challenges.
In the Marketplace Today
    Relative to the long-range potential just outlined, nanotechnology 
is truly in its embryonic stage of development. Yet, many important 
nanotechnology-based products are already in use today. Few people are 
aware of these first commercial nano products because they are more 
incremental than revolutionary.
    Some applications of nanotechnology have been in use for many 
years, and we can now begin to appreciate their economic impact. The 
U.S. oil industry saves an estimated 400 million barrels of oil each 
year, representing some $12 billion, through the use of nanoparticles 
called zeolites, which act as molecular sieves. Zeolites extract up to 
40 percent more gasoline from crude oil than the catalysts that were 
previously used. Recently, the automotive industry was able to 
substantially reduce the amount of precious metals used in its 
catalytic converters and extend the longevity of the converters, in 
part due to advancements in nanostructured catalysts. These examples 
show how significant a contribution nanotechnology can make to our 
economy, environment, and natural resources management.
    Other nanotechnology based products that have become available over 
the last year or two include:

 <bullet>   Nanoparticle filters for removing viruses, bacteria, and 
        protozoa such as hepatitis A, E-coli and giardia from water

 <bullet>   Nanocomposites in running boards and bumpers on automobiles 
        to decrease weight and improve corrosion resistance

 <bullet>   Thin layers engineered at the nanoscale to produce 
        protective and glare-reducing coatings for eyeglasses and cars

 <bullet>   Transparent sunscreens with superior UV protection

 <bullet>   Longer-lasting tennis balls due to decreased gas 
        permeability of nanoclay coatings

 <bullet>   Stain-free clothing and mattresses due to nanostructured 
        fiber coatings. In addition, exciting new applications are in 
        the product pipeline, with patents already licensed, and 
        partnerships sealed between product developers and 
        manufacturers. But these near-term applications are modest in 
        comparison to the potential applications of research now being 
        conducted under the auspices of NNI funding. Examples include 
        the following:

 <bullet>   Microcantilever arrays incorporating nanostructured 
        coatings that will enable detection of multiple chemical 
        warfare agents, explosive vapors, and biological agents on a 
        single chip (A. Majumdar, U.C. Berkeley)

 <bullet>   Dip-pen Nanolithography: Use of atomic force microscopes as 
        ``ink pens'' for use in nanolithography for low-cost, ultra 
        high resolution chip manufacturing (C. Mirkin, Northwestern 
        University)

 <bullet>   A variety of potential applications of carbon nanotubes, 
        including electrical interconnects for nanoscale electronics, 
        hydrogen storage, and even structural applications such as 
        nanotube-reinforced composites (R. Smalley, Rice University)

 <bullet>   Digital logic and memory devices manufactured on the 
        molecular scale from rotaxane molecules using nanowire 
        interconnects (J. Heath, Caltech)

 <bullet>   Novel antibiotics based on peptide nanotubes that punch 
        holes in bacterial cell walls (A. Olson, Scripps Research 
        Institute)

 <bullet>   Low-cost, ultra lightweight, and flexible nanorod-polymer 
        photovoltaic cells (P. Alivisatos, UC Berkeley)

 <bullet>   Metallic iron nanoparticles for low-cost, high-efficiency 
        remediation of groundwater contaminated with heavy metals (W. 
        Zhang, Lehigh University)

    Nanotechnology is highly interdisciplinary. It is not just 
chemistry, molecular biology, medicine, physics, engineering, 
information science and metrology; it is all of these fields at once. 
R&D efforts, accordingly, require extraordinary coordination and 
cooperation within the scientific community, among federal, state, and 
local agencies, and with industry. Further collaboration with industry 
in particular is necessary to commercialize scientific discoveries.
    Technology transfer and commercialization have been key elements of 
the NNI plan from its inception. NSET member agencies have responded to 
this challenge by designing industry outreach activities into many of 
their funding programs within the NNI. Some examples are included 
below:
    1. Several agencies (e.g., NIH, NSF and DOE for example) have put 
out special nano SBIR solicitations or have included language 
specifically encouraging nanotechnology-related SBIR proposals. NSF 
hosted an NNI SBIR workshop in March 2002 reporting on the results of 
initial FY01 SBIR funding in nanotechnology. Six agencies (NSF, NIST, 
NIH, USDA, EPA, and NASA) presented information on nanotechnology-
related SBIR funding activities at that workshop. In data later 
provided to NNCO, these agencies reported a total of over 65 nano-
related SBIR awards made in Fiscal Year 2001, with a total funding of 
over $11 million. This figure is not known in Fiscal Years 2002 and 
2003, but the overall NNI budget has grown dramatically since FY 2001.
    2. While some NSET agencies are restricted from funding R&D 
activities in companies (SBIR excepted), other agencies do not have 
such restrictions. Within the NNI, agencies that primarily fund 
academic research are partnering with agencies that can fund industrial 
development to assure the timely transfer of basic research 
developments into industry. For example, the Department of Defense 
plays a key role in carrying nanotechnology innovations all the way 
from basic research funded at agencies such as ONR and DARPA into 
industrial practice. Thus, ONR was able to accelerate the application 
of wear-resistant nanostructured coatings developed under its basic 
research funding, and these coatings are now deployed in some Navy 
ships, reducing wear in turbine shaft bearings, in turn reducing the 
need for major propulsion systems overhauls, and thus reducing costs 
and increasing readiness of the Navy fleet. DOD research agencies 
frequently work with NSF and other basic research agencies to co-fund 
promising academic research, and DOD can pick up the results and 
promote the accelerated development of military applications through 
development work funded at major defense contractors.
    3. The Department of Energy's Nanoscale Science Research Centers 
(NSRCs) are designed to be ``user facilities'' open to researchers from 
U.S. industry. Depending on intellectual property rules the industry 
researchers may be working under, the use of the DOE facilities may be 
free, or may entail the payment of a modest fee. DOE held a large 
meeting on Feb. 26-27, 2003, to formally initiate the NSRC program; the 
first annual users' meeting was held on Feb. 28. Members of Congress, 
nanotechnology researchers, and industrialists participated in the 
meeting, which was designed to highlight the opportunities that the new 
DOE facilities will afford to researchers from both academia and 
industry.
    4. Nanoscale Science and Engineering Centers funded by NSF require 
industrial interest and effective plans for cooperation with industry. 
The focus for FY 2003 is on manufacturing processes at the nanoscale, 
so industrial participation is all the more important as NSF reviews 
the new proposals that will be submitted in response to this year's 
solicitation.
    5. Industry participation is required in the NSF program entitled, 
``Grant Opportunities for Academic Liaison with Industry (GOALI).'' 
Several of the GOALI awards that were made by NSF in FY02 were closely 
related to nanotechnology.
    6. The U.S. Army's Institute for Soldier Nanotechnologies at MIT 
reflects a partnership among MIT, the Army, and private industry. 
Currently active industrial partners include Dupont and Raytheon.
    7. Similarly, the DARPA/DMEA Center for Nanoscience Innovation for 
Defense (University of California at Santa Barbara) maintains close 
industrial ties, with industry representation on the technical advisory 
committee and with participation by Rockwell Scientific and Motorola.
    8. NSF's National Nanofabrication Users' Network (NNUN) provides 
nanofabrication and other research infrastructure at 5 universities 
around the country, available for use by either industrial or academic 
researchers. Each year industry researchers conduct hundreds of 
research projects that involve use of NNUN facilities. NSF plans to re-
organize and roughly double the size of the NNUN program in the coming 
year.
    9. The Department of Commerce has assisted the NNI in organizing 
workshops in Los Angeles and Houston aimed at building local and 
regional alliances between researchers, local businesses, and 
entrepreneurs and investors to promote the commercial development of 
nanotechnology. Additional workshops are planned in the coming year for 
the Boston and Chicago areas. Reports from these and many other 
nanotechnology-related workshops are available at http://wtec.org/
nanoreports/.
    10. NSF held a special workshop for public and industry outreach at 
the Reagan Bldg. in Washington, DC on March 19, 2002. Entitled, ``Small 
Wonders: Exploring the Vast Potential of Nanoscience,'' the meeting 
featured presentations on promising applications of nanotechnology in a 
wide variety of economic sectors, including materials, medicine, 
instrumentation, and electronics. Industrial participation included 
representatives from IBM, Lucent, Eastman Kodak, the Semiconductor 
Research Corporation, Motorola, the California Molecular Electronics 
Corporation, and Digital Instruments.
    11. For the past two years running, the NNI has co-sponsored a 
large annual NNI meeting at which representatives of NSET agencies have 
explained the NNI programs, and at which leading NNI-supported 
researchers present their most promising findings. There has been 
significant industry participation in these meetings, which have 
provided yet another forum for building connections between researchers 
and industrial practitioners.
    12. NNCO is now planning a workshop to enhance coordination between 
federal NNI and state and regional nano initiatives that target 
economic development and commercialization. Key objective of this 
workshop are to find ways to better promote economic development 
through commercialization of nanotechnology breakthroughs, and to 
leverage the expertise and resources of existing state and local 
nanotechnology efforts. Another objective is to assure the broadest 
possible geographical distribution of the benefits of nanotechnology 
development--the meeting will feature presentations from states that 
have established nanotechnology initiatives for the benefit of states 
and local governments that are hoping to establish such programs in the 
future. We have been working closely with Dr. Nathan Swami of the 
Virginia Nanotechnology Initiative, Sean Murdoch of Atomworks, and Mark 
Modzelewski of the Nanobusiness Alliance to plan and carry out this 
activity.
    13. Industry leaders are participating in a series of workshops 
being organized this year by the NNCO to help establish detailed 
research plans corresponding to the NNI's nine grand challenge topics. 
One example is a workshop held in September of 2002 entitled, ``Vision 
2020 for the Chemical Industry.'' A chemical industry group manages the 
Vision 2020 exercise in cooperation with the DOE/Office of Industrial 
Technologies. This workshop was particularly targeted at identifying 
nanotechnology research opportunities that would benefit the chemical 
industry. Not all of the grand challenge workshops planned for the 
coming year will be industry-led in the way Vision 2020 was, but all 
will include representation from key companies in the relevant 
industries affected by the respective grand challenge topics.
    14. A new research and education theme on ``manufacturing at the 
nanoscale'' has been added to the NSF's Nanoscale Science and 
Engineering (NSE) program solicitation in Fiscal Year 2002, and the 
program element ``Nanomanufacturing'' has been established in the 
Directorate for Engineering. NSF invested about $22 million in 
manufacturing research and education in Fiscal Year 2002, and two 
Nanoscale Science and Engineering centers with a focus on nanoscale 
manufacturing will be funded in Fiscal Year 2003. Also, SBIR 
nanotechnology investment has reached $10 million in Fiscal Year 2002.
    Because of the complexity, cost and high risk associated with 
nanotechnology research, the private sector is often unable to assure 
itself of short- to medium-term returns on R&D investments in this 
field. Consequently, industry is not likely to undertake the basic 
research investments necessary to overcome the technical barriers that 
currently exist. The traditional government role of supporting basic 
research is thus particularly important in this case. Additional basic 
research will be needed to make these innovations ready for industry to 
develop and market.
The National Nanotechnology Initiative
    The National Nanotechnology Initiative is a critical link between 
high-risk, novel research concepts and new technologies that can be 
developed by industry. Since the creation of the NNI in October 2000, 
federal funding for nanotechnology has been coordinated through the 
NNI. The NNI has continued to the present time as a successful 
interagency program that encompasses and promotes relevant 
nanotechnology R&D among the participating federal agencies. The 
federal agencies currently participating in the NNI research budget are 
as follows:

 <bullet>   National Science Foundation

 <bullet>   Department of Defense

 <bullet>   Department of Energy

 <bullet>   National Institutes of Health

 <bullet>   Department of Commerce

 <bullet>   National Aeronautics and Space Administration

 <bullet>   Department of Agriculture

 <bullet>   Environmental Protection Agency

 <bullet>   Department of Homeland Security

 <bullet>   Department of Justice

    Funding for the NNI provides support for a range of activities, 
which include: basic research on fundamental nanoscale science; focused 
efforts aimed to achieve major, long-term objectives of high 
significance--so-called ``grand challenges;'' and building research 
infrastructure (instrumentation, equipment, facilities) and centers and 
networks of excellence (larger, centralized facilities intended to 
provide sites for cooperative and collaborative efforts among 
distributed networks and groups of researchers at multiple affiliated 
institutions). Depending on the agency, funding supports research and 
applications of nanotechnology in support of the respective agency 
missions, research at national laboratories, and research at academic 
institutions and other research institutes. A portion of the funding is 
also dedicated to addressing non-technical research problems in a 
broader context, including societal implications and workforce and 
training issues.
    The NNI has benefited and grown under this Administration's strong 
commitment to furthering nanotechnology research and development. 
Support for the NNI is evidenced by significant funding increases for 
this interagency initiative in each of President Bush's proposed 
budgets. That trend continues this year, with a 10-percent increase 
over last year's request for nanotechnology (to $849 million) in the 
President's FY 2004 Budget. In addition, last year the Director of the 
Office of Management and Budget and OSTP Director Marburger issued a 
memo to the heads of executive departments and agencies identifying 
nanoscale science and technology as one of six interagency research and 
development priorities.
Nanoscale Science and Engineering Technology Subcommittee
    The research agenda for the ten agencies currently participating in 
the NNI is coordinated by the NSET Subcommittee of the National Science 
and Technology Council (NSTC). As you know, the NSTC is a cabinet-level 
interagency body through which interagency science and technology 
issues are discussed and coordinated. The NSET Subcommittee is staffed 
by representatives of the participating agencies, OSTP, and OMB. It 
also includes other federal agencies that do not fund nanotechnology 
R&D but nevertheless have an interest in these technologies--agencies 
such as the Food and Drug Administration and the Department of the 
Treasury. There are now 17 agencies participating in the NSET 
Subcommittee. NSET members meet on a monthly basis to measure progress, 
set priorities, keep abreast of nanotechnology R&D being proposed and 
conducted in the agencies, plan and organize workshops, and plan for 
the coming year. The agency representatives to the NSET, typically 
program officers, and researchers, have extensive knowledge of and 
experience with nanoscale R&D. This expertise has been of critical 
importance to the success of the initiative, providing a necessary link 
to nanotechnology researchers in industry and academia.
    Because the cost of nanotechnology instrumentation, equipment and 
facilities is rather high, government funding of such research 
infrastructure can provide a great benefit to both academic and 
industrial research. An important focus of the NNI, for instance, is to 
develop measurements and standards, research instrumentation, modeling 
and simulation capabilities, and R&D user facilities. Current examples 
of how this type of funding is used are the National Nanofabrication 
Users Network (NNUN), the modeling and simulation Network for 
Computational Nanotechnology sponsored by NSF, and a group of five 
user-facility Nanoscale Science Research Centers being created by DOE.
    The need for this type of infrastructure is so great that federal 
agencies are committing additional resources to support the NNI's 
efforts. These include a dedicated nanoscience facility at the Naval 
Research Laboratory (NRL) and portions of the new Advanced Measurement 
Laboratory at the NIST.
The National Nanotechnology Coordination Office
    The National Nanotechnology Coordination Office (NNCO) assists 
NSET-participating agencies by: (1) serving as secretariat to the NSET 
Subcommittee, providing technical and administrative support, (2) 
supporting the NSET Subcommittee in the preparation of multi-agency 
planning, budget, and assessment documents, (3) acting as the point of 
contact on Federal Nanotechnology activities for government 
organizations, academia, industry, professional societies, foreign 
organizations, and others for technical and programmatic information, 
and (4) developing and making available printed and other 
communications materials concerning the National Nanotechnology 
Initiative including maintaining a Web site for the Initiative. As part 
of this support, the NNCO produces annual supplements to the 
President's Budget explaining the NNI portion of the budget request. It 
also coordinates and assists in the conduct of regular workshops based 
on grand challenge areas. The NNCO assists and coordinates the conduct 
of regional workshops that explore commercialization opportunities for 
nanotechnology discoveries. These conferences bring together 
scientists, entrepreneurs, venture capitalists and large businesses for 
discussion and exploration of partnerships. Reports produced by the 
NNCO provide a permanent record of conference proceedings and are used 
by those not in attendance to learn more about developments in the 
field. Under the auspices of the NSTC, the NNCO also contracts for 
periodic program reviews to provide feedback on the NNI.
    The annual budget of the NNCO is approximately $1 million. Three 
years ago, the NSET subcommittee and NNCO coordinated the efforts of 
six agencies involved in nanotechnology R&D. Today, through the NNI, 
the NSET and NNCO coordinate the efforts of 17 participating agencies. 
The scale of the workload for the NNCO parallels this increase in 
participating agencies. The NNCO staff is coordinating an increasing 
stream of workshops proposed by the agencies, and prepares the post-
conference reports. Planning and administrative functions have 
expanded, as will reporting requirements resulting from the pending 
legislation.
    With an increased number of discoveries and acceleration of 
commercialization activities here and abroad, staff tracking and 
reporting to the scientific community and government agencies must keep 
pace. Increased activity at the state and regional levels has brought 
welcome support for commercialization and another level of involvement 
for the NNCO.
    Current high-priority NNCO projects include the following:

    (a) NNCO is working with OSTP and OMB to finalize a supplement to 
the President's FY 2004 Budget to explain the NNI activities within the 
request.
    (b) NNCO will follow this with a more detailed report this year, 
the revised Implementation Plan for the NNI. This will be an update of 
a similar detailed plan that was submitted in July of 2000.
    (c) An interagency workshop being led by the Environmental 
Protection Agency will address environmental implications as well as 
applications of nanotechnology. The purpose of this September workshop 
is to define the future research agenda for EPA and other agencies in 
the NNI that support nanotechnology research aimed to enhance 
environmental quality through pollution detection, prevention, 
treatment, and remediation.
    (d) The National Institutes of Health is taking the lead in 
organizing a workshop to explore opportunities for supporting more 
research at the intersection of nanotechnology and biology, as 
recommended in the NRC report. This is tentatively scheduled for 
October.
    (e) Another workshop scheduled for September will facilitate 
collaboration and best practices among state and regional initiatives.
    (f) NNI and the Semiconductor Research Corporation (SRC) are 
organizing a workshop this Fall on nanoelectronics.
    (g) A workshop is tentatively scheduled for this December to assess 
broader societal implications, including ethical, economic, education/
workforce, medical, and national security implications. This is follow-
on to a workshop held in September 2000 on these same subjects.
    (h) A project is underway to produce a brochure for industry, 
explaining the state of nanotechnology, R&D opportunities and resources 
toward commercialization of nanotechnology discoveries.
    (i) Following from all the above activities, NNCO will be 
coordinating a large workshop in early 2004 to integrate inputs from 
all the grand challenge workshops, PCAST suggestions, new legislation, 
and recommendations of the NRC report and produce a new ``crisp, 
compelling plan'' for the NNI. This will be a reprise and 5-year update 
of the January 1999 workshop that produced the first detailed technical 
plan, the report entitled, Nanotechnology Research Directions.

    Recognizing the growing complexity of this multi-agency effort, 
OSTP asked me to begin serving on April 15 of this year as the full-
time Director of NNCO. (In the past, Dr. James Murday had served as the 
Director of the NNCO in a half-time capacity.) Among my specific 
charges are increasing communications between the OSTP, NNCO and the 
NSET; promoting a higher level of coordination of nanotechnology R&D 
among the Departments and agencies participating in the NSET; and 
providing an increased level of support for the NSET Subcommittee in 
preparation of planning, budgeting, and assessment documents. 
Recognizing the increasing need for public outreach for greater 
understanding of nanotechnology and its societal implications, the NNCO 
has hired a full-time communications director and will be undertaking 
an array of communication tasks, including enhancing the NNI Web Site.
NSET and NNCO Interactions with PCAST
    Relevant to the legislation before the committee is the report of 
the National Research Council (NRC) following their study of the NNI. 
Entitled Small Wonders, Endless Frontiers: A Review of the National 
Nanotechnology Initiative, the report, published in the summer of 2002, 
highlighted the strong leadership of the NNI, praised the degree of 
interagency collaboration, and lauded the early successes of the 
research programs.
    As you know, the National Research Council (NRC) recommended that 
the federal nanotechnology research program would benefit from an 
outside review. As noted in the President's FY04 Budget, the 
Administration concurs that an independent review is warranted, and has 
asked the President's Council of Advisors on Science and Technology 
(PCAST) to undertake this effort.
    PCAST has already begun its work in this regard, and the NNCO staff 
is excited to be working with the PCAST membership on this task. PCAST 
is well suited to conduct this review, as its members have extensive 
experience and expertise in technological developments, how federal R&D 
programs operate, and how R&D effectively translates to the economy. 
This type of broad experience offer perspectives on how nanotechnology 
can address key issues facing industries today (e.g., the ``red brick 
wall'' referred to in the recent ``International Technology Roadmap for 
Semiconductors'' report).
    The preliminary PCAST work plan for its role in advising the NNI, 
approved at the March 3 PCAST meeting, sets out as one of its first 
tasks the review and assessment of the NNI's ``grand challenges''--the 
nine areas where nanotechnology can make significant contributions to 
national goals and priorities outlined in the current NNI program plan. 
The industrial backgrounds of many PCAST members are particularly 
appropriate to this role, providing a broader perspective beyond 
laboratory research.
    PCAST also offers the benefits of timeliness and effectiveness. 
PCAST already exists, and has already begun its nanotechnology work 
with the intent on providing some recommendations by late summer, in 
time for the FY05 budget process. Importantly, too, PCAST is an 
established and well-regarded entity within the Administration. Its 
advice will be well-received.
    The PCAST review of the NNI will be an ongoing project that 
provides continuing recommendations to the President on how to improve 
the program. PCAST will work in coordination with the National Science 
and Technology Council, as well as the NNCO. PCAST's initial effort 
will be assisting in the development of a crisp, compelling and 
overarching strategic plan, and refining the list of specific ``grand 
challenge'' topics to guide the NNI program. NSET and NNCO are working 
with OSTP already in organizing a series of workshops aimed at setting 
specific objectives within those grand challenge topics and clarifying 
the research agendas for NSET member agencies that will lead to the 
achievement of those objectives. PCAST then intends to explore 
additional issues, such as program metrics, and also to monitor the 
response to the guidance it provides.
    To assist in these activities, PCAST has formed three internal task 
forces--one on materials, electronics and photonics, one on energy and 
the environment, and one on medical, bio and social issues. In 
addition, PCAST is forming an external technical task force to gain 
input on technical nanotechnology issues as may be needed. Additional 
consultations will naturally occur as well. At its March 3rd meeting, 
for example, PCAST met with three leading nanotechnology scientists--
Richard Smalley, Richard Siegel, and Samuel Stupp (who led the NRC 
review). PCAST co-Chair Floyd Kvamme also met with the NSET members at 
NSETs last meeting in early April and I, as the new NNCO coordinator, 
have already met with Mr. Kvamme as well.
    The NNCO is pleased to have PCAST's experience available for 
counsel, and looks forward to working with PCAST in the months and 
years to come.
    In another structural change, the OSTP has proposed that the NSET 
Subcommittee be re-constituted with higher level agency membership to 
enable enhanced coordination and priority setting. We at the NNCO 
recognize the importance of high-level agency involvement in the NNI. 
For the active support of planning and conducting workshops and 
generally tracking technological innovations, we will rely on the 
current membership of the NSET, which under the OSTP plan would be re-
formulated as an interagency working group. The members' extensive 
knowledge of and experience with nanoscale R&D has been and will 
continue to be of critical importance to the success of the initiative, 
providing a necessary link to nanotechnology researchers in industry 
and academia.
Summary and Final Comments
    In summary, nanotechnology is still at a very early stage of 
development, and there are many challenges and opportunities before us. 
The NNI has for almost five years now served as a very effective means 
for coordinating federally funded activities in nanotechnology. As this 
initiative matures and grows in scope and scale, the National 
Nanotechnology Coordination Office is also scaling up to meet the 
additional responsibilities that this entails. We greatly appreciate 
the endorsement of the NNI's achievements and future potential implicit 
in the language of the proposed 21st Century Nanotechnology Research 
and Development Act.
    Mr. Chairman and Members of the Committee, thank you again for your 
support. The NSET, NNCO staff and I look forward to continuing to work 
with you and your staff to refine and improve the program and the 
legislation currently under consideration.

    Senator Allen. Thank you, Dr. Teague.
    Thank you, all doctors, here. I'll go, perhaps, a line of 
questioning here. I'll begin and then turn it over to Senator 
Wyden, and Senator Sununu may also, I'm sure, have some 
insightful questions of you, as well.
    Listening to you all, you all talked about all these 
different developmental levels. They're something tangible, 
which is good. A lot of this, again, is very early. There is 
much research and development going on in a variety of ways, 
some at colleges and universities, clearly in the private 
sector, some in your variety of perspectives in governmental 
agencies.
    I'd ask each one of you, what--and I was thinking, looking 
at each of you is--what are the greatest barriers today for the 
application for the variety of these very exciting 
opportunities of nanotechnology and a variety of disciplines 
and getting the applications of this into the commercial 
sector? Now, some of it is research. But, more importantly, 
could you share with me, and share with the Committee, what's 
the biggest barrier, what is, let's say, the greatest challenge 
for the transfer of these advances of nanotechnology to the 
commercial sector?
    And I'll go with you, Drs. Murday, Roberto, and Teague.
    Dr. Murday. Okay, you've identified a problem that I'm sure 
you're well aware is not unique to nano----
    Senator Allen. Right.
    Dr. Murday.--how you get something out of science and 
discovery into technology is a never-ending challenge, and so 
this is just one variant on it.
    There are a couple of things that I think that need to be 
addressed. One is, we are just now opening up these 
nanostructures that Dr. Teague talked about. Their quality 
factor, to be able to manufacture on the large scale in a cost-
effective fashion is still somewhat limited. We've got to 
address manufacturability, especially to get the reliability 
and cost improvements that are necessary.
    Second, we've got to look to moving ideas out of 
universities, since most of the funding out of the NNI is in 
the universities, by intent. We have the science discoveries 
happening there and the mechanisms to move the ideas out of the 
universities and into the commercial sector is the challenge, 
as it is for the other discoveries in science, as well. But 
we're trying to work with the States and local bodies to help 
that process to create, through NSF, in particular, the NSECs, 
which have university involved directly with industry. Within 
the DOD, there has been a UARC, a university affiliated 
research center, for soldier nanotechnologies up at MIT. So 
deliberately reaching out into the university community and 
helping them form alliances with companies.
    We've also tried to pay attention to the SBIR programs, 
because that is a mechanism to reach out and push new ideas 
into new businesses. And a number of the State, both private 
and public, universities are creating science parks where you 
can get these SBIRs nurtured and the SBIR provides some of the 
funds that's appropriate to it.
    Finally, we're trying to reach out into the venture-capital 
community, as well, keep them aware of what are the true 
opportunities, trying to be careful not to over-hype the area 
to lead to unrealistic expectations. But I have a viewgraph 
that I sometimes use that says ``nanotechnology is the real 
dot-com,'' as opposed to the bust of 10 years ago.
    Senator Allen. Thank you, Dr. Murday.
    Dr. Roberto?
    Dr. Roberto. I guess I'd like to say three things. First of 
all, the line of sight from the scientific discoveries in 
nanotechnology and applications is a lot clearer than many 
other areas of science, and so, in this sense, I think that a 
very difficult job is made a little bit easier in this field.
    Second, certainly coming from a DOE national laboratory, 
I'm aware of the level of effort that goes into technology 
transfer and into bringing in the university partners and to 
identifying opportunities into the effort to get technology out 
into the marketplace. I'm also aware that many research 
universities have similar efforts underway. And my general 
feeling is that, in the area of nanoscale science and 
technology, that we are finding there's a very significant 
interest, and we are making those partnerships in a more 
productive or easy fashion, not that it is ever an easy task 
bringing these various parties together.
    Finally, the DOE Nanoscale Science Research Centers really 
are developed to help enable this process. These will be state-
of-the-art centers. They will be located at laboratories. We've 
already made a billion-dollar level investments in neutron 
sources or synchrotron sources or micro-fabrication equipment. 
And they will be available to universities and industry, and 
will provide an opportunity for labs and universities and 
industries to work together in areas that can help bring the 
science into the marketplace.
    Senator Allen. Thank you.
    Dr. Teague?
    Dr. Teague. I guess I'd like to comment on it, first, from 
a scientific standpoint, in terms of taking things from the 
research laboratory to the commercialization. But I think one 
of the things that you probably have heard some other people 
say, but just to re-emphasize it, is that I think that, 
following up on Dr. Murday's comments about the 
manufacturability and the manufacturing process, is that one of 
the things that is so needed, in almost all the different many 
processes that you were referring to when you talked about how 
we make nanotechnology products, is the degree of control of 
the processes that are being used.
    Probably you've heard many times about nanotubes and how 
important and how valuable the nanotubes are. And it's hard to 
realize that as much as we had them and as much as you hear 
about them being manufactured as products and things like that, 
we have a very, very loose control over the properties of the 
nanotubes which are manufactured.
    If you've looked at--maybe you saw that there's a pencil 
that some people have that has the nanotube structure printed 
on the surface of the pencil, and it shows you two different 
ways in which you can construct a nanotube. One of them is 
called the way that you--it's made out a sheet of carbon, and 
if you roll up a sheet of carbon, you have a nanotube. And 
depending upon the twist that you put into it as you roll it 
up, it totally changes the properties of the nanotube. In one 
way of it being twisted, it's almost like a conductive of 
metal. If you twist it a slightly different way, it's like 
semiconductor. If you twist it a slightly different way, it's 
an insulator.
    Professor Smalley, several times he said, ``If I had one 
big challenge right now, it would be how could we manufacture 
nanotubes with a known twist so that I could predict, when I 
made a nanotube, that it would be a metal, a semiconductor, or 
an insulator?'' And if you look at a lot of the other products 
that are nanotube-based, their structure and their properties 
are so dependent upon the exact atomic structure of the 
materials, until that degree of control is absolutely essential 
for being able to produce, in quantity and at low cost, the 
wonderful things that we can produce in ones and twoseys in the 
laboratory and say, ``Look at these neat things.'' Until you 
can have control, it's hard to go from ones and twos in the 
laboratory to something that you can produce as a 
manufacturable product at a good cost.
    And how do you get that better control over the processes? 
I think that that's the essential part of the federal funding 
for R&D. I think one of the absolutely key parts of the whole 
nanotechnology program in the United States is a very firm 
realization that there's a lot of investment and a long time of 
R&D, probably as long of an R&D investment to bring something 
to this high degree of control as has been with almost any 
other technology. So I think one of the ways to bring something 
to market is to realize that it's going to take good support at 
the federal level to carry out and complete the really 
underlying fundamental research and development so that 
companies can pick it up at a level that is economically viable 
for them to move into the marketplace and make good production.
    Senator Allen. First to Dr. Murday. The answer to my 
question really is nothing new. That's the--basic economics, 
commercial application, no matter what's coming out of 
universities, the commercialization or obviously protecting the 
intellectual property, whatever the method of--or whatever the 
nanotech application may be, venture capital opportunities, all 
of that really is just basic economics that we've seen before 
with any sort of advancement in any new idea or process.
    The same applies to what you were saying, Dr. Roberto, 
although you're saying that the applications are more clear in 
nanotech, and to the extent that those applications are more 
clear, that does help with the venture capital. It all then 
comes back to standard and, probably by analogy, making sure 
that the methods or standard or control of processes----
    Dr. Roberto. Yes.
    Senator Allen.--in what you talk about. Again, I guarantee 
you there's some analogy. This is not the first time. This is 
not an issue of first impression.
    Dr. Roberto. Right.
    Senator Allen. And I'm sure this applies to extrusion and 
the manufacturing of all sorts of material----
    Dr. Roberto. Yeah.
    Senator Allen.--plastics, metals, and films, where there 
needs to be that standard or that grading or the method of 
production that has that quality that is desired by whomever 
the ultimate user may be.
    So, fortuitously, we're at the early stages, but none of 
these are never considered problems. Again, you may have to 
just use some common sense and creativity. And the best of all 
with this is that we're only limited by our imagination. All of 
the challenges you all brought up here are easily--I shouldn't 
say easily surmountable, but have been faced before and 
certainly can be--the challenges can be surmounted in the 
future.
    Thank you all. Thank you so much.
    And I'd like to turn it over to Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. That was really 
excellent. That was almost like a teach-in on nanotechnology, 
and I thank you for it.
    The panel is just terrific, and I thank you all. And let me 
get into a couple of nuts-and-bolts issues that we're going to 
have to work out to wrap this up.
    Dr. Teague, on the advisory panel you were quite passionate 
about PCAST, in effect, being the lead, and Senator Allen and I 
have already had all kinds of people lobbying us and jockeying 
with respect to this whole issue. And let me get a sense, a 
bit, of your reaction to how I come at it.
    I mean, if you look at the President's Council of Advisors 
on Science and Technology, this is an extraordinary group. I 
have worked with many of them myself. This is not--in 
questioning, I mean, people like Dr. Healy, Floyd Kvamme--I 
mean, these are people I've known for years and I have looked 
to for help on technology questions. That is not what's at 
issue.
    What is at issue is, at first impression, this does not 
look like a group that has a history of involvement in the 
nanotechnology area. This looks like a group of incredibly 
dedicated, thoughtful people, who are going to be coming to 
nanotechnology for the first time.
    So what we did in the last Congress, when I put this 
legislation together with Chairman Allen again now, is we said, 
what we need to do is follow the recommendations of the 
National Research Council, which is, from the get-go, go out 
and find the very best people who, on day one, are going to 
have some history and some involvement with respect to 
nanotechnology.
    My question to you is--I'd like to hear your reaction to, 
sort of, how I approach this and also your thoughts on how we 
figure out how to work this out and get it resolved, because 
it--I mean, this is a terrific bill. Chairman Allen and I have 
spent a ton of time on it. I've already gotten the sense from 
the House, there's been a dust-up a bit on this issue, and 
we're not going to let that happen. Chairman Allen and I have 
worked out much tougher issues than this. So let us see if we 
can have your great minds give us your insight on this, and 
your thoughts, Dr. Teague, with respect to how I've come to my 
assessment of this, and what you think we might do to make sure 
we just get this to the President's desk quickly.
    Dr. Teague. Well, I could certainly concur with that last 
sentiment. And relative to PCAST, and one of the reasons I 
guess I was very enthusiastic about it is, is that I think that 
there are members, and some of the ones you mentioned, 
certainly, who have some experience with nanotechnology----
    Senator Wyden. Tell me who, of the PCAST membership now, 
has experience with nanotechnology. I'm not aware that they do, 
and that's what's in question, and we need experts like you--I 
mean, just, if you would, Charles Arntzen, Norm Augustine, 
Carol Bartz, Kathleen Behrens, Eric Bloch, Stephen Burke, Wayne 
Clough, Michael Dell, Raul Fernandez, George Scalise, Luis 
Proenza, Steve Papermaster--tremendous group. Who has 
background today in nanotechnology?
    Dr. Teague. Well, the two, I guess, that would come to mind 
most immediately would be the president of the Georgia 
Institute of Technology, Wayne Clough, and the president of 
MIT, Charles Vest. I think certainly both of those have a lot 
of nanotechnology-related activities within their universities. 
Certainly they are the highest level of the administration of 
their institutions. But I think both of them would have a great 
deal of knowledge of what would be going on in the field of 
nanotechnology, just from interacting with, I would say, the 
physics departments, the chemistry departments, the material-
science departments within their respective institutions. So I 
would think they would be quite informed relative to that.
    Gordon Moore, certainly in terms of looking at the ultra-
miniaturization of microelectronics, I would think is 
definitely familiar with the extreme miniaturizations that one 
might achieve down to the nano-electronics and the molecular-
electronics level. I would think that he, in his many years of 
experience with electronics, would have a very good perspective 
on the basic understanding of what would happen to electronics 
at the nanoscale level.
    So some of the other ones, I think even if you look at--I 
forget one of the Members of the Committee also had a lot of 
background in the bio area, and I think that the biotechnology 
aspect and its heavy overlap with nanotechnology is going to be 
very crucial in, again, having the proper perspective on what's 
happening in the area of nanotechnology.
    Finally, I guess, relative to that, the PCAST itself is--
they've decided, in their proceeding of their assessment, that 
they're going to obtain additional technical expertise through 
the formation of different technical task forces to assist them 
in their assessment. So they're not going to do it just on 
their own; they're going to be actually forming and pulling 
task forces of experts in the field, very much as you're 
indicating is being needed, and I would agree that there are 
some additional possible inputs needed onto it.
    I guess two other points that I think are so important 
about PCAST. The first one is that relative to the question 
that Mr. Chairman was asking, in terms of the technology 
transfer, I think the business acumen and the experience of 
many people on the PCAST would be tremendously valuable in 
understanding the transition of the technology out into the 
commercial and into the economic factors that would be involved 
in that.
    And, finally, I guess, from my perspective, one of the 
greatest assets of the PCAST so far is that they've become 
engaged, and they are taking--they're really taking action 
relative to trying to understand and to do some real assessment 
of the NNI. I think that, to me, is one of the most important 
aspects of any kind of council or any kind of Committee of this 
nature, is that they really do engage with whatever their 
charge is. And, so far, PCAST has indicated very good interest 
and very good action in tackling the problem.
    Senator Wyden. Well, again, I can't say enough good things 
about PCAST, generally. This is not what the discussion is 
about. But there are 25 people on there, and you mentioned 
three who you thought had some involvement in nanotechnology, 
and I want to make sure that, on day one----
    Dr. Teague. Okay.
    Senator Wyden.--we've got everybody with some proven 
expertise and a track record in this area, and we're going to 
work this out. This is too important, and the bill is too good 
to have this be an issue it flounders on. And, by the way, I 
agree with your point with respect to technology transfers----
    Dr. Teague. Yes.
    Senator Wyden.--as well. We're going to hear from another 
witness--I noted, Mr. Chairman, we have another private sector 
witness who points out something you and I have talked about, 
which is that Bayh-Dole has not worked as well as it needs to, 
neither for industry, universities, or taxpayers. And the point 
that Dr. Teague is making with respect to how important it is 
to improve tech transfer is one that I very much share, and 
that involves getting the private businesses in early with 
their suggestions for how to do it.
    A couple of other quick questions, and then I know Senator 
Sununu's got a great interest in this, too. I want to let him 
get at it.
    Gentlemen, how are we doing with respect to the global 
competition? Last year, Japan spent $650 million on 
nanotechnology research. Europe was at $400 million. A host of 
other countries have spent substantial sums. Really the two 
areas that I want to touch on--maybe you can talk about them 
together--one was, how do we fare with respect to global 
competition? And the second is, what needs to be done with our 
universities and particularly the multi-disciplinary approach 
that's going to be so important. And so perhaps, in the 
interest of time, maybe you could take both of those two 
together for our other witnesses.
    The question, global competition, where we stack up, and 
what do we need to be doing with our universities to foster a 
multi-disciplinary approach?
    Perhaps, you start Dr. Murday.
    Dr. Murday. Okay. With respect to the global competition, I 
did take a quick look earlier this year at the science 
literature. There's about 18,000 articles that came out in 
2002, to put some numbers behind your concern. They're roughly 
divided; one-third in the Asian theater, one-third in the U.S., 
and one-third in Europe. That says, in terms of quantities, we 
are one-third.
    Then there is always the concern that maybe the quality--
maybe we're ahead on quality, if not quantity. So I did another 
search on some key journals that are considered high-impact 
journals and looked at that. And there, if you look at it, the 
U.S. has got about 50 percent of the articles. So we're fairing 
a little better in the quality war, if you want, but there is a 
clear trend for the other nations to be growing. So we're 
presently at 50, but that's a diminishing fraction.
    So the concern about global competition is a real one, and 
one of the aspects that we need to be very careful--as we go in 
this process of developing a crisp, compelling strategic plan, 
one of the recommendations from the NRC is, part of that has 
got to be, how do we incorporate the global perspective and 
invest more smartly? We're clearly not going to outspend any 
longer, so we have to spend more smartly. And that's part of 
what's got to be built into this strategic process.
    It's quite clear--you had asked about multi-disciplinary, 
and Jim Roberto commented on it, and maybe at this high a scale 
essentially all the disciplines sort of blur into one. But it's 
important to get these different perspectives, because it's the 
boundaries between traditional perspectives where you get the 
most frequent and scintillating advances.
    Now, there, I believe the U.S. has still got a clear lead, 
compared to other nations. Where I would be more concerned in 
our university environment, not can we out-compete them in that 
aspect of it, but, rather, we're drawing a significant fraction 
of our students, our graduate students, from other nations. And 
as their research investment goes up, as their capabilities 
grow, there will be less likelihood we're going to attract 
those students here to the U.S. That means we'd better have our 
own pipeline stoked to replace them. And that is a very 
daunting challenge for us, and it goes--as we commented in 
terms of being able to transfer into technology--this is not 
unique to nano--getting American students into science and 
engineering is not unique to nano, but maybe nano's enough 
interesting, enough scintillating that, you know, we can get 
some people really excited about it. I know I am.
    Senator Wyden. Well, without letting the hearing divert, 
Senator Allen's been very supportive to me on another one of my 
crusades, which is getting more women into these fields, and 
even looking at Title IX, which many people think is a sports 
statute, but was--its origins are really academics, using Title 
IX as a lever to do it. So your point about students is a good 
one, as well.
    Dr. Roberto?
    Dr. Roberto. Yes, I think that we are in a tough fight. I 
think the kind of investments that you all are talking about 
making in the various bills that I talked about in my remarks 
are, sort of, what's needed in order to keep us abreast and 
moving ahead. I don't think there is a clear leadership in the 
world now in this field. I think that the leadership is ours, 
in many respects, to win or lose, depending on the kind of 
investments that we make as a nation. This is a field that I 
think is very important to have leadership, because I think it 
is going to be the basis for a new industrial revolution.
    With respect to the issue of whether we're going to have 
the scientific person-power for the future, I guess I'd like to 
add that I go out in the community and give a lot of talks at 
schools and in public forums, and often those talks are on 
nanotech. And the response that I usually get, whether it's the 
third grade or whether it's the grandmother, is, ``Can I come 
work for you?'' I mean, they really get excited when we talk 
about nanoscience.
    And I think that one thing that we could do is, we could 
use nanoscience as a way to catalyze interest in our secondary-
school students in science and technology. And I think the 
kinds of investments that we're talking about making provide a 
path that can then keep them interested in science as they go 
through college and graduate school.
    So I think there's an opportunity here not only on the 
technology-transfer side, but also on the human-capital side.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Allen. Thank you. They're very good questions, 
Senator Wyden.
    At the outset, I was talking about competition, and I guess 
the summary is, we're in competition, and we were more 
preeminent than we are now.
    Again, the issue in the science--and we've run into this in 
a lot of areas in technology, in the H1B visas and the issues 
associated also in aeronautics--there's a lot of areas where we 
do need to somehow motivate and excite more Americans, whether 
they're--all genders, all races, all ethnicities, all 
Americans, regardless of their background, to get involved in 
it.
    So thank you all.
    I'd like to turn it over to Senator Sununu, who may have 
some questions, I suspect.
    Senator Allen. Senator Sununu.

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    I'm pleased that you're having the hearing. This is 
obviously an extraordinary area of investigation and research, 
just as evidenced by the amount of resources that have already 
been dedicated, at least at the federal level, toward this type 
of research across a number of different agencies. I think well 
in excess of $500- or $600 million last year, over $800 million 
proposed in the President's budget across a good handful of 
different research areas. NSF, even the Department of Commerce, 
HHS, have their own initiatives investigating opportunities in 
nanotechnology. So it's an exciting area. It really does 
require some continued support and investment.
    I want to begin by talking a little bit about the exchange 
between Dr. Teague and Senator Wyden on the advisory group. 
But, first, I think it's important to note that--Dr. Teague 
mentioned three or four people with some background, 
experience, expertise, knowledge about nanotechnology, its 
potential applications, even some of the scientific principles, 
and I would venture that the list goes even a little deeper 
than that. I mean, we have individuals that were former 
directors of the National Science Foundation, that were 
directors of the Brookhaven and National Laboratories. We 
have--Mr. Kvamme, in his role as a venture capitalist, you 
know, if he doesn't have experience working with people that 
are interested in laying out their own risk capital in areas 
involving nanotechnology, then we can certainly find a venture 
capitalist that has. But I think that Kleiner Perkins has dealt 
with more than one potential application involving 
nanotechnology.
    So I think there's a wealth of experience and understanding 
of how this technology may affect research in scientific 
institutions or institutions of learning. You mentioned Georgia 
Tech, and another smaller school in Cambridge, I think----
    [Laughter.]
    Senator Sununu. MIT, that was it.
    But this is, from my perspective, very much the kind of 
background we would want, for a couple of reasons. One is the 
understanding of how this technology can fit into these 
different areas--education, research, of course, the business 
world, you mentioned Intel, there's a representative from--
who's done some work with IBM, Lockheed--not that these 
companies are any more unique than many others, but there's 
that private sector perspective, as well.
    But if you look at the other side of the coin, I would also 
like to have, ultimately, a review board, an advisory board, 
that doesn't have an interest that is vested solely in 
nanotechnology.
    Now, academics are wonderful people, but I'm sure that once 
in a while you can find an academic that's a little bit 
parochial, you know, that is very particular about funding for 
their area of interest. I saw a few of those, you know, as an 
undergraduate trying to do research. And they don't necessarily 
have the best perspective when it comes to allocating scarce 
resources into different areas of interest or research.
    The same principles may be at stake in nanotechnology, but, 
as was pointed out, some of these fundamental areas of 
investigation might affect biotechnology, they might affect 
material science, they might affect construction. And I think 
it serves us very well to have a slightly broader perspective 
on the advisory board.
    Naturally, there's also the concern about creating yet 
another layer of bureaucracy. There's nothing wrong with 
bureaucracy when it's properly utilized, but advisory boards 
are--it's the bureaucracy. And the more advisory boards you 
have, the more layers of advice and consent and review. 
Obviously, that carries with it an expense; not necessarily in 
dollars, but in time and certainly in effort of those that are 
involved.
    And I note, given the background of some of our witnesses 
today, we already have a National Nanotechnology Coordination 
Office. I think that's important to have an office that's 
focused in a professional way on trying to make sure 
information is appropriately shared, that there's some 
coordination going on. We have the Subcommittee, the NSTC, that 
is also fulfilling an important role. And, of course, then we 
have PCAST.
    I would be very concerned about creating another layer of 
bureaucracy and then not taking advantage of a board that 
already exists and that I think can lend a great deal of value 
and substantive advice when it comes to these issues of 
nanotechnology.
    A few other concerns that I have, or caveats, and not 
specifically with the legislation. Obviously, this is an issue 
that the Subcommittee Chairman and the ranking Member are aware 
of, and I trust you to work this through, not just here in the 
Senate, but with our counterparts in the House, so that we end 
up with a structure that works. But I do have a couple of other 
concerns where this kind of research is--where we make 
investments in this kind of research. And I want to share that 
with the panel and with my colleagues here, as well.
    I noticed, first, with regard to applications, that we come 
to these hearings, and we want to talk about the future and 
about the potential growth and economic benefits and returns 
and job creation and such. But I always get nervous when I hear 
anybody in government talking about doing scientific research 
with the express objective of creating a certain number of jobs 
or a quantifiable benefit to the economy. Because if you can 
tell me what the economic value of your research is, then I'll 
ask you to leave the room, and I'll call Mr. Kvamme, because he 
can, as well as anyone, evaluate what the net-present value of 
that--if you can tell me what the net-present value, the 
economic benefit of your research is, he certainly can, and 
he'll go out and find somebody to put $1 million or $10 million 
or $50 million or whatever the warranted investment is.
    I believe, as a society and as a country, we should be 
investing in research, because, societally, it creates very 
significant benefits. But the kind of research that we should 
be investing in is precisely that research for which the time 
horizon is so long or the benefits are spread over such a large 
number of areas that you cannot quantify the economic benefits. 
Physics and chemistry, computational mathematics, obviously the 
very areas that I hope the bulk--I would hope that all of our 
National Science Foundation funding is being invested in. And 
nanotechnology is one such area. You know, nobody knew what a 
Bucky ball could be used for when the concept was first 
developed and there wasn't a venture capitalist that was 
looking at this, you know, wringing their hands and excited 
about the prospects.
    That's where we should be making investments. So I look at 
the list of products that have become available over the last 
year or two, and this is certainly interesting, but I guess, in 
clearest terms, the caveat is, we should not be making 
investments with the specific goal of strengthening our 
nation's tennis ball industry or mattress industry or sunscreen 
industry or automotive industry. Those are great industries and 
great companies that populate them, and I'm pleased that 
nanotechnology has provided them with exciting and lasting 
benefits to their product-development areas. But that's not why 
we invest the money, that's not why we do the research; not for 
any specific benefit, but because we know that, in the long-
run, the scope and the breadth of the benefits will be 
significant even if we can't quantify them today.
    And, finally, with regard to global competition, I think 
that the last point that was touched on is an extraordinarily 
important one, and that is the strength of our Nation's 
education system. And one way to measure that is the number of 
advanced degrees in science and mathematics that we're turning 
out. And the statistics have probably been touched on in here 
before by this Subcommittee, and I won't belabor them. I think 
that's extremely important.
    But there was another discussion about the global 
competition and some interesting statistics given about this. 
You could look at patents or papers published or--I like the 
quality measurement, too. And I believe that to be absolutely 
accurate. But we shouldn't allocate funds to any area of 
research just because some other country is doing the same. 
Now, if there's significant value, long-term value, societal 
value, to the area of research, I'm sure there are many 
countries that will be pursuing it. But if just did what all of 
our competitors do--in fact, the notion that we should do what 
our global competitors are doing is what nearly drove our 
Government to invest several billion dollars, maybe $10 
billion, in the HDTV market and HDTV technology about, oh, 12 
years ago now. We chose not to do that, and that was $10 
billion or so that was very, very well spent on other things in 
this country.
    So, you know, the Japanese, I think, in retrospect, made an 
enormous mistake in thinking that they needed to, you know, 
make this investment so that they could keep their television 
industry healthy. I love the television industry, too. They 
make good products, and I've used them from time to time. But 
we need to be very careful about just making an investment 
because somebody else is putting money in the same area.
    So this is a wonderful opportunity. I'm excited that we've 
made so much progress over just a few years with the 
Nanotechnology Coordination Office, that we have senior Members 
of the Senate here that are great advocates for these programs, 
with a President who has put in his budget over $800 million, 
and I think, with this legislation, as it's developed and as 
it's refined, we can be confident that the programs will remain 
strong. And I do hope that the money will be put to very good 
use.
    Thank you, Mr. Chairman.
    Senator Wyden. Mr. Chairman?
    Senator Allen. Yes, thank you, Senator Sununu.
    Senator Wyden?
    Senator Wyden. Just so I can make one quick point very 
clear, since we're having this discussion, about the advisory 
panel. The advisory panel was never, neither as originally 
envisioned or today, to be made up solely of academics, and 
that's made very clear at page 17 and 18 of the bill, where we 
call for those with a reasonable cross-section of views and 
expertise and make it clear that recommendations from industry 
are invited, which is at the top of page 18. So just since 
we're talking about the nature of the advisory--having this 
debate, I want to be clear that, as the lead author of this now 
for two sessions of Congress, with the help of Chairman Allen, 
it has never been my desire to just go off and bring together a 
handful of academics and to have them go sit in a corner, but 
to make sure that we are getting the cross-section of views 
that I think's important to develop this, and that's outlined 
on page 17 and 18 of the bill.
    Thank you.
    Senator Allen. Thank you, Senator Wyden.
    As a practical matter, it's going to be PCAST anyway, who 
we're seeming to evolve to in that respect.
    I want to thank all our doctors. Thank you so much for your 
expert advice, your enthusiasm, and your leadership in this 
area in a variety of ways. You're articulate, you're smart, and 
I also like the fact that you're competitive and recognize that 
it's just basic market forces and issues that none of us in 
government can solve, nor should we, but make sure that those 
creative, innovative ideas can start improving our lives, 
whether it's in health care, materials sciences, energy, or a 
variety of other ways.
    So, again, thank you all so much for your testimony and 
answering our questions.
    I'd like to have our second panel please come forward.
    Thank you, Doctors.
    I want to thank our second panel for joining us today. We 
look forward to your testimony. I'll make a brief introduction 
of each of our witnesses on the second panel.
    First, Dr. Davis Baird, who's a professor and chair of the 
Department of Philosophy at the University of South Carolina, a 
fine institution. My wife is a graduate of the University of 
South Carolina, the real USC.
    [Laughter.]
    Senator Allen. And Dr. Baird is now leading a National 
Science Foundation-funded interdisciplinary team of Researchers 
from 10 Departments in 6 colleges at USC and is working in 
cooperation with USC's Nanocenter on the societal implications 
of nanotechnology. One of the concerns are that a lot of the 
limits we have here are simply in our imagination, but ethical 
limits and values still do apply; legal, as well. And so we 
look forward to hearing from you.
    And then we have Dr. Jun Jiao--am I saying it close enough?
    Dr. Jiao. Yes.
    Senator Allen. Senator Wyden got to meet Dr. Jiao just 
before the meeting, and she's a wonderful doctor and person. 
She's co-director of the Center of Nanoscience and 
Nanotechnology and a professor of physics at Portland State 
University. Dr. Jiao's principal research interests concern 
nanoscale materials and the application of analytical 
techniques of electron----
    Dr. Jiao. Microscopy.
    Senator Allen.--microscopy, thank you. These are not words 
we normally use, but I guess we will as we become more 
familiar.
    [Laughter.]
    Senator Allen. In the last 10 years, Dr. Jiao has proposed 
and conducted several studies on the preparation and properties 
of carbon-related nanometer-scale materials, including carbon 
nanotubes, which we heard about earlier, and carbon-coated 
magnetic nanoparticles.
    Next, we have Dr. Kent Murphy, who is the founder and 
president of Luna Innovations. Luna Innovations is located in 
Blacksburg, Virginia. They have over 180 employees working in 
the technology sector in biotechnology, nanomaterials, optical-
fiber telecommunications and instrumentation, and control and 
predictive-based maintenance, as well as other key technologies 
of the future.
    Thank you for being with us, Dr. Murphy.
    And, finally, James Von Ehr II, is the founder and Chairman 
and Chief Executive Officer of Zyvex Corporation, which I've 
had the invigorating pleasure of visiting. As we were talking 
about where employees are coming from and where the talent is, 
I did observe that I think you had employees that must have 
been--you might not have had anybody from Australia, but you 
certainly had them from every continent of the world, as it 
seemed. You may have had an Australian in the midst. No 
Australian, all right, every continent except Australia.
    [Laughter.]
    Mr. Von Ehr. We have a New Zealander on our advisory board.
    Senator Allen. New Zealander, close.
    [Laughter.]
    Senator Allen. Well, I will say Mr. Von Ehr is also the 
founder of the Texas Nanotechnology Initiative, a nonprofit 
organization dedicated to establishing Texas as a world leader 
in the discoveries, development, and commercialization of 
nanotechnology. Mr. Von Ehr is also co-founder of the Feynman 
Grant Prize, a $250,000 prize for a particular embodiment of 
nanotechnology.
    I welcome all these esteemed witnesses, and we look forward 
to hearing your testimony this afternoon.
    If you'll please proceed, we'll start with you, Dr. Baird.

 STATEMENT OF DR. DAVIS BAIRD, PROFESSOR AND CHAIR, DEPARTMENT 
          OF PHILOSOPHY, UNIVERSITY OF SOUTH CAROLINA

    Dr. Baird. Well, thank you, Chairman Allen, Senator Wyden. 
I wish to thank you both, and the Committee, for inviting me to 
testify about the need for social and ethical dimensions 
research on nanotechnology.
    At the University of South Carolina, I'm leading a broadly 
interdisciplinary team of researchers working in cooperation 
with the Nanocenter. Our mission is to examine the societal 
implications of nanotechnology. It's a topic I feel strongly 
about, and I'm happy to speak to you about it here.
    And this is my primary point. It's essential that research 
into the societal and ethical dimensions of nanotechnology be 
undertaken. It's essential because nanotechnology presents 
itself as a transformative discipline. So these are the words 
of the 2002 National Nanotechnology Initiative Report, and I 
quote, ``The impact of nanotechnology on the health, wealth, 
and lives of people could be at least as significant as the 
combined influences of microelectronics, medical imaging, 
computer-aided engineering, manmade polymers developed in the 
century just past.'' We would be foolish not to investigate the 
human implications of such a fundamental technology.
    Research into the societal and ethical implications is 
essential also because of the nano size that we're dealing 
with. Immediately, privacy issues come to mind, but there are 
also important issues concerning toxicity, about environmental 
uses and abuses of nanotechnology. Possible military uses of 
nanotechnology raise concerns.
    Beyond these concerns about specific nano-size products, we 
need to think carefully about how nanotechnology is framed. Ray 
Kurzweil, in testimony to the House on their version of this 
bill, about, oh, a few weeks ago, spoke of conquering aging. 
Were we to do so, it would be a societal nuclear bomb, and we 
need to think this through.
    Ideas about nanotechnology come to the public through two 
main avenues, science fiction--Michael Crichton's ``Prey,'' for 
instance--and what I call ``science faction,'' meaning more 
than fiction, but less than fact--for instance, Bill Joy's 
``Why the Future Doesn't Need Us.'' If we're not careful, we'll 
have a real political football on our hands. Already, we can 
see resistance building.
    For all of these reasons, I think it's imperative that we 
undertake research under the societal and ethical dimensions of 
nanotechnology.
    Targeted funding is necessary here. Funds for research into 
the societal and ethical implications of nanotechnology need to 
be targeted to those with the expertise, training, and interest 
to focus on these issues. If they're not, the funds will be 
gobbled up, reasonably enough, by hungry scientists and 
engineers. This much has been said by the recent National 
Research Council's 2002 Review of the National Nanotechnology 
Initiative, the ``Small Wonders'' book that's been referred to.
    A center for research is necessary. In order for the 
promise of the work on societal and ethical implications of 
nanotechnology to have a significant impact, the work needs to 
be concentrated in one or, preferably, more than one center. 
There are numerous science and technology centers, a veritable 
juggernaut. Such centralization is needed for the societal and 
ethical voice to be heard above the roar of the scientific and 
technological excitement. In addition, a center can help 
coordinate and assess the various approaches to these problems 
that we attempt. So I was pleased, and I underline that Section 
4 (c)(5) of the bill you're considering, S. 189, is very 
important.
    Interdisciplinary research is necessary. The research must 
be done in a broadly interdisciplinary way. We need to draw on 
the full spectrum of voices--the humanities, arts, social 
sciences, the legal and medical professions, and, of course, 
the scientists and engineers.
    Productive work on societal implications needs to be 
engaged with the research from the start. Ethicists need to go 
into the lab to see what's possible. Scientists and engineers 
need to engage with humanists to start thinking about this 
aspect of their work. Students need training now that will take 
their understanding of nanotechnology from laboratory to 
society. These students today, trained in the right 
interdisciplinary setting, will become a cadre of scientists, 
engineers, and scholars used to working together, thinking 
about the societal and technical problems side by side. Only 
thus, working together in dialogue, will we make genuine 
progress on the societal and ethical issues that nanotechnology 
poses.
    We have a real opportunity here. Instead of calling on 
ethicists to patch things up as best they can after the fact, 
if we start now, bringing social scientists, humanists, legal 
and professional scholars to the table, our understanding of 
the social and ethical dimensions of nanotechnology can co-
evolve with the technology itself. This will make for better, 
more socially responsive work in nanotechnology and for few 
problems to patch up later on. Nanotechnology can avoid the 
fate, most recently, of the genetically modified organisms.
    Thank you for considering my testimony. In my written 
comments, I map out, in somewhat more detail, the kind of 
interactive interdisciplinary model that we're building here at 
USC. I should also note similar work being done at the 
University of Virginia. But it's a big country and there's lots 
to do. And I welcome any questions you may have.
    [The prepared statement of Dr. Baird follows:]

Prepared Statement of Dr. Davis Baird, Professor and Chair, Department 
              of Philosophy, University of South Carolina
    I wish to thank the Committee for inviting me to testify about the 
need for research on the social and ethical dimensions of 
nanotechnology. At the University of South Carolina I am leading a 
broadly interdisciplinary team of researchers working in cooperation 
with the USC NanoCenter. Our mission is to examine the societal 
implications of nanotechnology. It is a topic I feel strongly about, 
and I am happy to speak to you about it.
    I have one primary point, and three follow-up clarifications.
    Primary point: It is essential that research into the societal and 
ethical dimensions of nanotechnology be undertaken.
    Targeted Funding Necessary: Adequate funding for this research must 
be specifically targeted for investigating nanotechnology`s societal 
and ethical dimensions.
    Center for Research Necessary: It would be more productive for some 
of the research to be concentrated in one--or preferably more--centers.
    Interdisciplinary Approach Necessary: This research should be 
conducted in a broadly interdisciplinary way that includes humanists, 
social scientists legal and medical professionals and nano scientists 
and engineers.
    Primary point: Research into the societal and ethical dimensions of 
nanotechnology is essential for many reasons:
    (1) Nanotechnology presents itself as a fundamentally 
transformative technology, with changes promised in nearly every 
important sector of human endeavor. According to the 2002 report of the 
National Nanotechnology Initiative: ``The impact of nanotechnology on 
the health, wealth, and lives of people could be at least as 
significant as the combined influences of microelectronics, medical 
imaging, computer-aided engineering, and man-made polymers developed in 
the century just past.'' \1\ We would be very foolish not to research 
carefully the potential societal and ethical consequences of 
nanotechnology.
---------------------------------------------------------------------------
    \1\ National Science and Technology Council 2002, National 
Nanotechnology Initiative: The Initiative and its Implementation Plan. 
http://www.nano.gov/nni2.pdf, p. 11.
---------------------------------------------------------------------------
    (2) In virtue of its defining characteristic--nano size--
nanotechnology immediately raises several social and ethical concerns. 
Privacy comes quickly to mind, but also the human and environmental 
toxicity of manufactured nanoparticles. Nanotechnology will be 
important for other environmental issues including waste disposal and 
the remediation of natural sites. Potential military uses of 
nanotechnology raise concerns.
    (3) Beyond concerns about such concrete products of nanotechnology, 
we need to consider how the goals of different segments of society for 
the use of nanotechnology are framed. In oral testimony to the House of 
Representatives Ray Kurzweil said, ``Nanotechnology and related 
advanced technologies of the 2020s will bring us the opportunity to 
overcome age-old problems, including pollution, poverty, disease, and 
aging.'' \2\ Problem or not, ``overcoming'' aging would be a societal 
nuclear bomb. Such goals need careful reflection, not ``damn the 
torpedoes, full steam ahead'' technical pursuit.
---------------------------------------------------------------------------
    \2\ House of Representatives, Committee on Science, Hearing, April 
9, 2003, on H.R. 766, ``The Nanotechnology Research and Development Act 
of 2003,'' (the House version of S. 189). The quoted material is from 
the transcript p. 3.
---------------------------------------------------------------------------
    (4) Information about nanotechnology is coming to the public 
through two main avenues science fiction--Michael Crichton's Prey--and, 
what I call ``science faction'' (more than fiction, less than fact)--
Bill Joy's ``The Future Doesn't Need Us.'' Without some serious 
reflection on the genuine opportunities and risks posed by 
nanotechnology, this field could very easily become a political 
football. Already one can see resistance building in, for example, the 
efforts of the ETC group.\3\
---------------------------------------------------------------------------
    \3\ An April 14, 2003 news release from the Action Group on 
Erosion, Technology and Concentration [ETC Group]: ``Size Matters: New 
Information Provides More Evidence for Mandatory Moratorium on 
Synthetic Nanoparticles,'' available for download at http://
www.etcgroup.org/search.asp?theme=11.
---------------------------------------------------------------------------
    For all these reasons, and others as well, it is imperative that we 
undertake research on the societal and ethical dimensions of 
nanotechnology.
    Targeted Funding Necessary: Funding for this research needs to be 
specifically targeted to societal and ethical work. When this doesn't 
happen hungry scientists and engineers--reasonably and appropriately 
enough--gobble up all the funds. They may add some words to a largely 
scientific or engineering grant application that suggest an interest in 
societal implications, but if the work is not organized and led by 
those for whom societal and ethical concerns are the focus, the words 
will only be window dressing. This much has been reported in the 
National Research Council's 2002 review of the NNI.\4\ Philosophers, 
ethicists and social scientists are trained--variously in different 
ways--to think through ethical and social issues. Furthermore, they are 
well situated to mediate between the scientists and engineers working 
on nanotechnology and the broader public.
---------------------------------------------------------------------------
    \4\ In the National Research Council's words: ``There appear to be 
a number of reasons for the lack of activity in this [societal and 
ethical] area. First and foremost, while a portion of the NNI support 
was allocated to the various traditional disciplinary directorates, no 
funding was allocated directly to the Directorate of Social and 
Behavioral and Economic Sciences, the most capable and logical 
directorate to lead these efforts. As a consequence, social science 
work on societal implications could be funded in one of two ways: (1) 
it could compete directly for funding with physical science and 
engineering projects through a solicitation that was primarily targeted 
at that audience or (2) it could be integrated within a nanoscience and 
engineering center.
    There are a number of reasons both funding strategies failed to 
promote a strong response from the social science community. First, 
given the differences in goals, knowledge bases, and methodologies, it 
was probably very difficult for social science group and individual 
proposals to compete with nanoscience and engineering projects in the 
NIRT and NER competitions. (Small Wonders, Endless Frontiers: A Review 
of the National Nanotechnology Initiative, 2002, p. 34).
---------------------------------------------------------------------------
    Center for Research Necessary: In order for research on the 
societal and ethical implications of nanotechnology to have significant 
impact, some of this research needs to be concentrated in a center--or 
better several centers. Already there are numerous well-funded state 
and university centers for the pursuit of the scientific and technical 
challenges posed by the nanoscale. NSF has funded six nanoscale science 
and engineering centers [NSECs]. Similar centers have been funded by 
NASA, DOE and DOD. There is a scientific and engineering juggernaut 
here, and some concentration will be necessary for the societal and 
ethical dimensions voice to be heard. Section 4 (c)(5) of the bill you 
are considering, S. 189, is important.
    Interdisciplinary Approach Necessary: Investigations into the 
ethical and societal implications of nanotechnology must be done in an 
interdisciplinary collaborative way, drawing into dialog the full 
spectrum of perspectives on this work--the humanities, arts, social 
sciences, the professions and, of course, the various scientific and 
engineering disciplines that are jointly pursuing nanoscale research. 
Productive and useful social and ethical considerations of 
nanotechnology cannot occur outside the research and development 
itself. We will be much better off integrating such concerns into the 
research from the ground up. To do this we need to establish channels 
of communication between and among the various stakeholders in 
nanotechnology. We need to bring humanists and social scientists into 
the lab so they can begin to grasp what is genuinely possible at the 
nanoscale, and then it will be possible for the scientists and 
engineers to hear and to begin to engage social and ethical concerns. 
Students, who will be developing the nanotechnology for the next 
generation need to be broadly educated now in the whole picture of 
nanotechnology, laboratory to society. None of these groups has a 
monopoly on what is right and true, and only through careful open 
dialog can we hope to make meaningful progress reconciling different 
viewpoints and building societal and ethical concerns in at the 
beginning.
    Let me close by saying we have a real positive opportunity here. In 
contrast to the typical case where ethical and social consequences are 
dealt with after the fact, patching up problems as best as we can, in 
this case research into the social and ethical dimensions of 
nanotechnology can co-evolve with the technology itself. This will make 
for better, more socially responsive work in nanotechnology and for 
fewer problems to patch up. Nanotechnology can avoid the fate of 
genetically modified organisms.
    Thank you for considering my testimony. In my written comments I 
sketch out in somewhat more detail the kind of interactive 
interdisciplinary model I have in mind. I would be happy to entertain 
any questions you may have.
   Appendix 1: USC NIRT ``From Laboratory to Society: Developing an 
Informed Approach to Nanoscale Science and Technology'' as a Model for 
      Developing a Center of Ethical and Societal Implications of 
                             Nanotechnology
1. Background
    On June 15, 2001 the NanoCenter at the University of South Carolina 
was founded. But the pursuit of nanoscale research here--and 
elsewhere--takes on a particular intellectual risk. Gary Stix 
characterizes it in a recent issue of Scientific American: ``Any 
advanced research carries inherent risks. But nanotechnology bears a 
special burden. The field's bid for respectability is colored by the 
association of the word with a cabal of futurists who foresee nano as a 
pathway to a technical utopia: unparalled prosperity, pollution-free 
industry, even something resembling eternal life.'' Caught between 
nano-visionaries and nano-skeptics, ``the nanotech field struggles for 
cohesion'' and a clear definition. Even serious publications and 
reports about the totally new promise of research at the nanoscale echo 
many of the nano-visionaries' predictions. Though they indirectly 
profit from, and are to some extent inspired by the ``hype'' 
surrounding nanotechnology, the serious scientists at USC need to 
distance themselves from such overreaching claims. They need to do so 
not only for reasons of intellectual honesty, but also because 
overstated technological promise has a flipside: It can easily engender 
irrational fears that undermine public acceptance. The field's bid for 
respectability therefore concerns not only its standing in the larger 
scientific community but also its perception by those who shape public 
understanding of science and technology.
    In July 2001, a number of humanities scholars at the University of 
South Carolina formed a Working Group for the Study of the Philosophy 
and Ethics of Complexity and Scale [SPECS]. Their goal is to develop a 
scientifically, philosophically and ethically informed understanding of 
the critical developments of the sciences and technologies that are set 
to define and transform the 21st century: nanoscience and 
nanotechnology, robotics, genetic engineering, earth systems science, 
the study of complex and autocatalytic systems. One of the group's 
first topics for discussion was Bill Joy's ``Why the Future Doesn't 
Need Us.'' Joy moves far too hastily from contentious predictions to a 
sweeping call for a moratorium on many kinds of basic research. 
Nonetheless, his dystopian vision should stimulate careful scrutiny of 
how basic research takes shape in the wider context of the university, 
the economy, and contemporary culture. This is SPECS's task. A search 
of databases in the history and philosophy of science and technology 
revealed that nanoscale science and technology had received only 
limited attention. This also held in the area of legal studies. The 
March 2001 NSF report, Societal Implications of Nanoscience and 
Nanotechnology, produced a template for discussion but left particular 
investigations for the future. SPECS was therefore the first 
university-based interdisciplinary initiative to bring close scrutiny 
to this new area of science and technology. In August 2001 SPECS 
received seed funding from USC's Office of Research for AY 2001/02. By 
December 2001 SPECS had consolidated as a Nanoscale Interdisciplinary 
Research Team, and had submitted an application to NSF for a NIRT 
grant. Our NIRT grant was partially funded for 2002/03, and we were 
encouraged to reapply in 2002 for a full four-year award, which we did 
with a research proposal entitled ``From Laboratory to Society: 
Developing an Informed Approach to Nanoscale Science and Technology.'' 
The final decision is still pending, but we are optimistic that our 
project will be recommended for an award.
    In the following I provide an outline of our research fields as 
well the infrastructure that we use to perform research in a truly 
interdisciplinary manner, with currently 17 faculty members from 10 
departments involved. I suggest that this might be taken as the 
beginning structure of a model for a Center of Ethical and Societal 
Implications of Nanotechnology.
2. Research Fields
    Our interdisciplinary research team is divided into four smaller 
sub-teams, each devoted to a specific Task Area of research. These Task 
Areas are structured to focus attention on how our understanding and 
control of nanotechnology moves from the laboratory to society. Before 
we debate the ethics of ``assemblers,'' for example, we should be clear 
just how understanding and control is achieved at the level of basic 
research, and then how this hard-won mastery can structure and inform a 
broader public and political understanding and control of 
nanotechnology. Three kinds of collaboration result from the manner in 
which we have structured these research Task Areas: (1) collaborations 
among the members of each Task Area as they prepare joint seminar 
presentations, workshops, publications; (2) collaborations between 
these sub-teams and members of USC's NanoCenter; and (3) the 
collaboration among the participants of all four Task Areas as the 
results of various researches are brought together and presented for 
general discussion. Underlying the research in all of these Task Areas 
is an interest in working out a shared language, a joint appreciation 
of the scientific and cultural/societal issues involved, and a desire 
to articulate the background assumptions and models used to address 
these issues.
Task Area 1: Ideas of Stability and Control in the Theory and Practice 
        of Nanoscale Research
    Otavio Bueno (Philosophy, USC) joins Davis Baird (Philosophy, USC) 
and R.I.G. Hughes (Philosophy, USC), who continue here an earlier 
collaboration. They undertake a systematic philosophical examination of 
nanoscale research. To this end, the projects in this task area examine 
nanoscience from three different philosophical perspectives. Two 
projects provide complementary analyses of nanoscale research as it is 
currently practiced. Baird examines the instruments that allow 
nanoscience to exist, and Hughes the theoretical tools that the science 
employs. What Ian Hacking said about science in general applies also to 
nanoscience in particular: ``In nature there is just complexity, which 
we are remarkably able to analyze. We do so by distinguishing, in the 
mind, numerous different laws. We also do so by presenting, in the 
laboratory, pure, isolated phenomena.'' In other words, as the sciences 
mature, theory and instrumentation work together to produce stable 
facts and a stable grasp of the facts. Stable facts trump fantastic 
visions and defeat skeptical doubts. In their collaboration (which 
involves close interaction with the scientists at USC's NanoCenter) 
Baird and Hughes explore the various ways in which nanoscale research 
can itself become the inherent source of stability and trust. In 
contrast, Bueno's project deals with one of the forerunners of 
nanoscience, John Von Neumann. Not only does it add a historical 
dimension to our understanding, but it also provides an exploration of 
the limits of physical and mathematical possibility within 
nanotechnology.
    The members of task areas engage in a close collaboration with 
Alfred Nordmann and his collaborators at the Technical University of 
Darmstadt, Germany. Together they produce a monograph on ``The 
Philosophy of Nanoscience.'' This includes chapters on (1) nanoscale 
research between science and technology, (2) the role of 
instrumentation in the development of nanoscale research, (3) 
experimental and technological control of interventions at the 
nanoscale, (4) historiography and the self-definition of the nanoscale 
research community, and (5) disciplinary issues of nanoscience. This 
collaboration furthers the establishment of the Center for the 
Philosophy and Ethics of Complexity and Scale [CPECS] at the University 
of South Carolina and a corresponding program on the Philosophy and 
History of the Technosciences at the Technical University of Darmstadt. 
The long-term interdisciplinary collaboration between these two Centers 
serves researchers and students alike.
    (1) Extending Eyes and Hands to the Nanoscale: Bringing previous 
experience developing a philosophy of scientific instruments, Davis 
Baird (Philosophy, USC) here focuses on the instruments used in 
nanoscience, in particular on the scanning tunneling and atomic force 
microscopes [STM and AFM]. These instruments establish a central node 
in a network of relations between scientists and engineers from various 
disciplines. USC's NanoCenter represents one such network, but the USC 
Electron Microscopy Lab represents a different node. Baird investigates 
how data are produced in these overlapping networks and how data are 
then differently interpreted in their various ``home disciplines.'' To 
borrow a metaphor from Peter Galison, data move in and out of ``trading 
zones,'' they are framed differently by people working in different 
institutional and disciplinary contexts. But the instabilities produced 
by these differences are counterbalanced by the stability of the 
phenomena observed and produced by these instruments. Baird is pursuing 
three specific areas of research. (1) According to a widely reported 
``standard story,'' nanoscience has been propelled by improvements in 
microscope technology, in which early electron microscopes were 
supplanted by STM and AFM. This story is examined to see if it is 
accurate and, if not, why it remains so compelling. (2) How has the 
commercialization of the STM and the AFM impacted their development? 
(3) The relation between two different kinds of imaging used in 
nanoscience--electron microscopy and probe microscopy--is explored. One 
is analogous to seeing, the other analogous to feeling--though even in 
the latter case the data obtained is made to yield a visual 
representation (see also Task Area 2).
    (2) The Disciplinary Reconfiguration of Nanoscience: Having 
recently finished a manuscript on theoretical practice in science, 
R.I.G. Hughes (Philosophy, USC) adopts a complementary approach. 
Instead of focusing on instrumentation and experimentation, he 
considers how theoretical representations are reconfigured in the newly 
emerging ``trading zone'' of nanoscale science and engineering. 
Theoretical practice at the nanoscale uses a great diversity of 
theoretical tools. The NSF description of them lists ``techniques such 
as quantum mechanics and quantum chemistry, multi-particle simulation, 
molecular simulation, grain and continuum-based models, stochastic 
methods, and nano-mechanics,'' and there is no reason to think that 
this list is exhaustive. Investigators study: (1) the tasks that these 
various tools perform, and the sub-disciplines within nanoscience that 
employ them; (2) the extent to which different theoretical approaches 
are integrated, and the problems that can make such integration 
difficult; (3) the interaction between theoretical and experiment work; 
and (4) the narratives that nanoscientists employ, and which make 
interdisciplinary communication possible. Additionally, (5), the topic 
of theoretical representation provides a bridge to Task Area 2.
    (3) Precursors to Nanotechnology, Feynman and Von Neumann: Otavio 
Bueno (Philosophy, USC) focuses on the forerunners and immediate 
antecedents of nanoscale research. He is investigating the limits of 
both physical possibility and mathematical possibility in this domain, 
examining how the interaction between what is physically and 
mathematically possible has shaped the constitution of nanoscale 
phenomena. In ``There's Plenty of Room at the Bottom,'' Richard Feynman 
outlined a vision for the development of nanoscience, advancing for the 
first time the idea that it should be possible to build objects atom-
by-atom. Not surprisingly, the nanoscience community has taken this 
work as a founding document. In it Feynman was concerned with what it 
was physically possible to do at the nanoscale, and he outlined the 
benefits that should be expected from such a research. In contrast, in 
a series of seminal papers on the theory of automata, John Von Neumann 
explored what was mathematically and logically possible--but also what 
was mathematically impossible--to do in the process of building 
reliable organisms from unreliable components. Although there has been 
a considerable amount of research on Feynman's contribution, especially 
by those in the nanoscience community, Von Neumann's work has received 
significantly less attention. A focus on Von Neumann's contribution 
sheds light on nanoscience in two ways. (1) It provides a better 
understanding of the emergence of the theory of automata and self-
reproduction, and in this respect, Bueno's work connects with the work 
undertaken in Task Area 3. (2) It allows a new perspective on the role 
played by this theory in the constitution of the field.
Task Area 2: Imaging and Imagining the Nanoscale: From Atomic Force 
        Microscopic Topographies to Science Fiction Utopias and 
        Dystopias
    Task Area 2 aims at developing a comprehensive understanding of how 
images and imaginings of the nanoscale work, and how they might work 
better. How we see the nanoscale, both with our (aided) eyes and in our 
mind's eye, has a powerful impact both on the science and technology of 
the nanoscale and on the public reception to nanoscale research and its 
fruits. Indeed, it is widely argued that the development of our ability 
to produce images of nanoscale objects has been the sine qua non of any 
serious understanding and control of the nanoscale. The concerns of 
Task Area 2 thus reflect back on those of Task Area 1. But our ability 
to image and imagine the nanoscale drives more widely held popular 
understandings--and misunderstandings--of the nanoscale, and it is here 
that debate over the societal impact of technology takes place. For 
this reason Task Area 2 concerns also reflect forward to the concerns 
of Task Areas 3 and 4. It is through the images and imaginings of the 
nanoscale that understanding and control of the nanoscale moves from 
the laboratory to society.
    The issues raised in Task Area 2 do not fit any single discipline, 
and our approach to these issues is multi-disciplinary and 
collaborative. Five team members work in Task Area 2, two philosophers, 
Davis Baird and Ot vio Bueno (both Philosophy, USC), an engineer, 
Richard Ray (Civil Engineering, USC), an expert on science fiction, 
Steven Lynn (English, USC) and a conceptual artist, Chris Robinson 
(Art, USC). Together they examine the variety of ways we image and 
imagine the nanoscale. They approach the concerns that Task Area 2 
embraces in four areas of study.
    (1) A Taxonomy of Kinds of Representation of the Nanoscale: The 
first area of study, fundamental to the rest, aims at articulating the 
nature and domain of application of the various different kinds of 
representation of the nanoscale. Furthermore, it aims to identify the 
gaps that exist between the different levels of representation:

 <bullet>   Quantum mechanical representations of individual atoms;

 <bullet>   Molecular models (of various sorts);

 <bullet>   STM/AFM/EM images of nanoscale material;

 <bullet>   Scientific representations of bulk matter;

 <bullet>   Nano-visionary designs (e.g., for ``molecular 
        assemblers'');

 <bullet>   Artist renderings of the nanoscale;

 <bullet>   Science fiction that uses textual descriptions of the 
        nanoscale;

 <bullet>   Creative works of art inspired by the nanoscale.

    These different ways of representing the nanoscale differ from one 
another, both logically and rhetorically, and these differences need to 
be articulated. Only then can we begin to appreciate how different ways 
of representing the nanoscale should be used in the various contexts in 
which they are needed, how, for example, an image of the nanoscale 
developed for one context may be misleading or ineffective in another 
context.
    Work at this first stage, crossing as it does from largely 
technical issues--about quantum mechanical and molecular models of 
atoms--to largely cultural issues--about science fiction and visual 
art--involves a collaboration of all Task Area members. Bueno brings a 
background in the philosophy of physics to bear on quantum mechanical 
and molecular models of atoms. Baird brings a background in the 
philosophical study of scientific instrumentation to bear on the STM/
AFM/EM images of the nanoscale. Ray, with a background in computer-
aided design for structures, joins Baird and Bueno to examine how 
scientific representations of bulk material can work with nano-
visionary designs. Robinson, with a background as a creative artist, 
and Lynn, with a background in the study of science fiction, contribute 
an understanding of how these more popular genres draw from and 
contribute to the scientific and technological images, and how the more 
popular understanding of the nanoscale is thereby established.
    (2) Better Images: The second area of study aims at improving 
images of the nanoscale. The images that we use to ``see'' the 
nanoscale are produced using a variety of different technologies. 
Sometimes the same image combines data from (e.g.) atomic force 
microscopy, quantum molecular simulations and artist's renderings. 
These different visual techniques work differently, and these 
differences need to be appreciated, and ultimately deployed to make 
better images. Drawing on the work done at the first stage, our team 
works with scientists and science journalists to develop better images, 
images that communicate without misleading, and that can do so while 
moving from one context of use to another. Robinson leads work on this 
stage, bringing his expertise as a visual and conceptual artist to bear 
on developing better ways to use the visual medium to communicate 
ideas.
    (3) Scaling Up, Images Crossing from the Nanoscale to the 
Macroscale: The third area of study examines, first, the gap between 
the possible manipulation of matter atom-by-atom as it is painstakingly 
done in the laboratory and as it is rather more easily imagined by 
nano-visionaries, and, second, the unavoidable engineering difficulties 
that scaling up to humanly useful dimensions encounters. Here we 
confront the differences between representations that work in the 
laboratory and those that work for manufacturing. Ray, with his 
expertise in computer-aided design for structures, leads work on this 
stage.
    (4) The Nanoscale in Art: The fourth area of study both examines 
and produces art inspired by the nanoscale. Lynn, with a background in 
the study of science fiction, examines the history of the incorporation 
of nanotechnology into science fiction, and relates this history both 
to simultaneous developments in scientific research at the nanoscale 
and to cultural aspirations for and concerns with this research. 
Robinson creates and exhibits visual artworks inspired by his 
encounters with the research done by members of USC's NanoCenter. This 
work is open for public viewing, and serves to provoke its viewers to 
think about how nanotechnology will impact their lives and society.
Task Area 3: Problems of Self-replication, Risk, and Cascading Effects 
        in Nanotechnology: Analogies between Biological Systems and 
        Nanoengineering
    Another area of collaboration, involves Robert Best (School of 
Medicine, USC), George Khushf (Philosophy & Center for Bioethics, USC), 
Loren Knapp (Biological Sciences, USC), and Walter Piegorsch 
(Statistics, USC), and explores the models and cultures that inform 
risk assessment of nanotechnology. In both the visionary and dystopian 
literature are arguments that nanotechnology, genetics, and robotics, 
when taken together, involve new ethical issues, qualitatively 
different in scope and character from those associated with previous 
technologies. The visionaries highlight the potential and promise, and 
suggest there is an ethical obligation to accelerate development. The 
anti-utopians argue for a moratorium, fearing a ``brave new world.'' At 
the heart of the more negative assessment is the assumption that these 
technologies can produce ``cascading effects,'' which have the 
potential to alter the environment on a massive and unprecedented 
scale. The fear is that a new technology such as nanotechnology will 
introduce a precursor stimulus or hazard, which will lead to other more 
substantive hazards, and thence to detrimental hazards, catastrophic 
hazards, on and on. In ``Why the Future Doesn't Need Us,'' Bill Joy 
speaks for all those who are worried that we will always be one step 
behind in our capacity to respond.
    In order to properly put these concerns into perspective, Task Area 
3 team members engage with team members working in Task Areas 1 and 2. 
Our ability to produce new nanoscale phenomena in the laboratory may 
unleash a cascade of irreversible hazards that spiral out of control. 
Task Area 1 considers how stable phenomena and a stable understanding 
of the phenomena might serve as a deterrent to such risks. Task Area 2 
considers how our abilities to image and imagine the nanoscale provide 
the tools to consider these risks. Members of Task Area 3 take these 
considerations further to consider the management of risk in three 
clusters of investigation.
    (1) Models of self-replication and self-regulation: Most important 
is the need to articulate the range of meanings encompassed by self-
replication and self-regulation, from a simpler, bench-oriented model 
to the vision associated with assemblers, and everything in between. 
Nanoscientists have already developed a variety of new materials that 
show promise for nano-engineered products--nanotubes, electrically 
conducting compounds, quantum dots, etc. Now, they need ways to 
organize these materials into larger structures that might be useful to 
society. In order to do this, they have focused upon mechanisms of 
replication and the regulation of these mechanisms. But, as the 
complexity of a self-replicating process increases, the possibility of 
an undesirable medical or environmental outcome seems likely to 
increase as well, and there are additional concerns about potential 
mutations of the original process. In order to help anticipate and 
prepare for such possibilities, Task Area 3 team members seek to 
identify the multiple models and meanings of self-replication and self-
regulation, ranging from current techniques (e.g., for growing 
nanotubes) to universal assemblers. In between, we consider 
possibilities on the near horizon (e.g., the use of viruses to engineer 
at the nanoscale) and the more distant horizon (e.g., limited 
assemblers, the stated goal of the company Zyvex).
    Task Area 3 members approach this work by drawing on analogies 
between these engineered mechanisms and those found in natural 
biological systems. In order to appreciate the challenges involved in 
designing and manufacturing nano-structures capable of self-replication 
and correction without loss of control, they examine the properties of 
natural self-replicating systems. What methods does nature use for 
self-replication? Will nanotechnologies resemble genetic systems in 
such a way that an understanding of the natural principles governing 
the latter might guide the development and application of the former in 
safe and controllable ways? In what ways will they differ? Armed with 
this understanding we will be able to explore the philosophical and 
ethical implications of aspects of self-regulation.
    (2) Taxonomy of Risk Assessments for Nanotechnology: Scientists 
know that complex, non-linear, self-replicating systems can produce 
unanticipated medical and/or environmental harm. In some cases 
statisticians can quantify risks associated with such systems, but in 
many other cases the uncertainty is too great, and the best that can be 
done is to provide a less precise qualitative analysis. Along these 
lines, Task Area 3 team members develop a taxonomy of the kinds of risk 
assessment that could be used in ethical debates on nanotechnology. 
They do so in the following manner.
    First, they identify risk paradigms for possible medical and 
environmental outcomes (e.g., the way a new virus can pose a public 
health risk). Then they consider whether the associated risks could 
have been anticipated and quantified in a risk analysis. They examine 
cases where established methods of quantifying risk worked well and 
cases where the outcomes could not have been anticipated and 
quantified. Next they draw on their earlier work, developing the 
analogy between engineered and natural nanosystems, and they extend 
this analysis to consider the possibilities of quantifying risks 
associated with the types of self-replicating, artificially engineered 
nanosystems identified earlier. The goal is to identify and structure 
the variety of cases posed by nanotechnology in terms of the degree to 
which the risks can or cannot be quantified. Finally, within this 
structure they consider how such risks can and should be incorporated 
into ethical analysis and communicated to the public.
    (3) The literature and culture informing ethical analysis of 
nanotechnology: There are several new areas of research that involve 
significant challenges to our understanding of ourselves and our 
prospects in the world. These include, (1) robotics/cybernetics, (2) 
genetics, and (3) nanotechnology. In most of this literature, these 
three technologies are considered in isolation. However, some of the 
most troubling ethical issues occur where all three technologies 
intersect. Task Area 3 members explore analogies, similarities, and 
differences between the ethical discussions in each of these areas and 
then consider how their combination could raise issues that have been 
insufficiently considered when viewed in isolation. The focus here is 
not only on the substance of the issues, but also on the climate and 
culture that frames the way the issues are addressed and resolved.
    All phases of work in Task Area 3 is fully collaborative, bringing 
together the science (Best and Knapp), probability theory (Piegorsch), 
and the philosophy/ethics (Khushf). Best is trained as a toxicologist, 
with research in environmental hazards and genetics; he currently 
directs USC's program in clinical genetics. Knapp is a developmental 
and evolutionary biologist. Together with faculty in the USC 
NanoCenter, they identify the paradigm medical/environmental cases, 
explore the analogies between natural and artificial nanosystems, and 
provide the scientific expertise to assure that the statistical and 
ethical analysis is appropriately scientifically informed. Piegorsch 
has extensive practical experience in quantitative risk analysis, 
including work in environmental hazards and toxicology. He directs the 
development of taxonomies of risk, assessing the degrees to which 
quantification is possible. Khushf guides the review of the literatures 
and cultures informing ethical analysis of nanotechnology, exploring 
the ways risk analysis is integrated into ethical and policy debate, 
and addressing the conceptual and philosophical issues of complexity, 
scale, and self-replication.
Task Area 4: Moving Nanotechnology into the Public Sphere
    At the end of the day, all the advances in our understanding of 
nanotechnology that work in Task Areas 1-3 provide are of little value 
if they are not integrated into the public, political and legal 
discussions of nanotechnology. Task Area 4 is concerned both with 
developing models for how to accomplish this, and with bringing the 
insights from all Task Areas to the public sphere, drawing on the 
collaborative infrastructure established by our project (see below). In 
this way Task Area 4 ties together all of the separate strands of work 
that make the project a conceptual whole.
    The first stage of this work is itself conceptual. Each of the five 
members of Task Area 4 considers how nanotechnology might best be 
brought to the public. Each of them comes at this issue from a 
different point of view, and as their collaboration develops over the 
course of the project, these differences inform each other, as together 
they model the various ways nanotechnology can be taken up by the 
public sphere.
    (1) Rhetorical Analysis: David Berube (English, USC) focuses on the 
analysis of the structure of discourse about nanotechnology. He brings 
an extensive background in debate and a long-running interest in the 
visionary rhetoric found in some work on nanotechnology. He pursues two 
projects. The first, building on earlier work, is an analysis of the 
rhetorical place of nanovisionary contributions, mostly that of Eric 
Drexler and the Foresight Institute, in the development of 
nanotechnology. The second is an empirical study of how the inclusion 
into USC's NanoCenter of scholars with a primary focus on the 
philosophical and societal impact of nanotechnology--the members of our 
team--alter the structure of discussions at the NanoCenter. This work 
is pursued in a process of cooperative inquiry aimed at uncovering the 
dynamics of an organizational culture that facilitate or impede 
communication across disciplines, and it starts with the assumption 
that communication between members of the NanoCenter changes when the 
members our team are part of the mix. The procedure begins with a 
Likert scale (e.g., 1. Agree; 2. Somewhat Agree; 3. Not Sure; 4. 
Somewhat Disagree; 5. Disagree) survey of NanoCenter members on a 
series of questions concerning the societal place of nanotechnology to 
establish a baseline. As the work proceeds Berube develops analyses of 
communication protocols, observing and recording outcomes. His 
findings, following the protocols of cooperative inquiry, are added to 
the dialog among members of the NanoCenter. Follow-up data accumulation 
may include collection at locations beyond USC and with different 
populations. Quantitative and qualitative findings will be published.
    (2) Science Journalism: Lowndes Stephens (J. Rion McKissick 
Professor of Journalism, USC) pursues an experimental study of ways to 
improve science journalism, particularly that covering nanotechnology. 
The experiment will be conducted during summer 2004 on a group of 
experienced science writers who have a weeklong training course in 
Newsplex, a $2 million state-of-the-art multi-media, micro newsroom 
laboratory at the University of South Carolina. Using information from 
other team members and from members of USC's NanoCenter, the subjects 
will be asked to research, source and write news stories on several 
significant advances in nanoscience and nanotechnology. The subjects 
and their stories will be examined both before and after their 
experience in Newsplex, as a way to determine the degree to which this 
experience improves their ability to write about nanotechnology. 
Results will be analyzed during summer 2005. The project contributes to 
our understanding about how recommendations in the academic literature 
might be used to improve the quality of science reporting. An important 
possible outcome of this work may be that we can train journalists in 
the manner used during the week at Newsplex to improve the accuracy of 
media portrayals of the flaws and promises of scientific innovations in 
nanoscience.
    (3) Politics: Ed Munn (Philosophy, USC). As nanotechnology emerges 
into the public's consciousness, discussions about the desirability of 
emerging technologies that nanotechnology is making possible become 
more common and tendentious. Within a democratic society these 
discussions are pivotal in setting both public policy and the social 
and ethical guidelines for the use and pursuit of nanotechnology. Munn 
studies the emergence of these discussions using the approach favored 
by the proponents of deliberative democracy. Richard Sclove writes, 
``If citizens ought to be empowered to participate in determining their 
society's basic structure, and technologies are an important species of 
social structure, it follows that technological design and practice 
should be democratized.'' Munn explores what this view of democracy 
implies for the development of nanotechnology. In particular he looks 
at the role of ``the expert'' in both communicating and guiding the 
development of nanotechnology. Munn argues that the expert's 
appropriate role is as a facilitator for the creation of an analogue to 
Jurgen Habermas' ideal speech situation that allows for effective 
citizen participation in decisions about nanotechnology.
    (4) Law: Robin Fretwell Wilson (School of Law, USC) is an expert on 
the regulation of new technologies. She brings her experience in health 
law and biomedical ethics, areas in which new technologies challenge 
traditional notions of regulating behavior, to develop a model for how 
best to facilitate nanotechnology. The aim is to do so while preserving 
a role for the incorporation of democratic values input into this 
emerging technology, and in doing so allowing for appropriate state 
oversight. Consistent with her examination of past efforts to regulate 
emerging technologies--ranging from our experiences with allocation of 
scarce life-saving technologies, like organs, to mapping the human 
genome and human cloning--she draws on and integrate all of the various 
insights produced by other members of her Task Area, and those from the 
other Task Areas into discussions in the policy forum. Because the best 
possible course for the regulation of nanotechnology necessarily 
requires deliberative and engaged debate between all the stake-holders 
involved--journalists, educators, industrialists, scientists, funding 
and government agencies and citizens, groups--the policy forum brings 
together these stakeholders and members of the nanotechnology 
community.
    Here, then we reach the second stage of Task Area 4's work: 
Actually engaging the public sphere in discussions of nanotechnology. 
The first stage provides three conceptual and two empirical studies of 
how to take nanotechnology into the public sphere. The results of these 
studies may differ, but the fundamental assumption of our 
interdisciplinary research team is that only by bringing such divergent 
approaches to the study of nanotechnology are we able to find a model 
for constructive debate concerning nanotechnology in the public sphere. 
But a model for debate is not enough. Our project aims to produce 
informed constructive debate itself, and here the key element is the 
active participation of all the members our project's research team, 
the members of the NanoCenter, and other members of USC's faculty, 
student body and staff. The divergent contributions of the members of 
Task Area 4 are essential to developing genuinely useful discussion of 
nanotechnology, a discussion that is particularly important in the 
final conference planned for the project, ``Nanotechnology in the Legal 
and Political Sphere.'' Wilson will organize this conference. She will 
structure discussion between national, international and local 
stakeholders by acting as a reporter for the conference participants, 
circulating drafts, and mediating between academics and other 
stakeholders. With this conference we will have taken our understanding 
and control of nanotechnology from laboratory to society.
3. The Collaborative Infrastructure
    A variety of events and publications stimulate informed and 
integrative dialogue about the significance of nanoscale research, and 
thereby promote the goal of what we call, ``the nano-literate campus.''
I. Annual Summer Workshops
    These weeklong workshops bring together all investigators. They are 
joined by scientists at USC's NanoCenter, graduate and undergraduate 
students, as well as a small group of interested academics and non-
academics. Each workshop features contributions by invited experts on 
various aspects of nanoscience and nanotechnology; these contributions 
serve to structure the task-oriented collaborations of all 
participants. Our inaugural workshop took place on August 5-9, 2002: 
``Reading NanoScience.'' The next four workshops (2003, 2004, 2005, and 
2006) are organized around selected research questions from the four 
Task Areas:

2003 [TA 2]: ``Imaging and Imagining NanoScience,''
2004 [TA 1]: ``Self-Assembly and the Construction of Nanostructures;''
2005 [TA 3]: ``Biological Machines, Genetic Engineering, and 
Nanobiotechnology;''
2006 [TA 4]: ``Nanotechnology and Its Publics.''

II. Annual Spring Conferences & Monthly NanoCulture Colloquia Series
    Spring Conferences: The Spring Conferences aim at promoting 
dialogue between national and international scholars. Since our 
interdisciplinary research team raises new questions for science and 
technology studies, these conferences are to foster disciplinary 
interest in these questions. The first of these, ``Discovering the 
Nanoscale,'' was held on March 20-23, 2003. Its discussions will be 
deepened and continued on October 10-12, 2003 in Darmstadt, Germany. 
Together, both meetings feature about 40 presentations that will be 
collected in a volume of proceedings. The conferences are free and open 
to the public. Plans for future conferences are as follows:
2004, organized by Davis Baird: ``Tools for Imaging and Imagining the 
Nanoscale;''
2005, organized by George Khushf: ``The Philosophy and Ethics of 
Emerging Technologies: Nanotechnology, Cybernetics, and Genetics;''
2006, organized by David Berube: ``Visionary Rhetoric Confronts Real 
Science;''
2007, organized by Robin Wilson: ``Nanotechnology in the Legal and 
Political Sphere.''
    NanoCulture Colloquia Series: Each semester our group organizes and 
hosts a series of colloquia featuring issues associated with our 
project's four Task Areas. The NanoCulture Colloquia Series is open to 
the public, but our target audience includes scientists at the 
NanoCenter, other USC faculty, and interested graduate and 
undergraduate students. Their themes are generated as research on the 
four task areas progresses.
III. Educational Outreach
    Research Based Learning: In coordination with USC's Honors College, 
Loren Knapp (Biological Sciences, USC), with the cooperation of other 
team members, develops a research-based learning course for 
undergraduate honors students at USC. In a case-oriented manner, it 
explores the relations between what is theoretically possible, 
technologically feasible, and ethically defensible. Historically, how 
has this balance been struck? In the case of a newly emerging science 
and technology, such as nanotechnology, how can it be found? The course 
focuses on biological systems and biotechnology as they become fused in 
the concept of biological machines. It therefore considers how 
nanoscale science and engineering challenges the traditional separation 
of nature and culture by using biological systems and processes as 
models for engineering. Along with an extant course on 
``Ultramicroscopy,'' this new course will be part of our Honors College 
``Nano Semester'' (see below). In addition it will afford several 
undergraduate research assistants the opportunity to gain the technical 
skill and theoretical perspective required to produce a research-based 
Honors Thesis.
    Textbook, Understanding Nanotechnology: This volume is aimed at 
introducing an undergraduate audience to the full spectrum of societal 
issues raised by nanoscience and nanotechnology. It consists of 
selected primary readings, with substantial introductory essays for 
each section, and brief introductions for each essay. Team member, 
Steven Lynn (English, USC) coordinates the editing of the volume 
drawing on the efforts of other team members to write all introductory 
material. The volume has the following structure:
    Section 1, Nano Fundamentals: Background readings explaining what 
nanotechnology is, what its current state of development is, and what 
it may make possible;
    Section 2, Nano Science: Annotated excerpts from science journals 
that show how the science of nanotechnology is being conducted;
    Section 3, Nano Fiction: Short stories that indicate how 
nanotechnology has been represented in science fiction;
    Section 4, Nano Publics: Readings and illustrations from newspapers 
and magazines that show how nanotechnology is being presented to the 
public;
    Section 5, Nano Politics: Readings the engage the ethics and 
politics of potential uses and abuses of nanotechnology.
    Nano Semester: During the spring of 2005, the Honors College will 
host a collection of coordinated, interdisciplinary courses, each 
concentrating on a different aspect of nanoscience and nanotechnology. 
These will follow the pattern of previous semesters fielded by the 
Honors College--spring 1999: ``Darwin across the Disciplines,'' spring 
2003: ``The Sustainable Futures (on environmentalism).'' Catherine 
Murphy, working in cooperation with other team members, will coordinate 
this set of courses. In addition to the Research Based Learning course 
(see above) planned courses include ``Ultramicroscopy,'' ``Chemistry 
and nanotechnology,'' ``Post-humanism and nanotechnology,'' 
``Philosophy at the nanoscale: Creating a new reality.'' In addition, 
we will use one or more of these courses to help us develop our reader, 
Understanding Nanotechnology, on the multiple aspects of the cultural 
significance of nanoscale research.
IV. Publications, Website and Archive
    All of the various collaborative ventures involve an exchange of 
ideas and manuscripts among investigators. These culminates in a 
collection of papers that brings together the work of the research on 
the four Task Areas that we will publish in a peer-reviewed academic 
press. As a matter of course, the preparation of scholarly manuscripts 
and the participation in the workshops and colloquia leads to a variety 
of other publications in peer-reviewed academic journals and in other 
outlets, aimed at a more general readership. Given the current state of 
the field, we expect the collection of papers that flow out of this 
project to provide a foundation for this emerging important field of 
research.
    The project's webmaster manages the website and archive of our 
research team http://www.cla.sc.edu/cpecs/nirt/. This website features 
the general outline, scheduled events and specific projects included in 
this proposal. It includes a searchable and expanding database of 
abstracts of research materials for people interested in doing research 
on the societal implications of nanotechnology. Links to each 
investigator provide access to their research projects. Website also 
points to a moderated listserv on the philosophical and social 
dimensions of nanoscale science and technology, with about 200 
subscribers from all over the world. The listserv also allows 
investigators to present new ideas and arguments for consideration by 
this audience. The website also includes a collection of ``works in 
progress,'' available for further public consideration and comment. One 
team member, Ed Munn, is fluent in Spanish, and is translating much of 
the website to make our work accessible in Spanish.
V. Engaging USC's NanoCenter
    At every stage of our research, we are looking for ways to 
integrate our critical reflections with the interests and concerns of 
the scientists and engineers at USC's NanoCenter. Over the course of 
the grant, the science/humanities collaboration between the NanoCenter 
and our research team takes a variety of forms: (1) NanoCenter 
scientists are instructing humanities scholars in the fundamentals of 
nanoscience and engineering; (2) members of USC's NanoCenter have 
introduced members of the team to the instruments on which their work 
relies; (3) the opinions and contributions of NanoCenter researchers 
are solicited at monthly colloquia; (4) members of the NanoCenter have 
helped us to compile a collection of classical readings, used in our 
August 2002 workshop: ``Reading Nanoscience.'' Similar collaborations 
are envisaged for the future. In addition, (5) claims about the 
philosophical significance of bottom-up nano-engineering are checked 
against the insights and assessments of engineers themselves; (6) the 
laboratory work and disciplinary interactions at the NanoCenter are 
observed by members of our team; (7) all research produced by the team 
are made available to the scrutiny and criticism of NanoCenter 
researchers; (8) members of the NanoCenter are invited to participate 
in our listserv discussions; (9) in the annual assessment phase, 
members of the NanoCenter are asked to comment on our activities and to 
suggest future activities or topics for discussion; (10) Richard Adams, 
Director of the NanoCenter, is a member of our Advisory Board. Finally 
(11) we aim to encourage the scientists and engineers at the NanoCenter 
to more fully examine the hidden societal assumptions behind their 
research, and to see how the research projects they pursue may be 
integrated into the broader society they serve.
  Appendix 2: Ethical and Societal Implications of Nanotechnology: A 
                            Research Agenda
Reflecting the goals of nanotechnology
    Nanotechnology is frequently presented as improving wealth, health, 
environment, and security. While all these four values are, each in 
their own way, compelling, detailed studies need to analyze (1) if 
there are possible conflicts between these values, (2) if there are 
conflicts with other culturally embedded values, and (3) if there are 
consequences that may arise when the goals would be really achieved. 
For instance, creating a perfect health control system by nano-bio-
information technology may raise issues of privacy and informational 
autonomy. Or, improving health condition to the state of overcoming 
aging, as some have promised, would cause radical societal and cultural 
changes and would also require rethinking individual life plans.
Identifying possible moral issues
    Moral issues of new technologies usually arise (1) if the 
applications have either unintended bad consequences or (2) if the 
benefits are distributed unjustly. For instance, new kinds of risks 
might arise from nanoparticles if they have unpredictable catalytic 
effects in the human body or the environment, or if their built-in 
capacities to self-assembly or to replicate get out of control. Or, new 
nanotechnologies, because of their improvement of human performances, 
might cause or increase a social divide between the privileged and 
skilled who can use these technologies and the underprivileged and less 
educated who are not able to use them.
Identifying possible gaps in the legal regulation of nanotechnology
    Once moral issues of nanotechnology are identified, juridical 
analysis is required to check the present regulation system whether it 
is sufficient to cope with them or not and to develop suggestions for 
additional regulatory instruments.
Distinguishing the critical from the uncritical fields of 
        nanotechnology
    Current definitions of nanotechnology are so broad and vague that a 
vast field of hardly related scientific and engineering research is 
included and, given the present trend, much more will be included in 
the future. Should public concerns about single moral issues ever grow 
to the condemnation of whatever is labeled nanotechnology, the effect 
on science and technology could be disastrous. It is imperative, 
therefore, to clearly distinguish between critical and uncritical 
fields of nanotechnology and to mediate this distinction to the public.
Analyzing the implicit moral messages of metaphors and images
    From media reports to visual images and fiction writing, 
representations of nanotechnology convey implicit values and moral 
messages that can powerfully shape the public opinion. It is therefore 
important to analyze the metaphors and visual images used in 
communications about nanotechnology, with respect to their normative 
implications, the fears and hopes they raise, and their cultural roots.
Studying how ideas about nanotechnology transform cultural belief 
        systems
    The promises and far-reaching scenarios of nanotechnology, from 
longevity/immortality to the intimate entanglement of the human body 
with machines and computers, are able to undermine and transform 
traditional cultural belief systems, regarding the physical, mental, 
and social nature of human beings, and the distinction between nature 
and technology. It is important to study this interaction in order to 
understand the public reception of nanotechnology, either as extremely 
conservative reluctance or as quasi-religious embracement, such as in 
``transhumanism'' or ``extropianism.''
Observing the public attitudes toward nanotechnology
    In the long run, nanotechnology will flourish only if the public 
supports it. It is therefore imperative to understand not only the 
public concerns but also on what moral basis such concerns are grounded 
and whether conflicts can be reconciled or not. To that end, a detailed 
apparatus for sociological investigations needs to be developed and 
applied, from classical instruments such as questionnaires and oral 
interviews to more participatory models such as consensus workshops or 
science cafes.
Studying how nanotechnology transforms the traditional scientific 
        landscape
    Nanoscale research is currently about to transform the traditional 
scientific landscape, in which researchers as a subsystem of the 
society are involved. The success of nanotechnology will essentially 
depend on the researchers' willingness to take an active part in that 
process. The transformation particularly regards the disciplinary 
structure of the sciences, the science-technology relationship, 
research values, and methods. Since it is likely that these changes 
affect our scientific and educational infrastructure overall, it is 
important to study these impacts in detail and to understand its 
positive and negative consequences as well as potential obstacles.

    Senator Allen. Thank you, Dr. Baird.
    And every one of our witnesses' written testimony will be 
put into the record in its totality.
    Thank you, Dr. Baird.
    Dr. Jiao?

     STATEMENT OF JUN JIAO, Ph.D., CO-DIRECTOR, CENTER FOR 
   NANOSCIENCE AND NANOTECHNOLOGY, PORTLAND STATE UNIVERSITY

    Dr. Jiao. Yes, good afternoon, Chairman Allen and Senator 
Wyden.
    As Chairman Allen mentioned, I have been working in the 
field of nanotechnology for more than 10 years, and I have made 
significant advances in this area. So I serve as the co-
director of the Center for Nanoscience and Nanotechnology and 
the Director of the Electron Microscopy and the Microanalysis 
facility, both at Portland State University. I have received 
the fundings from the government agencies and private 
foundations and high-tech companies for the research, including 
the development of nanofabrication techniques for carbon 
nanotubes and nanowires and the investigation of carbon 
nanotubes and semiconductor nanowires as the new generation of 
electron emitters.
    I'm pleased to appear before you today to discuss 
nanotechnology and this landmark legislation, S. 189. There is 
great excitement about nanotechnology on college campuses. 
Before I could confirm that I would appear today, I asked my 
students for permission to reschedule a class that I missed on 
Thursday. They said yes. They want me to tell you how important 
this legislation is to their future.
    Portland State University has made a tremendous commitment 
to nanotechnology research. We have built a first-class 
nanocharacterization and nanofabrication facility, which is 
unique in the Pacific Northwest. This enables researchers to 
study the materials' properties at the atomic level and to 
create novel materials, as well as nano-devices.
    Nanotechnology research allows us to have unprecedented 
control over the electronic, magnetic, optical, and thermal 
properties of nanoscaled materials. Consequently, the resulting 
nanomaterials are stronger, lighter, and have better quality. 
This will improve our lives in the future--from safer airplanes 
to cars and to reduce the power consumption in more 
miniaturized electronic products, such as cell phones and 
computers.
    I have tremendous excitement about the possibility of new 
discoveries that can happen as a result of the S. 189. Existing 
industries, including those not typically characterized as 
high-tech, will see their production lines and they manufacture 
influenced by our growing capability in nanotechnology. The 
business-development progress will be even more rapid as the 
relative risk from investing in nanotechnology becomes lower.
    I wanted to emphasize that the research being done today in 
nanotechnology is producing exciting results, but the cost of 
production of innovation is beyond the reach of today's 
consumers. Therefore, research has to be done to optimize those 
processes.
    As a scientist who has received significant support from 
our work, I know that federal funding is highly competitive. At 
the same time researchers in this area are compelled to present 
their proposals that are, by their nature, high risk, but they 
have potentials for high gains. The result is that few 
proposals are funded, thereby limiting the work that can be 
done in universities throughout the United States.
    S. 189 will ensure that U.S. scientists receive reasonable 
funding for research to compete with their Asian and European 
counterparts, which has been strongly supported by their 
nations.
    S. 189 supports long-term nanotechnology research and 
development leading to potential breakthroughs in areas such as 
materials and manufacturing, medicine, environment, 
biotechnology, agriculture, information technology, and 
homeland security. I support this broad-based approach because 
nanotechnology cannot be advanced without an interdisciplinary 
focus and federal support.
    History has shown us that without the Federal Government 
providing long-term funding, there are fewer breakthroughs to 
translate into products and economic prosperity.
    Another important aspect of this legislation is that it 
also focuses on our promising scientists and engineers of 
tomorrow. These young people know that investment in nanoscale 
research is the key to their future.
    Over the past several years, I have been involved in an 
outreach program called the Apprenticeship of Science and 
Engineering organized by the Saturday Academy of Oregon. This 
program aims at--encourages high-school students to pursue 
higher education in science and engineering. My experience with 
those young students suggests that we need an imperative such 
as S. 189 to ensure that our scientists of the future have a 
firm training ground with consistent financial support.
    In closing, thank you for the invitation to testify today. 
It is an honor to be asked to participate in this crucial 
national discussion. My colleagues and I strongly believe that 
nanotechnology will lead to a new and improved future. S. 189 
is the commitment we needed to continue American leadership and 
innovation in the latest nanotechnological frontier. I urge the 
Committee to pass this bill.
    Thank you very much.
    [The prepared statement of Dr. Jiao follows:]

    Prepared Statement of Jun Jiao, Ph.D., Co-Director, Center for 
       Nanoscience and Nanotechnology, Portland State University
    Good afternoon, Chairman Allen and Members of the Senate Committee 
on Commerce, Science, and Transportation. I am Jun Jiao, Assistant 
Professor of Physics at Portland State University. I have been working 
in the field of nanotechnology for more than 10 years and have made 
significant research advances in this area. My original contributions 
in the area of nanomaterials growth and characterizations have been 
documented in more than 60 publications. My carbon nanotube work has 
been granted patent protection. In 1993, I was selected as a 
Presidential Scholar of the Microscopy Society of America. I serve as 
co-director of the Center for Nanoscience and Nanotechnology, and 
director of the Electron Microscopy and Microanalysis Facility both at 
Portland State University. I have received funding from the National 
Science Foundation, Petroleum Research Foundation, FEI Company, and 
Intel Corporation for research including the development of 
nanofabrication techniques for nanotubes and nanowires and the 
investigation of carbon nanotubes and semiconductor nanowires as the 
new generation of electron emitters.
    I am pleased to appear before you today to discuss nanotechnology 
and S. 189. I want to thank Senator Wyden and Members of the Committee 
for introducing this landmark legislation. There is great excitement 
about nanotechnology on college campuses and before I could confirm 
that I would appear today, I asked my students if they would give me 
their permission to reschedule a class that meets today. They said 
yes--because they wanted to make sure I told you how important this 
legislation is to their future. They are excited about the 
possibilities S. 189 presents and want you to know that they stand 
ready and willing to be a part of this important national initiative.
Portland State University's Center for Nanoscience and Nanotechnology 
        is Key to Oregon's Economy
    Portland State University, Oregon's only urban university, located 
in the heart of the silicon forest and Oregon's largest economic 
center, has made a commitment to building a world-class program in 
nanotechnology. Portland State University has formed an 
interdisciplinary research center on nanoscience and nanotechnology. 
The Center involves faculty from Physics, Chemistry, Geology, Biology, 
Engineering, and Environmental Science. Funding and equipment for the 
Center has come from the University, industry partners, government, and 
private foundations. The support PSU has received has allowed it to 
establish a first class, state-of-the-art electron microscopy and 
microanalysis facility including an ultra highresolution transmission 
electron microscope equipped with various analytical capabilities and a 
high-resolution scanning electron microscope capable of nano-
characterization and electron beam lithography nano-fabrication. Both 
microscopes were made by the FEI Company, which is located in 
Hillsboro, OR. Portland State University is the only educational 
institution in the Pacific Northwest having such comprehensive 
nanostructural characterization and nanofabrication capabilities. This 
enables researchers to study the materials' properties at the atomic 
level and to create novel materials as well as nano-devices.
    Portland State University has made a tremendous commitment to this 
area of research in part because it is essential not only to the future 
of the economy of the Pacific Northwest but to the global economy. The 
University faculty's research in the areas of carbon nanotubes, quantum 
dots, ultra high-resolution near-field microscopy, bio-physics, nano-
imprinting, and fabrication of nano-devices is strong and carries 
national and international reputation. Many faculty research groups 
have engaged in collaborative research endeavors with local high tech 
industries such as Intel Corporation, FEI Company, LSI Logic, and 
Boeing Company, to mention just a few.
    Academic and industrial research teams know that joint academic-
industry partnerships on nanotechnology will make our economy stronger. 
Nanotechnology as currently practiced by scientists and engineers in 
the academic sector is not just an exercise in pursuing sophisticated 
science, it will have a significant impact on industry and society as a 
whole. The research in these areas allows us to characterize and 
structure new materials with precision at the level of atoms and to 
have unprecedented control of their electronic, magnetic, optical, and 
thermal properties--in fact, any property that we want to enhance. 
Consequently, the resulting nanomaterials have stronger, lighter, and 
better quality than conventional materials. This will have innumerable 
beneficial effects on our lives in the future--from safer airplanes and 
cars to low-power consumption and higher application efficiency of 
miniaturized electronic products, such as cell phones, computers, and 
other instruments.
    Additionally, Portland State University is part of a collaborative 
request to the Oregon State Legislature by the Oregon University System 
to support a signature research center in multiscale materials and 
devices development. This proposal involves Oregon State University, 
the University of Oregon, the Oregon Health and Science University, and 
Portland State University. It has received favorable support from 
Oregon's Governor and key legislative committees and is awaiting final 
approval and funding.
    All of this demonstrates that Portland State University and Oregon 
recognize that the impact nanotechnology currently has on new and 
existing industries is significant, but the potential for the future 
will be even greater. Therefore, significant investment in research and 
development in nanotechnology is essential and especially needed in the 
academic sector.
Nanoscale Research is the Foundation for the Next Generation of New 
        Scientific Discoveries and Engineering Developments
    Nanotechnology is concerned with materials and systems whose 
structures and components show significantly improved physical, 
chemical and biological properties because of their nanoscale size. 
Structural features in the range of a nanometer dimension, which is 
10,000 times smaller than the diameter of a human hair, exhibit 
remarkable novel phenomena as compared to the behavior of bulk 
materials. We can exploit the novel properties and phenomena of nano-
based entities as we learn to manipulate structures and devices at the 
atomic, molecular and supramolecular levels, and as we develop 
techniques to efficiently manufacture and use them. Important changes 
in their behavior are caused not only by the order of magnitude size 
reduction, but also by new phenomena such as size confinement, 
predominance of interfacial interaction, and quantum effects. Such new 
forms of materials and devices herald a revolutionary age for science 
and technology provided that we can discover and fully utilize the 
underlying principles.
    As a materials scientist, my research focus is on the development 
of carbon nanotubes and nanowires as new generation of electron field 
emitters as well as building blocks for nanoelectronic devices. As 
individual nanoscale molecules, carbon nanotubes are unique. They have 
been shown to be true molecular wires, and have already been assembled 
into the first single- molecule transistor ever built. In the future, 
we will see our current silicon-based microelectronics supplanted by a 
carbon-based nanoelectronics of vastly greater power and scope. I have 
developed strong partnerships with local high tech companies such as 
Intel, FEI Company, and LSI Logic because of their interest in the 
research developments in these areas. Some midsize and small size 
companies are initiating active conversations with Portland State 
University's Center for Nanoscience and Nanotechnology and exploring 
partnerships with us for some specific nanotechnology investigations. 
Portland State University's President Daniel Bernstine has made 
business development and job creation a key element in our mission. The 
University is a hub for faculty expertise, specialized facilities, and 
highly-talented students who become leaders in the workforce.
    I believe that current estimates suggesting that nanotechnology 
will have a one trillion dollar impact on the global economy throughout 
this century are reasonable. I have tremendous excitement about the 
possibilities of discoveries and innovations that can happen. For 
example, existing industries including those not typically 
characterized as ``high tech'', will see their product lines and the 
way they manufacture influenced by our growing capabilities in 
nanotechnology. Moreover, aspects of nanotechnology will help small 
companies whose products are developed for niche markets including 
sensors, bio- and chemical-analytical devices and chemical ingredients 
expand. These small businesses are not likely to require the multi-
billion dollar investments that `chip' manufacturers must face in re-
tooling their plants to the new advances in technology. The progress 
will be even more rapid as the relative risk from investing in 
nanotechnology becomes lower. I want to emphasize that the research now 
being done in nanotechnology is producing exciting results, but the 
cost of production of innovations is beyond the reach of today's 
consumers. Therefore, research has to be done to optimize those 
processes.
The 21st Century Nanotechnology Research and Development Act Will 
        Ensure That the Nation's Work in This Area is Funded, 
        Coordinated, and Focused.
    As an active researcher in the area of nanotechnology, I am very 
pleased by the findings, goals, and programs outlined in the ``21st 
Century Nanotechnology Research and Development Act.'' This Act will 
enable our nation to establish a comprehensive, intelligently 
coordinated program for addressing the full spectrum of challenges 
confronting a successful national science and technology effort. In 
particular, those related to funding, coordination, infrastructure 
development, technology transfer, and social issues. Currently the 
funding available through government agencies and private foundations 
and companies is limited. As a scientist who has received significant 
support for my work, I know that funding from federal programs is 
highly competitive. At the same time, researchers in this area are 
compelled to present proposals that are by their nature high-risk--but 
have the potential for high-gains. The result is that few proposals are 
funded, thereby limiting the work that can be done in universities 
throughout America. S. 189 will ensure that U.S. scientists receive 
reasonable funding for research to compete with their Asian and 
European counterparts, which have been strongly supported by their 
nations both financially and politically.
    I want to address two specific issues emphasized in the Act. First, 
S. 189 supports long-term nanoscale research and development leading to 
potential breakthroughs in areas such as materials and manufacturing, 
nanoelectronics, medicine and healthcare, environment, energy, 
chemicals, biotechnology, agriculture, information technology, and 
national and homeland security. I support this approach because 
nanotechnology offers great promise in diverse fields and cannot 
advance without federal support. The foundation of knowledge in this 
area is incomplete, and significant fundamental research is needed. 
Particularly, in the current competitive and economically-challenged 
climate, private sector investment will fall far short of what is 
needed. Therefore, a strong federal role will be necessary for the 
field to realize its full potential. Also, history has shown us that 
each of the critical breakthroughs in science and technology has been 
based on years of sustained federal funding for research. The 
breakthroughs funded by the federal government are the foundation that 
enables subsequent efforts by the business sector to translate that 
research into products for the marketplace. Without the Federal 
Government underwriting the long-term funding, there will be fewer 
breakthroughs to translate into products and economic prosperity.
    The Act also requires the Director of the National Science 
Foundation to collect data about the growth of the workforce that is 
anticipated as a result of expanded research in nanotechnology. This 
initiative will provide important information to workforce policy 
planners about the investment of key economic development and job 
training funding. I want to speak to this issue because I believe that 
nanotechnology has strong implications for high-wage jobs and will pay 
big dividends to communities that make this area of research and 
development a priority. By this I mean, we need to provide professional 
development and continuing education for those already working in this 
field, and make it a priority area of education for tomorrow's 
workforce. Among three classes I teach each year, two of them are 
concerning transmission electron microscopy and scanning electron 
microscopy of nanomaterials. These classes attract students not only 
from our campus but also from local industry. The classes are full each 
time they are offered. Most importantly, through these classes as well 
as the hands-on laboratory experience, students are able to learn 
state-of-the-art materials characterization skills and are actively 
involved in the latest nanomaterials research. The students who are 
already working in the field leave the class prepared to tackle more 
challenging technical jobs.
A Federal Investment in Interdisciplinary Research Centers Will 
        Leverage Local, State, and Industry Support
    S. 189 authorizes $50,000,000 for Interdisciplinary Research 
Centers and provides grants of up to $5,000,000 to support 
geographically diverse centers that support the initiative priorities 
including those addressing the fundamental research, grand challenges, 
education, development and utilization of specific research tools, and 
promoting partnerships with industry identified in the legislation. 
These are exactly the missions that the Center for Nanoscience and 
Nanotechnology at Portland State University is pursuing. It is our 
long-term goal to secure additional federal funds and attract 
foundation and private contributions to expand the work we are doing 
and to build an internationally recognized multidisciplinary 
nanoscience and nanotechnology research center.
    Additional support from the Federal Government for research in this 
area will help programs like mine, and those around the country, lead 
the way for innovations and discoveries. I support the calls for 
interdisciplinary work and collaboration outlined in the legislation 
because most of today's challenging problems in science and engineering 
are complex and will not be solved by investigators working within the 
borders of their own chosen fields. That is the philosophy that guides 
the work we do at Portland State University. Federal funding for 
nanotechnology will assist important interdisciplinary research efforts 
which may lead to curing cancer and AIDS, reducing reliance on fossil 
fuels, or building the next-generation of sensors to help safeguard our 
homeland.
S. 189 is Legislation That Will Resonate With Young People Today--
        Tomorrow's Scientists and Engineers Know That Investment in 
        Nanoscale Research is Key to Our Nation's Future
    My research laboratory is one of the areas of excellence at 
Portland State University. As a result, I host many visiting 
dignitaries to campus who are interested in learning about ways the 
University is addressing the workforce and research needs of the 
future. Many of those visiting truly understand the research area. 
Others don't understand the specifics of the work we do, but have 
enthusiasm for its possibilities. For example, they may have grown up 
when the nation focused on the imperative of getting man to the moon. 
Or they have experienced the sophistication and evolution of computers 
from those that took up whole rooms to the pocket personal computer 
they carry. So, people of our generation typically have a general 
appreciation of why this area of research is important.
    I want to assure you though that young people today--those in 
middle school and high school--are truly excited about this area of 
research. Let me give you two examples. In the past several years, I 
have been involved in an outreach program called apprenticeship of 
science and engineering organized by the Saturday Academy of Oregon. 
This program aims at promoting high school students to pursue higher 
education in science and engineering. Each summer, I host one or two 
high school students selected among the high schools in Oregon and 
Washington to work with me on my nanomaterials research. For one 
position there are usually more than 40 applicants. In reading their 
application essays, I was amazed by the depth of the knowledge that 
young people have about nanotechnology. I was touched by their strong 
desire to participate in nanomaterials research. In my spare time, I 
also serve as a judge for the Intel Northwest Science Expo. This is an 
annual event designed to encourage middle and high school students to 
apply their interest in science and engineering to real world 
innovations. Each year, more than 500 students from Oregon and 
Washington participate in this event. The students present their own 
research at this event and every year I am encouraged by these young 
people who I know will become great scientists. These students are 
excited about nanotechnology, however we need an imperative such as S. 
189 to ensure that our scientists of the future will have a firm 
training ground with consistent financial support.
    In closing, I would like to thank the Committee for the invitation 
to testify today. It is an honor to be asked to participate in this 
crucial national discussion. My colleagues and I strongly believe that 
nanotechnology will lead to a new and improved technological 
revolution. S. 189 is the commitment we need to continue American 
leadership and innovation in the latest technological frontier. I urge 
the Committee to pass this bill.

    Senator Allen. Thank you, Dr. Jiao, for your enthusiastic 
testimony. I can see why your students enjoy your courses.
    Now we'd like to hear from Dr. Kent Murphy, from 
Blacksburg, Virginia Tech, Hokie country.
    Dr. Murphy?

     STATEMENT OF KENT A. MURPHY, Ph.D., FOUNDER AND CEO, 
                        LUNA INNOVATIONS

    Dr. Murphy. Thank you very much. Thank you, again, for the 
invitation to speak today, Chairman Allen.
    Again, my name is Kent Murphy. I'm the founder and CEO of 
Luna Innovations, a research and development company located in 
Blacksburg, Virginia. We are a leader in nanotechnology 
production. We produce the largest, most pure quantities of 
carbon nano-based materials that there are; but, more broadly, 
we are a company that is specialized in technology transfer, 
bringing research to products.
    We have been a recipient of several NIST ATP awards, 
several SBIR programs, and have been able to utilize that to 
grow Luna to a little more than 200 employees at this point in 
a rural area in Southwest Virginia. And for that, we'd like to 
say thank you.
    Two major points that I hope to bring to your attention 
today. One is the importance of commercializing work at the 
university and government labs; and, two, the crucial role 
nanotechnology will play in our future.
    The investments our country has made in the past 50 years 
in our university and government-research labs has created an 
enormous potential. I was very fortunate in the seventies to 
work for a multibillion-dollar corporation with a team of 
people who focused on basic research, bringing research to 
products and handing it over to production crews. Later on, I 
accepted a position at Virginia Tech as a professor, worked 
there for 9 years. I was very excited to be in the university 
environment, but, after a few years of that, began to realize 
there was an enormous amount of potential--many, many 
inventions, many publications, many opportunities and important 
technologies that were just left on the shelf. I took a leave 
of absence from my position at Virginia Tech, started Luna 
Innovations, and we began to try to transfer that technology 
out and, hopefully, create jobs from that.
    Our future economic growth in this country is going to be 
led by collaborative research, development, and 
commercialization efforts across universities, government labs, 
and corporations, both large and small. Large corporations have 
continued to cut back on their R&D budgets, based on quarterly 
earnings requirements. They're looking more and more towards 
small companies for those innovations, and we hope to provide 
that.
    We must recognize the importance of these strategic 
alliances and continue to find ways to improve the efficient 
use of these national resources that we've created at our 
universities and government labs. The Bayh-Dole Act has been a 
great start, but we need to continue to do more.
    As we've heard today from many speakers, every facet of 
human life will be touched by advances in nanomaterial 
development. We've heard many different areas in medical, 
homeland defense, power generation and distribution, 
telecommunications, transportation, and things that we've never 
dreamed. Luna strongly believes this proposed legislation will 
help secure our country's position as a leader in 
nanotechnology by funding this basic research and also the 
technology-transfer programs required to make them a reality. 
With this funding, we'll also be able to move the discoveries 
of our greatest researchers to the marketplace and create high-
quality jobs in the U.S. more rapidly.
    Nanotechnology, as we've heard, is not a specific 
technology or discipline. Instead, it's a broad term used to 
define work conducted on the nanometer scale. True 
breakthroughs are often just accidental discoveries that happen 
when basic research has been funded, as Senator Sununu pointed 
out, but the majority of the progress towards problem solving 
is usually incremental work done on a collaborative effort 
across many different fields of expertise.
    We have listed, in the written testimony, many different 
applications that we, personally, are working on and others, 
and I'd like you to try to imagine the different areas of 
scientific and business expertise that will be required to 
bring some of the products from the laboratory to the consumer 
in a timely fashion.
    We are currently working on radio-pharmaceuticals, with 
cell targeting, that will deliver therapies directly to a 
cancer cell. They are carbon nanocages filled with radioactive 
materials functionalized with ligands that are searching out a 
particular cancer cell. Just in that alone, we need chemists, 
materials scientists, manufacturing experts to be able to 
manufacture these in large quantities, biologists, 
radiologists, oncologists, toxicologists, long lists, it goes 
on and on, of the experts that will be required to bring these 
products to a reality.
    Again, Luna Innovations' business model is to license 
patents, we've licensed dozens of patents from universities in 
the U.S. and government labs and created a wide variety of 
products. We've currently licensed patents from Drs. Dorn and 
Stevenson, of Virginia Tech, who discovered a way to put 
materials inside of a buckyball.
    The fellow that discovered the buckyball and won the Nobel 
Prize actually wrote an article just last year and said--the 
title of the article was, ``Why, After 18 Years, Is Bucky Still 
Out of a Job?'' Well, it was basically because the carbon cage 
doesn't interact with much. We've figured out a way to put 
things inside those cages and make products that will increase 
contrast agents for MRI scans, to diagnose disease, and other 
things
    I'd like to point out also that Virginia is a leader in 
collaborative nanotechnology research and development, with the 
CIT and the Secretary of Technology, the first of their kind in 
the country, also, INanoVA and VRTAC, who have also testified 
here before, and point out that the Federal Government must 
take a leadership role in funding these nanotechnology research 
and coordination efforts, and also point out that the economic 
success of our Nation is at stake. We must remain in a 
leadership position. And this legislation is necessary for the 
United States to ensure our future health and well-being and 
safety in this rapidly advancing global economy.
    And, again, thank you for the opportunity to speak.
    [The prepared statement of Dr. Murphy follows:]

     Prepared Statement of Kent A. Murphy, Ph.D., Founder and CEO, 
                            Luna Innovations
    Mr. Chairman, and Members of the Committee, thank you for the 
opportunity to testify today regarding the 21st Century Nanotechnology 
Research and Development Act. I am the Founder and CEO of Luna 
Innovations, a research and development company located in Blacksburg, 
Virginia. I also serve on Governor Warner's Virginia Research and 
Technology Advisory Commission.
    Luna Innovations is an industrial leader in the area of 
nanotechnology, and technology transfer. I would like to recognize the 
support of the Virginia congressional delegation, especially Senator 
Allen, the Commonwealth of Virginia, the Advanced Technology Program at 
NIST, and Small Business Innovative Research (SBIR) programs from 
multiple agencies for helping Luna to achieve the level of success we 
have in our rural location in southwestern Virginia. It is these 
agencies that will benefit greatly from this legislation, giving them 
the ability to propel our country's leading researchers in 
nanomaterial-related science and applications to great discoveries.
    There are two major points I hope to make clear today, 1) the 
importance of our investments in university and government labs and 
moving their ideas into the commercial sector, and 2) the importance 
nanotechnology will play in our future.
    Future economic growth around the globe will be led by 
collaborative research, development and commercialization efforts 
across university, government labs and industry both large and small. 
Investment in university and government research labs has placed the 
United States in a global leadership position in science and 
technology. We must recognize the importance of these strategic 
alliances and maximize the enormous investments made in our university 
and government labs by bringing their intellectual properties to the 
marketplace in the most efficient way possible. The Bayh-Dole Act has 
been a great start, and the work to facilitate technology transfer must 
continue to improve to utilize one of the greatest assets of our 
country.
    Every facet of human life will be touched by advances in 
nanomaterial development. These areas include medical, homeland 
security, power generation and distribution, telecommunications, 
transportation and applications never before conceived. To realize this 
potential, this country must improve the transfer of technology from 
our universities and federal laboratories to the commercial world. Our 
internal threat is not transferring great discoveries made in the U.S. 
from the laboratory to commercial products. These discoveries are far 
too important to leave on the shelf. And, we must do it now to protect 
our competitive advantage from external threats, as other countries 
continue to make even larger investments in nanotechnology.
    Luna strongly believes this proposed legislation will help secure 
the country's position as a leader in the nanotechnology field. By 
funding basic research, and technology transfer programs we will move 
the results of our nation's greatest researchers in nanotechnology to 
the market place creating higher quality jobs here in the U.S.
    While there may be revolutionary discoveries in the nanomaterial 
world, it is most likely to be evolutionary progress that requires 
extensive collaborative efforts working over extended periods of time 
to truly utilize the capabilities of nanotechnology to address the 
problems of the world.
    Nanotechnology is not any specific technology or discipline; 
instead it is a broad term used to define work conducted on the 
nanometer scale. True breakthroughs are often accidental discoveries 
while the majority of progress towards problem solving is incremental 
work done in a collaborative effort across many different fields of 
expertise. Try to imagine the different areas of scientific and 
business expertise that will be required to bring the following 
products from laboratory to consumer in a timely fashion:

    Health

 <bullet>   Radio-pharmaceuticals which allow never before seen cell 
        targeting giving ``magic bullets'' for cancer therapy,

 <bullet>   Less toxic photo-therapy agents for advanced cancer 
        treatment,

 <bullet>   Contrast media for greatly enhanced diagnostic imaging,

 <bullet>   Super sensitive detection systems for drug discovery tools, 
        reducing time to market and costs of drugs,

    Homeland Defense

 <bullet>   Nanotube-based sensing devices allowing single molecule/
        cell detection of chemical/biological warfare agents,

 <bullet>   Lightweight, durable protective materials for soldiers, and 
        military vehicles,

    Power Generation and Distribution

 <bullet>   Next-generation fuel cells with improved efficiencies for 
        household, and handheld devices use,

 <bullet>   Solar cell improvements with increased efficiency,

    Communication and Computing

 <bullet>   Quantum computing for future generation systems that 
        calculate on a neverrealized- scale for defense systems,

 <bullet>   Molecular electronics for next-generation computing; single 
        molecule transistors and storage devices,

 <bullet>   Optical devices using nano-structured materials for higher 
        rate communications,

    Transportation

 <bullet>   Superconducting compounds for higher strength magnets for 
        transportation and medical imaging,

 <bullet>   Fuel cell improvements and safe hydrogen storage for 
        automobiles,

 <bullet>   Catalysts for higher- efficiency, cleaner-burning, fossil-
        fueled engines, and

    Other Applications

 <bullet>   Exotic teflon-like nanomaterials which provide a new class 
        of lubricants for today's applications and tomorrow's nano and 
        micro machinery.

    Luna Innovations has recognized the enormous value of discoveries 
made at our research institutions and is continually improving the 
technology transfer process to move these innovative ideas from the 
laboratory setting to the marketplace. Through this business model, 
Luna has licensed valuable patents from universities, government labs 
and large industries and has created competitive products in 
telecommunication, power generation and distribution, transportation, 
manufacturing, and pharmaceutical industries. Luna currently has a 
significant focus on several nanomaterial-related technologies and 
applications. For example, Luna has licensed patents and transferred 
intellectual property from a major discovery made by Dr.'s Dorn and 
Stevenson both at Virginia Tech, and are beginning to produce revenues 
from sales of these novel nanomaterials.
    Virginia is a leader in this country in collaborative 
nanotechnology research and development. Virginia is one of the first 
states to establish a state-wide technology organization, the Center 
for Innovative Technology (CIT), focusing on the support of 
collaborative efforts and the creation of high-tech jobs. Also, 
Virginia was the first state to create the position of Secretary of 
Technology directly reporting to the Governor in order to enhance the 
climate for technology within the Commonwealth. Other Virginia 
organizations, such as INanoVA and VRTAC, complement this 
infrastructure allowing nanotechnology-specific communication to the 
upper levels of the state government.
    The Federal Government must take the leadership role in funding 
nanotechnology research and the coordination of technology transfer for 
our nation. The creation of a National Nanotechnology Coordinating 
office and National Nanotechnology Advisory Panel, under the proposed 
legislation, will facilitate collaboration between federal and state 
government agencies, research universities and industry.
    The 21st Century Nanotechnology Research and Development Act, with 
new vision and leadership, will ensure the U.S. a leading position for 
growth in the nanotechnology sector, thus creating high quality jobs, 
increasing the tax base, while solving significant problems in our 
society. It will allow us to not loose ground to foreign competition 
seeking to overtake our current advantage. The economic success of our 
nation is at stake. We must remain in the leadership position. This 
legislation is necessary for the United States, to ensure our future 
health, well being and safety in this rapidly advancing global economy.
    Again, I would like to thank Senator Allen and the Committee for 
this opportunity to address you today.

    Senator Allen. Thank you, Dr. Murphy, for your very 
positive and cogent information and testimony.
    Now we'd like to hear from Mr. Von Ehr.

    STATEMENT OF JAMES R. VON EHR II, CEO, ZYVEX CORPORATION

    Mr. Von Ehr. Well, thank you, Chairman Allen and Senator 
Wyden.
    I'm the Chief Executive Officer of Zyvex Corporation. I 
started Zyvex in 1997 to develop molecular and nanotechnology 
and revolutionize the quality and economics of how we make 
physical goods. We currently offer products in the area of 
tools and materials, and we're working on nanomanufacturing 
systems.
    I commend you for your leadership on this important 
legislation. It's leaders like Senator Allen and Wyden who make 
a difference by meeting with and listening to leading 
nanotechnology small businesses.
    Thanks to my previous business success, I've been able to 
generously fund Zyvex myself. Today, we employ over 50 people, 
and we're one of the few nanotechnology companies generating 
revenue. I've also given nearly $4 million of my own money to a 
number of universities to help them enter this field. With that 
experience, I'd like to comment on technology transfer and 
commercialization, the two most important aspects of this 
legislation.
    Senators Allen and Wyden know this is an important time for 
nanotechnology. Actions taken today will decide who, 30 years 
from now, will be the leader in science, manufacturing, and 
technology. Will it be the United States or another country?
    The current bill calls for an advisory panel of scientists 
from academia and government. The voice of business is missing, 
and I'm really concerned about that. We need a business focus 
to ensure that the research we develop is commercialized in the 
United States. Therefore, I strongly recommend that 
representatives from both large and small businesses be 
included on the advisory panel. Without a commercialization 
focus, other nations may surpass us, become a dominant force in 
the global economy. Specific technology, such as the 
nanomanufacturing system, could be disastrous from the 
standpoint of national defense and economic competitiveness if 
it was in the hands of another nation.
    I used to oppose any government funding for any industry; 
however, our private sector has now gone global, and it can 
invest anywhere. It's reasonable for the government to 
encourage economic competitiveness for national security 
reasons. And while I worry about the industrial policy 
implications of that, I worry even more about losing 
nanotechnology to nations able to invest for periods longer 
than 2 or 3 years.
    Today, it's very difficult for small technology businesses 
to secure acceptable funding; however, small businesses employ 
39 percent of high-tech workers and are responsible for 45 
percent of the jobs in our nation. Small businesses also 
produce 13 to 14 times more patents per employee than large 
firms. High-tech private-sector jobs benefit the economy with a 
return of over $3 for every dollar invested in research.
    The NIST Advanced Technology Program has been instrumental 
to Zyvex in overcoming this funding gap. It helps fund high-
risk, high-reward projects and evaluates commercialization 
plans just like a venture capitalist would. An ATP award often 
requires cost sharing by the company, including ours. Thanks to 
our ATP, the impact of our nanomanufacturing effort will allow 
our nation to regain strength in manufacturing and bring jobs 
back to the U.S.
    I think the NIST ATP should take on an even larger role, 
similar to the role of the NSF, by commercializing 
nanotechnology research. It could be elevated to an office 
within the Technology Administration in the Commerce 
Department. More nanotechnology dollars allocated to the NIST 
ATP and the SBIR program would accelerate the innovation and 
commercialization of nanotechnology.
    As Senator Allen pointed out, 3 years ago I founded the 
Texas Nanotechnology Initiative to create a nanotechnology 
cluster. That has become a model for similar regional 
initiatives. It's important. Good jobs are at stake in this 
field. I really think it's our duty, as Americans, to assure 
these jobs stay in the United States.
    The National Nanotechnology Initiative defines nine grand 
challenges. But what if we had one or two that the American 
public could embrace, where government, universities, and 
industry worked together? These could address serious problems 
for our Nation, such as how the United States can regain our 
position as the world leader in manufacturing or how we can 
reduce our dependence on imported energy. In fact, with a major 
nanoenergy program, we would reduce our dependence on fossil 
fuel by over 50 percent over the next 15 to 20 years. The 
economic benefit would be hundreds of billions of dollars per 
year. And nanomanufacturing could be part of the solution to 
both these problems.
    Now, much vision and foresight are at the core of this 
legislation, yet long-term fundamental research alone will not 
guarantee leadership in nanotechnology. It requires a balance 
of fundamental and applied research, support for our regional 
initiatives, a constant voice from industry, and a competitive 
process for awarding federal dollars. So I, once again, applaud 
your vision and foresight to ensure that the United States is 
the nation that brings this powerful technology to the world. 
The legacy you leave now will be remembered by future 
generations. Mr. Chairman, Senator Wyden, I thank you for your 
kind attention, and I appreciate being here.
    [The prepared statement of Mr. Von Ehr follows:]

   Prepared Statement of James R. Von Ehr II, CEO, Zyvex Corporation
                              Introduction
    Thank you, Mr. Chairman and Members of this distinguished Committee 
for allowing me to address you on S. 189. I am Jim Von Ehr, Chief 
Executive Officer of Zyvex Corporation. I started Zyvex to develop 
molecular nanotechnology and revolutionize how we make physical goods. 
Today, we offer the promises of nanotechnology to our nation through 
tools, materials, and nanomanufacturing. As the founder of one of the 
first nanotechnology businesses, I am honored to share my unique 
perspective.
    First, I commend you for your leadership on this important 
legislation. It is leaders like United States Senator George Allen who 
make a difference by taking the time to really understand the issues 
and ensure the success of our nation by meeting with and listening to 
leading nanotechnology small businesses.
    Senator Allen, and other Members of this Committee know that we are 
at a pivotal moment that will decide whether thirty years from now, it 
will be the United States or another country that will be a world 
leader in science, manufacturing, and technology. S. 189 shows that our 
nation's leaders understand the benefits of nanotechnology and the need 
to educate more scientists and engineers. However, it is also vital 
that we more effectively commercialize university research. 
International competitors are aggressively developing their own 
nanotechnology industry, quite often based on discoveries first made in 
our own university labs here in the United States. We want a healthy 
manufacturing sector in the United States to assure good jobs for these 
newly educated technologists.
    Thanks to my previous, significant business success, I've been able 
to generously fund Zyvex myself. Today, we employ over 50 people and 
are one of the few nanotechnology companies with revenue. I've also 
given nearly $4M of my own money to a number of universities to help 
them enter this field. With this experience, I feel entitled to comment 
on technology transfer and commercialization--the two most important 
aspects of this legislation.
    As my friend, Nobel Laureate, Professor Rick Smalley says, 
``Nanotechnology is the art and science of building stuff that does 
stuff on the nanometer scale. The ultimate nanotechnology builds at the 
ultimate level of finesse--one atom at a time--and does it with 
molecular perfection.'' I started Zyvex seven years ago to 
commercialize that level of control and perfection.
    The current Bill calls for an Advisory Panel staffed by academic 
and government scientists. The voice of business is missing, and I'm 
concerned about that. As you know, our nation's record of 
commercializing research from universities and government labs is good 
in the biosciences, but disappointing in most other areas.
    The National Nanotechnology Initiative is inspiring competitive 
programs worldwide. The societal benefits of the NNI will come in the 
form of products. The role of business is to develop and sell products 
in a capital-efficient manner. We must have a business focus to ensure 
that the research we develop is commercialized in the United States. 
Therefore, I strongly recommend that representatives from both large 
and small businesses be included on the Advisory Panel.
                              Competition
    Competition is a key reason U.S. business is the most competitive 
in the world. Competition is also important to science. Peer review is 
a powerful approach to filtering out junk science, but it also can 
filter out novel ideas from young researchers. We need ways to 
differentiate scientifically crazy ideas like building time machines 
from delightfully wild ideas like sequencing the human genome in three 
years. Of course, when Craig Venter decided that such a sequencing 
timetable was achievable, it probably would not have passed muster with 
a conservative peer review committee. He properly framed the issue as a 
business problem--not a scientific problem--and solved it.
    Our most competitive industries are also our least regulated--
semiconductors, personal computers, software, and the Internet, to name 
just a few. S. 189 has a light regulatory touch, and I urge you to 
follow the example of the Internet, and avoid premature regulation 
while the industry develops. There will be pressures from the usual 
anti-technology voices to ban or limit nanotechnology, but we should 
continue on the path of progress that has always been our nation's 
strength.
    We also need to inject private sector competition into our 
nanotechnology program. The current Bill calls for significant funding 
for government labs to build new user facilities. Providing shared 
access to exotic equipment is a smart way to stretch funds and 
accelerate overall development. These facilities will not be available 
for at least five years. This is too long to wait in this dynamic 
field. Awarding competitive contracts or grants to the private sector 
to upgrade and reopen surplus or shuttered facilities could achieve 
faster deployment at a lower cost.
                          Barriers to Industry
Applied Research
    While fundamental long-term research is a vital component of this 
legislation, nowhere is there a mention of the importance of funding 
applied research. I urge this Committee to consider this issue very 
carefully. Without a commercialization focus, other nations may surpass 
us and become a dominant force in the global economy. Specific 
technology, such as a molecularly precise nanomanufacturing system, in 
the hands of another nation would be disastrous from the standpoint of 
national defense and economic competitiveness.
Technology Transfer
    The technology transfer programs at our nation's leading 
universities have produced dismal results. The barriers for small and 
large industry to commercialize this ``long-term'' research performed 
under federal dollars have brought very little economic benefit to the 
American Public. Stan Williams of Hewlett Packard has addressed this 
issue in previous testimony, so I won't belabor the point.
Funding
    I used to oppose any government funding for any industry. The 
private sector is the most efficient way to make investment decisions. 
However, our private sector has gone global and can invest anywhere. 
The short-term economic decisions that make sense for a particular 
company might not be the best long-term decisions for our country. 
Perhaps it is reasonable for the government to encourage economic 
competitiveness for national security reasons. While I worry about the 
``industrial policy'' implications, I worry even more about losing 
nanotechnology to nations able to invest for periods longer than two to 
three years. Nothing makes this point clearer to me than a recent trip 
to Taiwan where I witnessed, ITRI, a government/industry partnership 
staffed with 6,000 researchers developing an advanced technology base 
and focused on industrial competitiveness.
    Funding is vital for any enterprise. Private equity funding today 
is short-term oriented. Taking research from the lab into the 
marketplace is a long-term endeavor. The gap between lab and market 
leads to the ``valley of death'' funding crisis--it is rare to find 
investors willing to take the risk of an investment lasting five years 
or more.
    Today, it is more difficult for small technology businesses to 
secure acceptable funding. Small businesses employ 39-percent of high 
tech workers and are responsible for 45-percent of the jobs in our 
nation. Small business produce 13-14 times more patents per employee 
than large firms. These patents are also twice as likely to be among 
the 1-percent most cited.\1\
---------------------------------------------------------------------------
    \1\ Small Business Administration's Office of Advocacy
---------------------------------------------------------------------------
    The Commerce Department has the NIST Advanced Technology Program, 
which has been instrumental to Zyvex in overcoming this funding gap. It 
helps fund high-risk, high-reward projects, evaluating 
commercialization plans as a venture capitalist would. The NIST-ATP 
program requires, in many cases, including ours, cost sharing by the 
company. The ATP helps put small companies on a more even research and 
development footing with large companies. The program wisely recognizes 
that small businesses are unable to afford the kind of R&D of an IBM or 
Lucent, yet are responsible for a majority of our nation's innovations 
and technical advancements.
    Thanks to our ATP, we will have hired fifteen new employees in 
2003; we also support researchers at two universities in Texas and one 
university in New York. We are developing a new manufacturing 
technology that will drive innovation in the silicon micromachine 
domain. The impact of parallel microassembly on the broader economy 
will be in the billions of dollars and will ultimately create thousands 
of jobs here in America.
    We should consider a nanotechnology initiative with a greater 
balance between university long-term fundamental research and applied 
research and industrial development. The Advanced Technology Program 
should take on a larger role, similar to the role of the NSF. It could 
be elevated to an office within the Technology Administration in the 
Commerce Department. Outside venture capitalists with a longer-term 
viewpoint would help review competitive business plans. The program 
would focus on commercializing nanotechnology research. More 
nanotechnology dollars should be allocated to flow through the SBIR 
program, which will also help accelerate the innovation and 
commercialization of nanotechnology.
                 Components to Our Success as a Nation
Society
    Studying the impact nanotechnology may have on the world is vital, 
and S. 189 addresses this issue head-on. Those of us in the field 
believe that we will be able to manufacture products in a clean, 
environmentally sound manner, and welcome qualified people to review 
our technology.
    Three years ago, I founded the Texas Nanotechnology Initiative, a 
non-profit organization whose goal is to establish Texas as a world 
leader in the discoveries, development, and commercialization of 
nanotechnology. TNI has become a model for the NanoBusiness Alliance 
and other regional initiatives. We want to develop a nanotechnology 
cluster as an economic engine for the region. Good jobs are at stake 
here. While TNI is working to assure many of them are in Texas, it is 
our duty as Americans to do all we can to assure that they are in the 
United States. High tech private sector jobs benefit the economy, with 
a return of $3.32 for every dollar invested in research. \2\ Funding 
and support for these statewide initiatives needs to be addressed in 
the Bill.
---------------------------------------------------------------------------
    \2\ Office of the Texas Comptroller
---------------------------------------------------------------------------
Grand Challenge
    You already know that we have a problem in the number of Americans 
pursuing study in science and engineering. To turn this around, we need 
to get government, universities, and industry to work in partnership to 
achieve the great promises of nanotechnology. This would be a grand 
challenge similar to the ``man on the moon'' challenge. The National 
Nanotechnology Initiative defines nine ``grand challenges,'' but it is 
difficult to focus on nine things with undefined outcomes. What if we 
had one or two grand challenges? And what if these grand challenges 
were to solve serious problems for our nation? Such as how we reduce 
our dependence on imported energy. Or how the United States can regain 
our position as the world leader in manufacturing. Nanomanufacturing 
could be part of the solution to both of these problems.
Energy
    With a major nanoenergy program--on the order of ten to twenty 
billion per year--we could reduce our dependence on fossil fuel by 50-
percent over the next fifteen to twenty years. That would pay benefits 
of several hundred billion per year. It is hard to calculate the 
security benefits of being less dependent on energy imports. The 
nanotechnology that would come out of this program would provide 
multiples of that benefit in all the other areas identified as 
priorities.\3\
---------------------------------------------------------------------------
    \3\ James R. Von Ehr II, ``NanoEnergy Project--Vision 2020.'' 2003. 
Publication Pending. (For a copy, please email <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e18a869384848fa19b98978499cf828e8ccf">[email&#160;protected]</a>)
---------------------------------------------------------------------------
Nanomanufacturing
    Nanotechnology isn't just about making small ``stuff,'' but 
includes interfacing that ``stuff '' to the real world. We must be able 
to manufacture with molecular precision at all length scales--from 
molecular to the size of a jumbo jet. A nanomanufacturing program would 
be complementary to the energy program, and would also result in 
technologies that could be applied to materials, medicine, and 
computing.
Conclusion
    Much vision and foresight is at the core of this legislation. To 
truly ensure the success of our great nation, we must now have the 
courage and perseverance to take such visionary steps. Long-term 
fundamental research alone will not guarantee commercialization of 
nanotechnology. It requires a balance of applied and fundamental 
research, support for our regional initiatives, a constant voice from 
industry, and a competitive process for awarding federal dollars.
    I once again applaud your vision and foresight to ensure that the 
United States is the nation that brings this powerful technology to the 
world. The legacy you leave now will be remembered by all our future 
generations.
    Mr. Chairman and Members of this Committee--thank you for your time 
and for this honor.

    Senator Allen. Thank you very much for all your testimony. 
Senator Wyden and I will have a few questions here.
    I'd like to focus on Dr. Murphy and Mr. Von Ehr, since 
you're in the private sector. You're the ones trying to adopt, 
utilize, and find a marketplace, whether it's the manufacturing 
or your ultimate nanoproducts, whatever they may be. And I was 
seeing yours, Mr. Von Ehr and Dr. Murphy. I've talked in many 
occasions about the precision of medical treatment. And with 
your technologies, you're killing the bad cells, so to speak, 
as opposed to just these shotgun blasts that weaken someone's 
whole body while trying to kill off the bad or non-cancerous--
they're trying it kill off the cancerous cells. And I think 
there's just tremendous opportunities there for better 
application of pharmaceuticals and other aspects.
    What could you all share--and, Dr. Murphy, I'll ask you 
first. Your business model is one that probably is similar to 
other professors or scientists that are in colleges and 
universities, where they're saying, ``Well, for whatever 
reason, things aren't getting out, whatever is being 
developed.'' So you set up your own company and obviously have 
been successful. What is in your business model or what lessons 
can you share with all of us, including--and when I'm talking 
about ``us,'' I'm talking about the government, but for other 
entrepreneurs, other scientists, whether in a university or a 
government, some other sort of government agency function--what 
could we learn from your success, both of you are successes 
here, as to how this can be approached? And I'm not talking 
about the specifics, ``We did this, then we saw so-and-so, and 
then he had us go talk to this lady, and she then said, `Here, 
I have another friend who'll invest,' '' but what are the basic 
principles or lessons that you would see as applicable to 
others who would want to find the commercial applications of 
your research and your nanoscale products?
    Dr. Murphy. In general, one of the things that we've found 
at university settings is there's a lot of tendency towards 
being enamored with the technology rather than the application. 
Finding the end goal, finding a problem that you're going to 
solve, and then coming back and looking at the technologies 
that are being developed--certainly, basic research needs to be 
funded. Those technologies need to be moving forward. But 
someone's got to be in the go-between making sure that 
significant problems are being solved with those basic 
findings.
    And then, just within the university itself, some things 
that I encountered personally there was, in general, a split 
between the university community as to--was this activity 
beneficial or negative for the university trying to 
commercialize technology out of a university and looking into 
how we could possibly change the university culture?
    And I know this is not something that can be legislated, 
but something that can be discussed is the tenure and promotion 
process looks at teaching research and public service. Having 
the universities look towards technology transfer as something 
that they actually measure and pursue would be very, very 
beneficial. A lot of the folks that I ran into at the 
university saw what I was doing as something that tainted the 
university atmosphere, when I believe it actually brings real-
life applications into the classroom.
    Senator Allen. I would think that that would interest 
students, that the research is interesting, all of that is, but 
then the actual application towards a beneficial utilization of 
that would, I think, make it more exciting, more tangible, more 
practical.
    Dr. Murphy. Absolutely.
    Senator Allen. Mr. Von Ehr, you mentioned--both of you all 
mentioned the NIST and ATP grants. What would you say would be 
the keys to it? And you mentioned, insofar as awards are 
concerned, the competitive awards--would you have any 
suggestions as to what the standards of assessment would be? 
Because there's so many people who have so many great ideas, 
and, you know, there's just millions of them, and then you have 
to determine which of these have the greatest potential.
    Mr. Von Ehr. Well, that is the crux of the issue.
    Senator Allen. Well, maybe you could give us some 
standards. Mr. Teague was telling us standards. I do want to 
ask you about standards, but----
    Mr. Von Ehr. Well, if venture capitalists, who are the best 
people at that job----
    Senator Allen. Don't want to invest.
    Mr. Von Ehr.--if they could figure it out, they would all 
be rich and retired now.
    Senator Allen. Right.
    Mr. Von Ehr. The fact that the venture capitalists lost a 
ton of money in the dot-coms and the telecoms----
    Senator Allen. They're a bit skittish these days.
    Mr. Von Ehr. The best people we have are not perfect. But I 
think the benefits of the ATP are vast, in terms of bridging 
the gap, the Valley-of-Death funding between a good idea at a 
university and a product that a customer can buy. And there are 
few VCs that want to step up and invest in something that may 
be a multiple-year payback. Their time horizon got very 
compressed during the Internet days. It's lengthening out 
slowly now; but still, they have been burned so badly, a lot of 
them are risk-averse. And we see that the ATP can help that.
    And in terms of the judgment, I think it's just a matter of 
judgment again. They look at the business plan. They evaluate 
whether there's some credibility the company can pull that off. 
It's very similar to how peer review works for science. You 
know, you look at the scientists, you look at their track 
record, you look at what they've done, and you say, ``Do I 
think they can do it again?''
    Senator Allen. What would you--back to my original 
question; I got you off on that tangent--and all of you all 
may, but particularly Dr. Murphy and Mr. Von Ehr. Dr. Teague 
mentioned the need for control of processes. And I forgot which 
one of you all brought up polymers and so forth. And, you know, 
there's standardization of processes for that reliability, 
credibility, certification, so to speak. And having listened to 
you, Dr. Murphy, and learned about what Luna is doing and 
seeing what Zyvex is doing, as well, with the nanotubes, and 
actually seeing it on some of the amazing microscopes--they're 
more than microscopes, but, at any rate, on the nanotubes and 
the different ways those are processed--and there are, there's 
all those variables to it--would you agree with what Dr. Teague 
was saying, that there needs to be a standard or a control of 
processes--and I hate limits or controls; those are words 
that's very hard for me to say in a positive way--I'm just 
saying, you know, standards, standards of quality, so to speak, 
of your processes, do you all share that concern? Because I 
think that does matter in the commercialization, the 
reliability, and people worrying about liability, if certain 
nanoproducts might not uniformly meet a standard of 
performance.
    Mr. Von Ehr. Certainly, we are dying to start working on 
the process and make sure it's a good process. But, frankly, a 
lot of nanotechnology now is still in the early stages, and 
it's hard to put process control into something that has been 
demonstrated in the lab in milligram quantities or maybe with 
one experiment. So I'd say the technology has a little further 
to come, in our case, we're working with nanotubes and polymer 
mixtures, and the nanotube process development is not nearly as 
far along as Luna Innovations' process is.
    We certainly are going to have to put process controls in 
place when we get a process to control.
    Senator Allen. Understood. It's still very early.
    Dr. Murphy?
    Dr. Murphy. We're very fortunate at Luna to have a product 
that is an extremely unique molecule and lends itself towards 
better process control. So, again, we're able to make things 
that are 99.99 percent pure materials and in kilogram 
quantities at this time. So, yes, it is going to be a very 
important factor.
    In fact, recent things that I've read about nanotubes is 
that when you purchase a quantity of nanotubes, it's 40-45 
percent of what you want and 50-55 percent of something else. 
So it is a very important point.
    Senator Allen. Thank you both.
    Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    Dr. Jiao, we're thrilled you're here and representing 
Portland State, and you've really sparked tremendous interest. 
And I'm curious, when you mentioned that your students were 
excited that you were coming and you, sort of, gave them the 
day off, what was particularly exciting to them about what 
you're going to do and what's ahead in nanotechnology? And what 
else can we do to get students even more involved, particularly 
in an earlier age in high school?
    And I thought that would be a good question for you, since 
you've obviously spent a lot of time with interns and a variety 
of ways to get the students involved. So why don't you start us 
off?
    Dr. Jiao. Okay. If I'm allowed, I'll tell you a little 
systematic story how this works.
    First of all, my master's thesis in physics is about 
florins, which is buckyballs. I worked for a Professor Don 
Hoffman, who is the co-discoverer for the solid-state carbon 60 
while the Professor Richard Smalley won the Nobel Prize for his 
discovery if it is a molecule in the--but the solid state is 
Professor Hoffman and his co-workers in the Max Planck 
Institute. They found a way how to extract those molecules to 
be solid state so that we can see them, touch them, and study 
them.
    So then my Ph.D. thesis is a systematic study of the carbon 
nanotubes made by different method. So I carried this 
enthusiasm then to Portland State, and then we went to the 
laboratory, which we synthesized those molecules and in the 
solid state. So then in order to see them, you have to have the 
high-power electron microscope, because you have to magnify 
them a million times to see what they look like.
    So by--why the students--seeing, how the seeing is 
believing. So under these high-power microscope, when they see 
the molecules and they see the atoms, they were just thrilled, 
they were excited. They said, ``This is the science I want to 
go too.'' So this is why it's not, ``I love it. Come to work 
for me.'' They just--I have too many students to handle, 
because they see it and they really want--they understand, 
``Oh, this is how atoms viewed themselves in this way.'' But 
then in working in a laboratory, when we change the parameters, 
which means we lower the temperature, then we mix something 
else, and then we change the fluoride to the gas, and they made 
the tube shorter or even longer, so by changing this process, 
then they look at it, then they said, ``Okay, I can make a 
difference.'' Okay?
    So this kind of process made us feel to educate those young 
people you have to have--let them to have the chance to have 
hands-on, also to let them understand. So the best way is to 
not only teach them in theory in the class, but also to show 
them what you can do and what it will look like. So this is why 
students think, you know, ``If you understand this principle 
started from atomic level, definitely I can build these things 
one by one. I can be good architect,'' and then just to build 
these atoms to be the different way, then test their electronic 
properties.
    So I think this process is a wonderful educational process 
so we can make them excited, and we feel like the future should 
be this way because you work it down to the level of atoms. And 
I think maybe the next level is to see the nucleus. But they 
feel like this is the way to go. This is why they are so 
excited.
    Senator Wyden. Well, we should put you in charge of the 
whole Federal Government.
    [Laughter.]
    Dr. Jiao. Thank you very much.
    Senator Wyden. Thank you for an excellent answer.
    A couple of issues for you, Mr. Von Ehr. You're the second 
industry leader who's basically talked about how Bayh-Dole is 
dysfunctional, and that's something that I essentially hear 
everywhere. And, of course, when you bring this up, you know, 
most of the world has no idea what Bayh-Dole is, number one; 
and, even those who know what Bayh-Dole is, just sort of say, 
well, we're glad that it's there. But what I find is that it 
really doesn't work very well for any of the stakeholders that 
it's designed to serve. It supposed to, of course, be a great 
tool for private sector innovation that, in this technology 
treasure trove that the government runs with taxpayer dollars, 
it's supposed to get technological development out to the 
private sector, and it doesn't seem to. And somehow the 
universities seem snarled in red tape and frustration, and the 
private companies can't get access to it. And, of course, 
you're supposed to explain it to taxpayers. I have often though 
that if taxpayers knew what really goes on with these research 
dollars, they would show up in Virginia and Oregon and say, 
``Um, excuse me, you're spending billions and billions of 
dollars for research that's supposed to be transferred to the 
private sector, and, you know, why isn't it taking place?'' And 
I'd be curious if you could give us some specific examples of 
some of what has made you frustrated about Bayh-Dole, Mr. Von 
Ehr.
    Mr. Von Ehr. Well, I mentioned that I have given close to 
$4 million--a lot of that has gone to the University of Texas 
at Dallas; and, while we love the people there, we love working 
with them, we have not succeeded in transferring any technology 
or having a blanket agreement to do so. The people at the 
university have to work through the people at the system level, 
and those people don't have the same sort of drive that we do 
to productize what has been developed.
    I was in Houston last week talking with a professor who's a 
friend of mine and he's written a book on his experience 
starting up a company. And he has the wry observation that 
professors seem to value their stuff a lot higher than industry 
does; that the professor thinks it has an infinite value. And 
he's a professor in this role, and he said, ``They have no idea 
how much work it takes to actually turn it into a product and 
convince someone to sell it, to pay you money for it.''
    Senator Wyden. Well, anything you'd like to furnish us for 
the record with respect to your frustrations on Bayh-Dole, I 
would be especially interested in. We've had Hewlett-Packard 
and others, where you are, and really it's a story that needs 
to be told. Because this statute governs billions and billions 
of dollars of research funds, and I'm convinced it doesn't work 
for the stakeholders, companies, universities, taxpayers, and 
society at large. So we'd welcome your examples.
    The only thing that I would differ on. You can probably 
tell I feel strongly about it, so I don't take a back seat to 
anybody involving industry in these projects. The Advisory 
Committee, on page 17--I'm looking at it--says, ``The panel 
shall contain a reasonable cross-section of views and 
expertise.'' And we wrote that specifically so as to involve 
industry. It comes from the High-Performance Computing Statute, 
which set up the Information Technology Council, which is just 
filled with industry people. And then on page 18, we talk about 
getting recommendations from industry, as well, with respect to 
this position. And I'd like to note, just for the record, that 
industry has a listing that comes before academia, with respect 
to the advisory council. So I know of your good work and do not 
want to jump you too much here this afternoon, but----
    Mr. Von Ehr. Okay, well, I thank you.
    Senator Wyden. I feel very strongly that we do what it is 
you seek to have done, which is to make sure that industry has 
a very, very important place at the table. And as we thrash 
through this final effort, I want to assure you that we're 
going to keep in mind what it is you desire, because you're 
right, and we'll make sure it gets done.
    Mr. Von Ehr. Well, that's excellent. Thank you.
    Senator Wyden. Thank you.
    The only other question I had, Mr. Chairman, was for Mr. 
Baird. On the ethics question, what Chairman Allen and I have 
done in an effort to try to get out this ethics debate is to 
establish a center to begin the discussion, and we think that 
makes some sense, and we heard about that from a host of 
experts. But my sense is--I note Chairman Allen shares this 
view, as well--people are talking about this without waiting 
for the divine wisdom of the United States Senate. In other 
words, people are talking about ethics and social questions 
even before some characters in the United States Senate come 
along to tell them, ``Well, you're supposed to have a big 
debate.''
    Tell us a little bit about the discussion that is going on 
today, absent any federal legislation, with respect to ethics 
and nanotechnology and some of which you and your colleagues 
are doing already to start looking at these issues.
    Dr. Baird. Well, there's a lot of discussion about ethics, 
in general. But, in fact, I would say there is very little 
discussion by either trained ethicists or a fairly broad 
definition of ``trained ethicists'' about nanotechnology. I 
think, outside of the scientific and technical fields, people 
haven't heard of this, by and large. There are a few places 
where that's not true. South Carolina's one. Virginia's one. 
Illinois Institute of Technology is one. These are places I 
know of. They're doing some of this at Rice, although that's 
recent, I think.
    And so, I mean, nanotechnology is recent, so I would say 
the debate is early and raw at this point. We're trying to 
begin to sort out what are serious issues for the near-term, 
what are serious issues for the longer-term.
    I guess, in my view, in the near-term, you have clear 
issues about toxicity and regulation that need to be thought 
through carefully. I also think in the near-term, and this 
bears on the longer-term, it's really important to think about 
what are the--how are people constructing the goals and aims of 
nanotechnology as we build a National Nanotechnology 
Initiative? How, when we think about those goals, you know--
what's the adage, you've got to be careful what you hope for--
if we actually achieve them, what will really be the impact of 
achieving them? So we want to think about what are, as it 
were--the goals, if we actually achieve them, what will be the 
impact of them? That can be done now.
    And then there's a fairly extensive, but, I think, at this 
point, difficult-to-assess debate about issues about the very 
important, but, as of yet, unrealized potential for 
nanotechnology in the form of assembler/assembly, as it were, 
nanotechnology assembler/assembly. I think it's probably early 
to really engage that, because we don't know really what's 
going to come of that.
    That's a case where I think it's crucial that the people 
who are doing this debate are talking to the scientists. I 
think, to leave you with one thought, the most important thing 
that we need to have happen in this debate is to have 
engagement between the scientists and the ethicists. They have 
to talk to each other, they have to learn each other's 
language, they have to start, as it were, exchanging each 
other's views. And only in that way are we going to have some 
kind of positive move ahead.
    Senator Wyden. I agree with everything you said. I just 
want to add a lot more people to the debate, beyond the 
scientists and the ethicists.
    Dr. Baird. Oh, I----
    Senator Wyden. Because if we don't, Michael Crichton will 
drive the debate. That's what people will remember, in a sense.
    You all have been a terrific panel, between the two panels. 
Under Chairman Allen's leadership we've had a good cross-
section of views. I also regret that we have now made it 
impossible for Dr. Jiao to get the one non-stop flight to 
Portland----
    [Laughter.]
    Senator Wyden.--which all of us just pray for in terms of 
Oregon logistics.
    But we welcome your counsel as we try to move forward on 
this legislation. Nanotechnology is so exciting, and, at the 
same time, all of you, as witnesses, and Senator Allen and 
myself, as legislators, have known about things that have come 
along in the past that sounded exciting, and a variety of 
things happened along the way, and it never really reached its 
potential.
    I think nanotechnology's going to be different. I think 
that this is a field where we have not overstated the 
potential. And by listening to people like yourselves and the 
cross-section of people that we've sought to have involved in 
the legislation, we can do this job right. So our doors are 
open to you for input.
    Mr. Chairman, excellent hearing, always good to be working 
with you, and I look forward to moving ahead.
    Senator Allen. Thank you, Senator Wyden.
    And I thank all our witnesses in both panels. This last 
panel, thank you for coming long distances. We'll get you a 
room in Northern Virginia if you----
    [Laughter.]
    Senator Allen. Our sales taxes aren't as good as those in 
Oregon, which are zero in Oregon.
    [Laughter.]
    Senator Allen. But, nevertheless, we'll welcome you there.
    And, again, thank you all for your insight, for taking 
valuable time here to be a part of this nascent effort here in 
the Senate. The government is looking at this area. You all are 
our experts in your variety of fields. We thank you very much, 
look forward to working with you. And if you all ever do have 
any comments, insights, ideas, tweaking, maybe some parts of 
this measure have not been properly explained, please let us 
know. You don't have to go through the formalities of a 
hearing.
    With that, this hearing is concluded. Thank you all.
    [Whereupon, at 4:40 p.m., the hearing was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    The United States of America has led the world in scientific 
research and in technological innovations in the 20th Century, and the 
21st century will undoubtedly provide new challenges and opportunities. 
The true engine of the American economy has been to turn our scientific 
discoveries into practical applications and advancements in technology 
have allowed us to improve our economy, our national security, and to 
live richer lives. Today's science and technology innovations are 
uniquely characterized by the speed and information processing 
capabilities of our new machines. Traditional biology, traditional 
chemistry, and traditional physics have been literally transformed by 
technology. We are presently on the verge of new sciences, which will 
undoubtedly produce exciting new technologies.
    The new fields of nanotechnology, genomics, bioinformatics, and 
microengineering, among others, grow out of a synergy of physics, 
biology, chemistry, engineering, and advanced computational modeling. 
Recent advances in proteomics and genomics promise to allow us to 
understand the complex interactions of proteins within living cells and 
provide important clues to the mystery of living organisms. This basic 
research in biotechnology will certainly have unique applications and 
the integrative and predictive understanding of biological systems will 
improve our ability to respond to the energy and environmental 
challenges of the 21st century. Nanotechnology is the other half of 
this complementary pair of new sciences. Like genomics, nanotechnology 
combines traditional sciences into a new 21st century science. 
Nanotechnology offers immense possibilities for scientific 
advancements, achievements, and applications, with immense potential to 
transform our lives. It has equally wide applications--from energy, to 
medicine, to electronics. Like genomics, nanotechnology is what 
scientists and technologists label as an ``enabling'' technology--a 
tool that opens the door to new possibilities constrained only by basic 
science principles and our imaginations.
    I have introduced legislation in the Energy Committee to spur 
development and research in the field of genomics and bioinformatics, 
and look forward to considering the complimentary roles nanotechnology 
legislation can play. Along with Senator Wyden, I convened a Commerce 
Committee field hearing earlier this April on the Northwest economy 
that focused on the innovative science and industries that will drive 
that region's economy in the future. The hearing highlighted the 
exciting and unique opportunities that advanced manufacturing, 
including nano-scale fabrication, can have in spurring technological 
and economic development. At that hearing we heard about challenges 
facing these developing industries, and the role federal research and 
investment could play in growing those industries. In response to these 
findings, I have proposed legislation in partnership with the 
University of Washington to establish a Federal Aviation Administration 
Center for Excellence in Materials Science. Such a center would produce 
research that would develop techniques in maintaining and ensuring the 
durability of advanced material structures in transport aircraft, 
including at the molecular level.
    Another part of that same productive hearing on the Northwest 
economy revealed that biotechnology, including the nano-scale research 
into biological systems, can play a role in diversifying and driving 
economic development. I learned about many exciting advances fueled by 
biotechnology, and spoke with many bright innovators about challenges 
their research and their industries have faced. I am excited to say 
that many of these roadblocks will be removed, and a good deal of basic 
research provided, through the Genomes to Life bill, S. 682, I have 
introduced in this session. That bill capitalizes on the enormous 
success of the Human Genome Project, and promises to take this 
important research to the next level. While the mapping of the human 
genome was an unparalleled accomplishment on its own, this new 
initiative would allow researchers to go beyond the science of 
description, and begin to explore the complex interactions of the 
elements within cells--truly exciting and micro, if not nano-scale, 
research that promises great rewards in response to grand challenges.
    Other nations have already recognized the need to be at the 
forefront in these fields, and many have already provided support for 
genomic and nanotechnology research. In the U.S., both genomics and 
nanotechnology have been recognized by the Department of Energy, The 
National Research Council, and the National Science Foundation as high 
priorities for new research. American research institutions, companies, 
and universities have recently joined in these investigations. The 
State of Washington is already a national center for genomic research 
and the University of Washington is the first in the United States to 
offer Ph.D.'s in nanotechnology. Washington is home to many world-class 
research facilities. We have over 190 biotechnology companies employing 
more than 11,000 people. In 2001, the annual revenue of these companies 
exceeded $1.2 billion. Nearly one half of these companies were based on 
technologies developed at research and development institutions and 
over 40 percent of the companies have been established in the past six 
years. I believe that federally funded research in genomics and 
technology will provide more economic benefits, not only for 
Washington, but also for the nation.
    While our past leadership in science and technology may provide us 
a head start, it must not lull us into a false sense of accomplishment. 
We cannot afford to become complacent, but must take proactive steps to 
ensure our economic and scientific future is a real possibility, and 
that barriers to these new technologies are removed through targeted 
federal involvement. While these new fields involve experiments at the 
microscopic level, they often require sizable instrumentation and 
investments of federal support. This support is an example of the 
targeted role the government can play, not in competing with 
businesses, but in training America's workforce and providing 
fundamental theoretical research into new fields of knowledge.
    We must provide the federal support for a coordinated national 
program of research and development in emerging sciences. Federal 
investment in these new sciences will produce important scientific 
breakthroughs and result in long term benefits to our health, our 
economy, and our national security. I look forward to hearing today how 
we can do just that.
                                 ______
                                 
             Prepared Statement of Hon. Frank Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, this is an important hearing. Clearly, there is a 
limitless future with regard to the applications of nanotechnology 
across a wide variety of disciplines, including engineering, physics, 
chemistry, material sciences, and life sciences--to name just a few.
    The estimates of the economic impact of nanotechnology on existing 
and new manufacturing reach into the trillions of dollars.
    In time, nanotechnology will have an enormous impact on virtually 
every aspect of our lives.
    Not surprisingly, my home State of New Jersey is on the cutting 
edge of nanotechnology research and development. Lucent Technologies, 
the State of New Jersey, and the New Jersey Institute of Technology 
established the New Jersey Nanotechnology Consortium (NJNC) in early 
2003.
    The nucleus of the NJNC is the world-renowned Bell Labs 
nanofabrication laboratory in Murray Hill, along with the Bell Labs 
scientists and researchers who will become NJNC employees.
    By combining the leading-edge fabrication capabilities of this 
laboratory with New Jersey's academic research institutions and 
universities, NJNC is able to carry out basic and applied 
nanotechnology research and it has a unique capability to bring 
nanotechnology ideas from concept to commercialization.
    We must nurture the same type of capability at the federal level.
    Nanotechnology is being touted as ``the next industrial 
revolution'' and we must maintain our lead in the field to build on and 
sustain our commercial advantage over competing nations. That means we 
need to invest in the academic community and support the work of the 
National Science Foundation (NSF), which leads the way in 
interdisciplinary efforts.
    All nanotechnological advances, even the most beneficent, have what 
are called ``externalities.'' The automobile, for instance, represented 
an enormous improvement over horse-drawn carriages. But each year, 
thousands of people are killed in auto accidents and hundreds of 
thousands more are hurt. Moreover, cars are a leading cause of 
greenhouse gas emissions.
    I'm not suggesting that we would be better off without cars--far 
from it. My point is that there will be adverse consequences stemming 
from the development of nanotechnology.
    It may not be possible to anticipate all of the unintended 
consequences of developing nanotechnology, but we should try. I applaud 
Senator Wyden for recognizing this and adding to S. 189 provisions for 
establishing a Center for Societal, Ethical, Educational, Legal and 
Workforce Issues Related to Nanotechnology. Clearly, the earlier we 
grapple with the ethical issues and harmful consequences related to 
nanotechnology, the better off we will be at mitigating them.
    Thank you, Mr. Chairman.
                                 ______
                                 
            Prepared Statement of Hon. Joseph I. Lieberman, 
                     U.S. Senator from Connecticut
    Today, we are talking about the world's tiniest particles-and the 
huge, sweeping changes they could bring about for American science, 
technology, and business.
    Nanotechnology, as you all know, is an emerging field that seeks to 
understand and control events at the molecular scale and develop new 
materials with unique properties currently beyond the realm of 
conventional technology. The applications-from medicine and defense to 
electronics, environmental protection, and energy-are endless and 
endlessly impressive. To give just one example, in the life sciences, 
building innovative tools to study biology at the nanometer scale will 
shed light on a vast number of now mysterious biological processes. 
Those fantastic voyages and others like it can lead to novel 
therapeutic treatments and a better fundamental understanding of 
diseases like cancer.
    The economic impact will be equally profound. It has been estimated 
by the National Science Foundation that the impact of nanotechnology on 
existing and new manufacturing will be measured in the trillions of 
dollars. That could produce millions of new American jobs.
    One would think the world's most innovative and ingenious economy 
would be the uncontested pioneer in nanotech-but unfortunately, one 
would be wrong. As we speak, the United States is in danger of falling 
behind its Asian and European counterparts in supporting the pace of 
nano-technological advancement. While we have the resources and talent 
we need, unless this talent is well organized-with big-picture vision 
and new collaborations between government, academia, and industry-we 
may find ourselves left in the wake of the next great wave of 
innovation.
    To support ongoing nanotechnology efforts and to spur new ones, I 
was pleased last September to join Senators Ron Wyden and George Allen 
in cosponsoring the ``21st Century Nanotechnology Research and 
Development Act,'' and its reintroduction in the 108th Congress this 
January (S. 189). This Act will build on the efforts of the National 
Nanotechnology Initiative (NNI), which was started under President 
Clinton and has received continued support under President Bush, to 
establish a comprehensive, national program for addressing the full 
spectrum of challenges confronting a successful national nanotechnology 
agenda.
    Why is an executive initiative no longer enough? Funding for 
nanotechnology will soon reach $1 billion a year, with the NNI 
responsible for orchestrating programs across a wide range of federal 
agencies and departments. This level of funding and the coordination 
challenges that arise with so many diverse participants strongly 
recommend having a program based in statute, provided with greater 
support and coordination mechanisms, afforded a higher profile, and 
subjected to constructive Congressional oversight and support.
    Our bill will require a carefully integrated national effort and 
create an independent advisory panel to help shape that effort. The 
National Research Council (NRC), which completed a thorough review of 
the NNI in 2002, specifically recommended establishing such a panel. As 
the field of nanotechnology covers a wide variety of disciplines 
including engineering, physics, chemistry and life sciences-and experts 
from both inside and outside academia-guidance should come from a broad 
and representative panel. Although members of the President's Council 
of Advisors on Science and Technology are highly accomplished and 
esteemed, they are not necessarily steeped in the fast-changing field 
of nanotechnology. The task of providing an advisory roll for the 
overall direction of the program should not be a top-down process, but 
rather should fall to a group of members from both academia and 
industry that represents the range of nanotechnology disciplines and 
who are well-versed in the difficult challenges facing this emerging 
field.
    To ensure that the United States takes the lead in this new and 
promising field of science and technology, we must provide for the 
organization and guidance necessary to foster interaction between 
government, academia and industry. This legislation provides a strong 
framework to elicit contributions from all three sectors and thereby 
move nanotechnology research and development to the next level. I look 
forward to working with Senators Wyden and Allen to get this important 
bill through the Congress, and hope that we may all work together in a 
bipartisan fashion to set the stage for U.S. economic growth over the 
next century.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Frank Lautenberg to 
                          James R. Von Ehr II
    Question 1. How can new technologies best be turned into useful 
products? What role should the Federal Government play in this process?
    Answer. Market competition is the best, most cost-competitive way 
of turning technology into products. The private sector excels at this, 
but has a short-term time horizon, and will not invest in long-term 
programs with a return on investment that might be captured by a 
competitor. Hence, there is some justification for federal involvement 
in long-term technology development. In order for the American people 
to truly benefit from nanotechnology products and applications in the 
next decade, the Federal Government needs to ask the question: ``How 
can we foster real competition?'' when deciding to fund programs. Are 
the programs we are deciding to fund focused on both fundamental and 
applied research?

    Government funding of universities and government labs mostly funds 
basic fundamental scientific research, not technology development. The 
difference is important. Science is about understanding why something 
works, and doing it once to test the theory. Technology is about doing 
it reliably and repeatably, at an affordable cost, meeting 
environmental and safety standards, for a customer willing to pay for 
it.
    Universities embrace Bayh-Dole (regarding technology ownership by 
universities under federal grants). This allows universities to receive 
federal dollars to fund research programs in which they own the IP and 
can license and sell this science to companies. In order to take this 
science and turn it into meaningful technology, companies must, in 
addition to paying the steep university IP license and legal fees, also 
invest significant funds for engineering, manufacturing, and testing.
    Many companies are very frustrated and more importantly, the high-
risk, high-benefit technology that could benefit the American people 
the most is many times not transferred because the financial risk is 
too great. The American taxpayers are losing out on jobs and technology 
benefits because of the current technology-transfer process.
    We should strive to more effectively transfer university and 
government science to private sector technology firms. If I choose to 
fund a program at a university as an outsider, I am also expected to 
pay again to license any technology developed (the university lays 
claim to all intellectual property). That means I've paid once as a 
taxpayer, once as a funder, and once as a licensor. Three times seems 
excessive. If we just hire a consultant, with the same or greater 
expertise as a professor, our company contractually lays claim to the 
IP developed before hiring the consultant, and only has to pay once. We 
should strive to more effectively transfer university and government 
science to private sector technology firms.
    The role of the Federal Government should be to foster our national 
competitiveness in the following ways:

    (1) Ensure an educated populace, with a basic understanding of 
science and technology

    (2) Continue funding basic science, but start giving ``extra 
credit'' in future funding for successful tech transfer of past 
research.

    (3) We should NOT fund a new governmental agency or program to hire 
scientists and engineers and tell them to commercialize things--that 
won't work, because there's no competition and no personal gain for 
winning or personal pain for losing. Many of our foreign competitors in 
Europe and Asia fund governmental or quasi-governmental agencies tasked 
with developing technology and transferring it from labs (ironically, 
often labs in American universities) to local industry. Entrepreneurial 
business people, like we frequently see in Taiwan or China, will be 
first in line to catch this technology as it spins out of these 
entities, exploiting their advantage of cheap, educated labor and 
governmental assistance, instead of hindrance. We should be sure the 
mission of our government laboratories is clearly focused on ``big 
science'' projects that the private sector shouldn't do (like nuclear 
fusion), and not on things that could be done more cheaply in 
universities or the private sector.

    (4) Our government should not ``pick winners,'' nor engage in 
``corporate welfare,'' but we should consider helping industry in that 
development gap between a scientific result and a saleable product. 
U.S. private-sector investment time horizons are short, and investors 
are risk-averse. Today, we have two governmental programs, the SBIR, 
and the NIST-ATP, that award money competitively. Both could be 
improved with some minor changes:

        (a) SBIR Phase 1 awards are less than $100K, which is quite 
        small in 2003 dollars, and Phase 2 awards, while larger, are 
        still not large enough to support collaborations required for 
        complex projects. A well-managed company can easily decide the 
        SBIR economics aren't worth applying for this money, and focus 
        on more near-term, less risky opportunities with less potential 
        reward. Significantly, the NIH funds larger SBIR Phase 1 and 2 
        awards to life science companies than other agencies. It would 
        be advantageous to increase competitive SBIR awards in other 
        agencies.

        (b) On the other hand, many companies become SBIR mills, living 
        from grant to grant without ever productizing anything. The 
        government has started penalizing such companies in their 
        future competitions, and should start evaluating the business 
        case as well as the technical merits in proposals (like the 
        NIST-ATP currently does).

        (c) The NIST-ATP is nearly a model program, but has been 
        savaged as ``corporate welfare'' by some detractors. However, 
        using expert peer review for the technology component and 
        business plan review for the business component, is how the 
        venture capitalists invest and succeed. This program should be 
        elevated in the Commerce Department, and professional venture 
        capitalists recruited to help with the business plan 
        evaluation. The role of the ATP should be as a competitive 
        ``seed fund'' to incubate technologies with too long a 
        development time to be privately funded. Again, for future 
        applications, points could be awarded for successful 
        commercialization of past awards, or deducted for failure to 
        make a commercial product. The program should be funded in a 
        more stable fashion, and funding increased in an even more 
        competitive manner.

        (d) We should, through the Homeland Security Agency, increase 
        competitive funding through both the NIST-ATP and SBIR programs 
        to solve our most pressing Homeland Security scientific and 
        technical needs. The country that is dominant in Nanotechnology 
        holds a competitive edge in this war against terrorism.

    What if we do nothing?
    We'll still have short-term nanotechnology technology development 
in the U.S., funded by private equity and private sector corporations. 
And the government will save money in the short run. But long-term 
research will migrate offshore, following the educated workforce, 
adequate long-term government funding, and friendly government 
regulation, and in 10-15 years, we'll be buying our highest technology 
from Asia. We won't be exporting just manual labor jobs--we will have 
exported our top-tier technology jobs as well. In today's dynamic 
world, this technology migration MIGHT happen even with such a program, 
but it certainly WILL happen without it.
    Question 2. What role do you see for the federal government in 
encouraging and developing of public private partnerships and business-
to-business partnerships?
    Answer. It is hard to formulate a model public-private partnership, 
due to the immense power difference between the two parties. Even a 
partnership between a large company and a small one is very difficult 
to make work, where both parties are signed up for the same goals. The 
small company, as is the case with Zyvex, has to spend 10-percent of 
its total resources on proposals, compliances, and reporting. Our 
foreign competitors in Asia are able to spend more of their time 
competing and figuring out how to sell to more customers.

    It is distressingly rare to find government and industry signed up 
for the same goals, so it is not surprising that we have few examples 
of success. Sematech is the only one that comes to mind. And Sematech 
participants were, if I recall, given limited exemption from antitrust 
laws, allowing them to work together in a way that would send non-
exempted companies to antitrust court.
    However, the voice of industry can be helpful to helping government 
spend its money more wisely, and get more return. A simple way is to 
assure that panels, such as the review panels for the nanotechnology 
program in S. 189, include representatives from large and small 
businesses, and not just academia and government. The voice of business 
would consider issues like deployment of technology, return on 
investment, competition, strategic partnering, and reporting burdens in 
a way the other representatives would not. The President's PCAST group 
has an incredibly strong representation by well-known big business 
executives and academics, but there is not much small business 
representation on that panel, and few members in emerging fields like 
biotech or nanotech.
    Business-to-business partnerships are going to be increasingly 
important to our national competitiveness. Problems today are too big, 
and technology is becoming too specialized, for any but the biggest 
companies to stand alone. Japanese companies frequently get together 
independently, and with governmental ministries, to solve problems, and 
even plan their competitive strategy. American companies must do this 
very carefully, or run the risk of violating antitrust laws.
    Our NIST-ATP award, with Zyvex as lead and Honeywell as our 
manufacturing joint venture (JV) partner, is an example of how the 
government can help a business-to-business relationship. Honeywell 
replaced our first JV partner, a small firm that fell victim to bad 
management and the technology recession. Before winning the ATP award, 
Zyvex was too small to get Honeywell's attention, but when we 
approached them about replacing our first JV partner, they were very 
receptive, even though the program required a 50-percent cost-share by 
both JV partners. Zyvex got a world-class MEMS (MicroElectroMechanical 
System--or silicon micromachines) foundry and MEMS processing 
engineers, and Honeywell got to work with a world-class MEMS design 
team at Zyvex to develop a new MEMS process enabling whole new 
applications. This new process may become an additional publicly-
available technology to augment a particular MEMS technology (MUMPs) 
developed at great government expense by an American university, spun 
into an American company, sold to a Canadian company, and recently sold 
to and now controlled by a French company. This French MEMS company now 
runs most of the standard MEMS components American small companies and 
universities use to train our next generation of MEMS engineers. The 
Zyvex-Honeywell process could bring some of that business back to the 
U.S., providing superior design flexibility to MEMS designers in the 
process.
    This development would not have happened without our NIST-ATP 
award. Zyvex would be working in less risky areas, and Honeywell would 
be developing processes only for their own internal needs. The three 
university subcontractors (RPI, University of North Texas, and 
University of Texas at Dallas) would not be working on this leading-
edge technology commercialization. Other American small companies and 
universities would have no choice but to build their own MEMS foundry, 
if they were big enough, or buy the French components if they couldn't 
afford the required $20-50M investment.
    Our NIST-ATP is one of the rare examples of government, small and 
big business, and universities working together toward a shared vision 
of developing parallel micro and nano assembly of heterogeneous 
systems. Although our NIST-ATP is still in the early stages, we expect 
significant economic benefits to come later in the program, as we 
demonstrate new manufacturing techniques that will lay a foundation for 
the U.S. to regain the lead in manufacturing.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Frank Lautenberg to 
                         Dr. E. Clayton Teague
    Question. Do you think the National Science Foundation's (NSF) 
current balance between funding long term research and more short-term 
commercial enterprises is appropriate? How would you suggest the 
distribution be altered?
    Answer. The Federal Government has a clear role to play in funding 
the type of long-term, basic research that industry simply cannot 
support given its bottom line-directed emphasis on research and 
development (R&D) with nearer term benefits. While many agencies 
support fundamental research as part of a portfolio that includes 
applied research and development and is focused on the agency's 
mission, the National Science Foundation (NSF) is charged with 
supporting research across the entire range of scientific and 
engineering disciplines--a unique role. NSF Director Rita Colwell has 
described the agency's mission as ``to keep science and engineering 
visionaries focused on the furthest frontier, to recognize and nurture 
emerging fields, to prepare the next generation of scientific talent, 
and to ensure that all Americans gain an understanding of what science 
and technology have to offer.'' The agency's focus on fundamental 
research has resulted not only in breakthroughs of importance to 
researchers, but has also contributed to discoveries with tremendous 
societal and commercial significance--such as the Internet and Magnetic 
Resonance Imaging (MRI).
    In keeping with its mission, NSF has directed the lion's share of 
its nanotechnology-focused resources toward the support of long term, 
fundamental research, much of which goes to academic institutions. 
NSF's nanotechnology research funding is distributed among seven 
research and education themes including nanobiosystems, novel processes 
and materials, novel device and systems architecture, modeling and 
simulation, manufacturing science, nanoscale processes in the 
environment, and societal implications, and is awarded based on a 
competitive, merit review-driven process.
    Considering NSF's charge, the current ratio of long-term vs. short-
term funding is appropriate. It is also consistent with a 
recommendation of the National Research Council (NRC) in their report 
Small Wonders, Endless Frontiers: A Review of the National 
Nanotechnology Initiative. Specifically, the NRC recommended that the 
National Nanotechnology Initiative should support long-term funding in 
nanoscale science and technology, saying ``if an idea is truly 
revolutionary and promises higher impact successes, a longer period--
and longer term funding--is needed to demonstrate results.''
    At the same time, NSF makes awards to small businesses as part of 
the Small Business Innovation Research (SBIR) and Small Business 
Technology Transfer (STTR) programs, in order to help support 
technology transfer and development. In FY 2002, NSF funded 
approximately $10 million worth of SBIR and STTR grants related to 
nanotechnology. NSF also funds, using a competitive, merit review-based 
process, centers and networks of excellence that bring together 
researchers from different organizations--including industry--to 
address nanotechnology research questions and to enhance the transition 
of basic research into applications and commercialization. These 
centers arid networks provide access to advanced instrumentation and 
computation capabilities, and are focused on topics such as 
nanobiology, environmental engineering, molecular electronics, and 
others. The President requested $46 million for these NSF centers in 
the FY 2004 Budget. Other agencies, notably the Department of Energy 
and the Department of Defense, sponsor additional multi-user 
facilities.
    In addition, as part of the multi-agency Nanoscale Science, 
Engineering and Technology Subcommittee of the National Science and 
Technology Council, NSF arid the other member agencies sponsor 
workshops aimed at facilitating interactions amongst government and 
university researchers and representatives from industry in order to 
promote the commercialization of federally-funded research results.
    Finally, it is worth noting that commercialization of federally-
funded, long-term research at academic institutions and other 
enterprises occurs regularly. Universities and other non-profit 
organizations are increasingly engaged in efforts to commercialize the 
results of Federally-funded research, Many, if not most, research 
universities now have active technology licensing offices that seek to 
license and commercialize university-owned intellectual property.
                                 ______
                                 

Response to the following questions submitted by Hon. John McCain was 
        not available at the time this hearing went to press.

  Written Questions Submitted by Hon. John McCain to Dr. James Murday
    Question 1. Based on your experience as the first director of the 
National Nanotechnology Coordination Office (NNCO), what kind of 
response does NNCO usually get from participating agencies?
    Question 2. S. 189 would codify the NNCO. What functions should 
NNCO be directed in statute to specifically carry out?
    Question 3. Your testimony states that the Department of Defense 
has nanoscience programs that are 20 years old. Do the National 
Nanotechnology Initiative (NNI) and NNCO run adequately designed 
programs that facilitate the transmission of lessons learned and ``best 
practices'' from more established government nanoscience research 
programs, such as the DOD one, to agencies that have not been studying 
the area for such a long time?
    Question 4. Based on your experience in the Office of Naval 
Research and NNCO, what are best practices that agencies should pursue 
to successfully transfer nanoscience research to practical technology 
applications?
    Question 5. When you were director of the NNCO, what were the 
greatest challenges to the transfer of nanotechnology to the commercial 
sector?
                                 ______
                                 
  Written Questions Submitted by Hon. John McCain to Dr. James Roberto
    Question 1. Given your position at the Oak Ridge National 
Laboratory, do you feel that the federal research infrastructure is 
adequate at this point to support the level of funding that is being 
proposed for nanotechnology research?
    Question 2. You mentioned in your statement that the boundaries 
between disciplines are disappearing at the nanoscale.

        a) Is this the beginning of a new discipline area for the 
        colleges and universities?

        b) If so, are you aware of any schools which have already 
        started degree programs in this area?

    Question 3. The Department of Energy has Nanoscale Research Centers 
that are designed to be ``user facilities'' for use by U.S. industry 
researchers. How has industry utilized these research centers?
    Question 4. How does the Department of Energy's nanoscale research 
tie into the President's FreedomCAR Initiative?
    Question 5. What are the greatest barriers today to the application 
of greater nanoscale research to the commercial sector?
    Question 6. Based on the research that you have conducted, what are 
some of the short-term, mid-range, and long-term results that the 
average American consumer should see from energy-related nanotechnology 
research?
                                 ______
                                 
   Written Questions Submitted by Hon. John McCain to Dr. E. Clayton 
                                 Teague
    Question 1. The Administration proposes reconstituting the 
Nanoscale Science, Engineering, and Technology (NSET) Subcommittee with 
higher level agency management. What benefits do you believe will be 
achieved by this plan?
    Question 2. One objective of the National Nanotechnology 
Coordination Office (NNCO) is to assure the broadest possible 
geographical distribution of the benefits of nanotechnology 
development, and work with state nanotechnology initiatives. 
Considering that many states are facing budgetary challenges this year, 
how much support has there been in the states for nanotechnology 
initiatives?
    Question 3. Your testimony states that the National Science 
Foundation (NSF) has added a new research and education theme on 
``manufacturing at the nanoscale,'' and that the program element 
``Nanomanufacturing'' has been established in the Directorate of 
Engineering. What are some of the topics that are being researched in 
the field on ``nanomanufacturing''?
    Question 4. You have outlined some of the challenges that still 
face basic nanoscale processes, such as the need to develop the 
understanding and tools for the full control of assembling reasonably 
large numbers of atoms into desired structures. What are some of the 
other basic research areas that require greater research in order to 
develop commercial applications of nanotechnology?
    Question 5. S. 189 would establish a Center for Societal, Ethical, 
Educational, Legal, and Workforce Issues. Are there specific issues 
that you believe this center should be directed to study?
                                 ______
                                 
   Written Questions Submitted by Hon. John McCain to Dr. Davis Baird
    Question 1. What changes to S. 189 would you recommend to ensure 
that social and ethical concerns are properly addressed?
    Question 2. Your testimony brings up the sensational warnings of 
Michael Crichton and Bill Joy about the dangers of nanotechnology 
research. How should government officials, academic researchers, and 
private sector companies engaged in nanotechnology research 
constructively address these warnings?
    Question 3. What new discoveries in the social and ethical areas of 
nanotechnology are you learning from your work at the University of 
South Carolina that may warrant a change in the future course of the 
nanoresearch programs?
                                 ______
                                 
    Written Questions Submitted by Hon. John McCain to Dr. Jun Jiao
    Question 1. Can you discuss the extent of your partnerships with 
industry concerning your research? Are they for funding support or 
commercialization agreements?
    Question 2. You spoke about the excitement of students in this area 
at both the college and the high school level. Here in the Senate, we 
often hear stories about how U.S. students are not interested in math 
and science. Your experience seems to contradict that. Can you comment 
on this?
    Question 3. Your testimony emphasizes the importance of education 
for the future nanotechnology workforce. What type of educational 
background and skills will be required?
                                 ______
                                 
 Written Questions Submitted by Hon. John McCain to Dr. Kent A. Murphy
    Question 1. You have mentioned Bayh-Dole as a great start. What 
changes would you recommended to Bayh-Dole to facilitate even greater 
technology transfer? Does the transfer of nanotechnologies have unique 
requirements?
    Question 2. Your statement indicates that Luna has generated $6 of 
private sector funding for $1 of government funding. Can you elaborate 
on the importance of this 6.1 ratio and how you have been able to 
accomplish that?
    Question 3. Luna has been able to spin-off five companies since 
1999 in various high tech areas. Luna was presented the prestigious 
Tibbets award by the U.S. Small Business Association for its work in 
research and development. It appears that Luna has positioned itself to 
commercialize new technologies as they become viable for commercial 
use. Can you comment on your business model and what lessons others, 
including the government, may be able to learn from your success?
    Question 4. As a company that's engaged in the nanotechnology 
business, can you identify a federal source that you can contact for 
information on the latest concerning federally funded activities in 
this area?
    Question 5. Can you discuss an application of nanomaterials in 
which your company has generated revenues?
    Question 6. You mentioned that Virginia was the first state to 
establish the position of Secretary of Technology. What has that meant 
for the technology companies of the state?
                                 ______
                                 
 Written Questions Submitted by Hon. John McCain to James R. Von Ehr II
    Question 1. Questions have been raised about the industrialization 
of nanotechnolgy research, such as factory design, issues regarding the 
health of workers, and worker skill level. Could you please comment on 
these issues, and how Zyvex is addressing them?
    Question 2. Many nanotechnology companies are still in the start-up 
phase. Based on your experience, what strategies should start-up 
companies use to attract investors and generate a profit?
    Question 3. What impact did the failures of Internet companies have 
on other technology start-up companies?
    Question 4. What changes would you recommend to Bayh-Dole and other 
statutes to facilitate greater technology transfer?
    Question 5. You mentioned that Craig Venter framed the sequencing 
of the human genome as a business problem, and not a scientific 
problem. He then proceeded to solve it. Can you discuss what it means 
to approach the problem as a business problem and not a scientific one?
    Question 6. Can you discuss why 5 years will be too long for the 
availablity of new government labs to support nanotechnology research?

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
